<html>
<title> - HEARING ON EXAMINING THE POLICIES AND PRIORITIES OF THE U.S. DEPARTMENT OF LABOR</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]





                        HEARING ON EXAMINING THE
                       POLICIES AND PRIORITIES OF
                      THE U.S. DEPARTMENT OF LABOR

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                               AND LABOR
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, MAY 1, 2019

                               __________

                           Serial No. 116-20

                               __________

      Printed for the use of the Committee on Education and Labor



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





           Available via the World Wide Web: www.govinfo.gov
                                   or
              Committee address: https://edlabor.house.gov 
              
              
              
              
                             _________
                              
                 U.S. GOVERNMENT PUBLISHING OFFICE
                 
36-595                   WASHINGTON : 2020
              
              
              
              
              
              
              
              
              
              
              
              
              
              
                    COMMITTEE ON EDUCATION AND LABOR

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

Susan A. Davis, California           Virginia Foxx, North Carolina,
Raul M. Grijalva, Arizona            Ranking Member
Joe Courtney, Connecticut            David P. Roe, Tennessee
Marcia L. Fudge, Ohio                Glenn Thompson, Pennsylvania
Gregorio Kilili Camacho Sablan,      Tim Walberg, Michigan
  Northern Mariana Islands           Brett Guthrie, Kentucky
Frederica S. Wilson, Florida         Bradley Byrne, Alabama
Suzanne Bonamici, Oregon             Glenn Grothman, Wisconsin
Mark Takano, California              Elise M. Stefanik, New York
Alma S. Adams, North Carolina        Rick W. Allen, Georgia
Mark DeSaulnier, California          Francis Rooney, Florida
Donald Norcross, New Jersey          Lloyd Smucker, Pennsylvania
Pramila Jayapal, Washington          Jim Banks, Indiana
Joseph D. Morelle, New York          Mark Walker, North Carolina
Susan Wild, Pennsylvania             James Comer, Kentucky
Josh Harder, California              Ben Cline, Virginia
Lucy McBath, Georgia                 Russ Fulcher, Idaho
Kim Schrier, Washington              Van Taylor, Texas
Lauren Underwood, Illinois           Steve Watkins, Kansas
Jahana Hayes, Connecticut            Ron Wright, Texas
Donna E. Shalala, Florida            Daniel Meuser, Pennsylvania
Andy Levin, Michigan*                William R. Timmons, IV, South 
Ilhan Omar, Minnesota                    Carolina
David J. Trone, Maryland             Dusty Johnson, South Dakota
Haley M. Stevens, Michigan
Susie Lee, Nevada
Lori Trahan, Massachusetts
Joaquin Castro, Texas
* Vice-Chair

                   Veronique Pluviose, Staff Director
                 Brandon Renz, Minority Staff Director
                                 ------                       
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 1, 2019......................................     1

Statement of Members:
    Scott, Hon. Robert C. ``Bobby'', Chairman, Committee on 
      Education and Labor........................................     1
        Prepared statement of....................................     5
    Foxx, Hon. Virginia, Ranking Member, Committee on Education 
      and Labor..................................................     7
        Prepared statement of....................................     8

Statement of Witness:
    Acosta, Hon. Alexander, Secretary, U.S. Department of Labor..     9
        Prepared statement of....................................    10

Additional Submissions:
    Jayapal, Hon. Pramila, a Representative in Congress from the 
      State of Washington:
        Federal Child Law Hazardous Occupations Order No. 7 (H07) 
          and Power-Driven Patient Lift Assist Devices: Revisions 
          to Law.................................................    63
    Sablan, Hon. Gregorio Kilili Camacho, a Representative in 
      Congress from the Northern Mariana Islands:
        Letter dated September 13, 2018..........................    39
        Letter dated December 14, 2018 from the U.S. Department 
          of Labor...............................................    42
    Chairman Scott:
        Report: How CBO and JCT Analyzed Coverage Effects of New 
          Rules for Association Health Plans and Short-Term......   107
    Questions submitted for the record by:
        Adams, Hon. Alma S., a Representative in Congress from 
          the State of North Carolina............................   139
        Bonamici, Hon. Suzanne, a Representative in Congress from 
          the State of Oregon....................................   137
        Castro, Hon. Joaquin, a Representative in Congress from 
          the State of Texas.....................................   147
        Davis, Hon. Susan A., a Representative in Congress from 
          the State of California................................   135
        Fulcher, Hon. Russ, a Representative in Congress from the 
          State of Idaho.........................................   151
        Grijalva Hon. Raul M., a Representative in Congress from 
          the State of Arizona...................................   136
        Harder, Hon. Josh, a Representative in Congress from the 
          State of California....................................   141
        Hayes, Hon. Jahana, a Representative in Congress from the 
          State of Connecticut...................................   143
        Ms. Jayapal..............................................   141
        Lee, Hon. Susie, a Representative in Congress from the 
          State of Nevada........................................   146
        McBath, Hon. Lucy, a Representative in Congress from the 
          State of Georgia.......................................   142
        Norcross, Hon. Donald, a Representative in Congress from 
          the State of New Jersey................................   140
        Omar, Hon. Ilhan, a Representative in Congress from the 
          State of Minnesota.....................................   145
        Roe, Hon. David P., a Representative in Congress from the 
          State of Tennessee.....................................   148
        Rooney, Hon. Francis, a Representative in Congress from 
          the State of Florida...................................   149
        Mr. Sablan...............................................   136
        Chairman Scott...........................................   133
        Shalala, Hon. Donna E., a Representative in Congress from 
          the State of Florida...................................   144
        Stevens, Hon. Haley M., a Representative in Congress from 
          the State of Michigan..................................   146
        Underwood, Hon. Lauren, a Representative in Congress from 
          the State of Illinois..................................   143
        Walberg, Hon. Tim, a Representative in Congress from the 
          State of Michigan......................................   149
    Secretary Acosta's response to questions submitted for the 
      record                                                        153

 
                 HEARING ON EXAMINING THE POLICIES AND
                           PRIORITIES OF THE
                        U.S. DEPARTMENT OF LABOR

                              ----------                              


                         Wednesday, May 1, 2019

                     U.S. House of Representatives,

                   Committee on Education and Labor,

                            Washington, DC.

                              ----------                              

    The Committee met, pursuant to notice, at 10:16 a.m., in 
room 2175, Rayburn House Office Building, Hon. Robert C. 
``Bobby'' Scott [Chairman of the Committee] presiding.
    Present: Representatives Scott, Davis, Courtney, Fudge, 
Sablan, Wilson, Bonamici, Takano, DeSaulnier, Norcross, 
Jayapal, Morelle, Wild, Harder, McBath, Schrier, Underwood, 
Hayes, Shalala, Levin, Omar, Trone, Stevens, Lee, Trahan; Foxx, 
Roe, Thompson, Walberg, Guthrie, Byrne, Grothman, Stefanik, 
Allen, Rooney, Smucker, Banks, Walker, Comer, Cline, Fulcher, 
Taylor, Watkins, Wright, Meuser, Timmons, and Johnson.
    Staff present: Alli, Tylease, Chief Clerk; Barab, Jordan, 
Senior Labor Policy Advisor; Brown, Nekea, Deputy Clerk; 
Brunner, Ilana, General Counsel--Health and Labor; Dailey, 
David, Senior Counsel; Hernandez, Itzel, Labor Policy Fellow; 
Hughes, Carrie, Director of Health and Human Services; Hovland, 
Eli, Staff Assistant; Lalle, Stephanie, Deputy Communications 
Director; Lee, Bertram, Policy Counsel; Lindsay, Andre, Staff 
Assistant; McClelland, Katie, Professional Staff; McDermott, 
Kevin, Senior Labor Policy Advisor; Miller, Richard, Director 
of Labor Policy; Moore, Max, Office Aide; Onwubiko, Udochi, 
Labor Policy Counsel; Pluviose, Veronique, Staff Director; 
Ronis, Carolyn, Civil Rights Counsel; Vassar, Banyon, Deputy 
Director of Information Technology; Walker, Katelyn, Counsel; 
West, Rachel, Senior Economic Policy Advisor; Yu, Cathy, 
Director of Labor Oversight; Artz, Cyrus, Minority 
Parliamentarian; Boughton, Marty, Minority Press Secretary; 
Butcher, Courtney, Minority Director of Coalitions and Member 
Services; Chougule, Akash, Minority Professional Staff Member; 
Green, Rob, Minority Director of Workforce Policy; Jones, Amy 
Raaf, Minority Director of Education and Human Resources 
Policy; Martin, John, Minority Workforce Policy Counsel; 
Martin, Sarah, Minority Professional Staff Member; Matesic, 
Hannah, Minority Director of Operations; McNabb, Kenney, 
Minority Communications Director; Middlebrooks, Jake, Minority 
Professional Staff Member; Murray, Alexis, Minority 
Professional Staff Member; Renz, Brandon, Minority Staff 
Director; Ridder, Ben, Minority Legislative Assistant; 
Schellin, Meredith, Minority Deputy Press Secretary and Digital 
Advisor; Thomas, Brad, Senior Education Policy Advisor; Wadyka, 
Heather, Minority Staff Assistant; and Williams, Lauren, 
Minority Professional Staff.
    Chairman Scott. We want to welcome everyone here today. I 
know the quorum is present. The Committee is meeting today to 
examine the policies and priorities of the U.S. Department of 
Labor. Pursuant to Committee Rule 7(c), opening statements are 
limited to the Chair and Ranking Member. This will allow us to 
hear from our witness sooner and provides all members with 
adequate time to ask questions. I now recognize myself for the 
purpose of making an opening statement.
    Mr. Secretary, before we begin, I want to express our 
profound sadness over the shooting that took place yesterday at 
the University of North Carolina in Charlotte. This is yet 
another tragic reminder of our responsibility to address the 
gun violence that impacts communities across the country. I 
also want to acknowledge the absence of our colleague, the 
gentlelady from North Carolina, Ms. Adams, who traveled home to 
be with her constituents in this difficult time.
    Mr. Secretary, I want to begin by thanking you for 
appearing before the Committee today. This hearing is an 
important opportunity to discuss the Department of Labor's 
budget request for Fiscal Year 2020 as well as the many other 
important issues under your jurisdiction. I am particularly 
interested in the bonding program that you mentioned earlier 
today in our discussion. It looks like a great program for both 
workers and business, we will hopefully have an opportunity to 
discuss it.
    As its mission statement makes clear, the Department of 
Labor's responsibility is to ``foster, promote, and develop the 
welfare of the wage earners, job-seekers, and retirees of the 
United States.'' Unfortunately, the proposed Fiscal Year 2020 
budget for the department cuts programs and policies that are 
designed to serve this mission.
    The President's budget, which reduces the Department of 
Labor's funding by 10 percent or $1.2 billion, reflects less 
support for hardworking people who are struggling to get ahead. 
For example, our economy increasingly demands and rewards high-
skilled employees, but the President's proposed budget falls 
hardest on work force development programs that provide workers 
with a path to financial security.
    For example, the Job Corps is cut 41 percent, and the 
Reentry Employment Opportunities Program, which provides a 
second chance to formerly incarcerated individuals, suffers a 
16 percent cut.
    This budget also seeks to expand untested work force 
training programs at the expense of proven, high-quality 
registered apprenticeships. For example, the registered 
apprenticeship program has long offered generations of 
Americans work force training opportunities that provide good 
wages and benefits and a pathway to a rewarding career.
    However, the department's industry-recognized 
apprenticeship programs are not accountable to quality 
standards that protect the interests of workers and taxpayers. 
This has the effect of undermining work force training programs 
that are now recognized anywhere in the country, from Virginia 
to Washington State, and can reshape the future of individuals, 
their families, and their communities.
    The Occupational Safety and Health Administration, OSHA, 
which is responsible for protecting Americans' right to safe 
working conditions, is also in desperate need of increased 
funding. Nearly 3 million workers experienced a serious 
workplace injury or illness in 2017, and more than 5,000 
workers were killed on the job.
    At current staffing levels, OSHA only has enough resources 
to inspect workplaces once every 165 years. There are now fewer 
OSHA inspectors today than at any time in its 49-year history, 
yet the President's budget allocates no additional funding to 
improve workplace safety. Compared to the massive tax cut 
recently given to corporations and the top 1 percent, the 
administration's refusal to support workers and middle-class 
families is a disappointment to hardworking people across the 
country.
    For example, the Department of Labor has opposed two of the 
most significant efforts to immediately raise wages and improve 
living conditions for millions of American workers. After 10 
years with no increase, the Federal minimum wage has lost more 
than 15 percent of its value, and today there is no place in 
America where a full-time minimum wage worker making $7.25 an 
hour can afford even a modest two-bedroom apartment.
    But the administration's only response has been to 
criticize our efforts to gradually raise the minimum wage 
without offering any alternative. A wide body of rigorous 
research and the experience of States and cities across the 
country demonstrates that gradually raising the minimum wage to 
$15 an hour will be good for workers, good for businesses, and 
good for the economy. I hope the administration will follow the 
evidence and join our effort to give millions of low-wage 
workers a raise that is long overdue.
    The department has not only opposed raises for low-wage 
workers, it has undermined raises for middle-class workers as 
well. Under your leadership, the department abandoned the 
Obama-era overtime rule that would have expanded overtime pay 
protections to an estimated 4.2 million salaried workers and 
strengthened protections for an additional 8.9 million salaried 
workers.
    In its place, the administration is offering a new overtime 
proposal that is better than nothing but leaves behind more 
than 8 million workers and erases the department's obligation 
to update the rule to keep up with inflation. That failure will 
deny even more workers overtime protections in the years to 
come. Compared to the Obama overtime rule, the administration's 
proposal will cut middle-class workers' wages every year by 
$1.2 billion.
    The department's record on workplace safety, workers' right 
to organize, and workers' access to affordable healthcare has 
also undermined the health and well-being of the American 
public. OSHA has moved to weaken workplace safety standards, 
including protections against exposure to beryllium, a metal 
that can cause cancer and severe lung disease.
    This is the first time in OSHA history that protections 
against known carcinogens have been actually rolled back. It 
has removed standards covering toxic chemicals and combustible 
dust from the regulatory agenda, while relegating to the back 
burner standards to protect healthcare workers from exposure to 
infectious diseases such as Ebola, pandemic flu, and MRSA.
    After decades of declining rates of black lung disease, the 
scourge has returned at epidemic levels. Experts point to 
silica exposure as the culprit. But while we have developed new 
technologies to monitor exposures, the Mine Safety and Health 
Administration, charged with safeguarding miners, is failing to 
act. Meanwhile, the Black Lung Disability Trust Fund, which 
provides most of the funding for miners' black lung benefits, 
is going broke. The administration's budget fails to extend the 
excise tax on coal, which is needed to ensure the solvency of 
that fund. That tax expired December 31st of last year.
    And the department has played a central role in the 
administration's sabotage of the Affordable Care Act by 
expanding the use of junk healthcare plans. These plans not 
only put participants at risk of losing key consumer 
protections, they increase costs for all Americans who are not 
buying such plans by diverting younger, healthy Americans away 
from the general insurance pool, increasing the cost for 
everybody else.
    The department has repeatedly attempted to erase the 
contraceptive coverage benefit that an estimated 62 million 
women currently enjoy under the Affordable Care Act. Despite 
failing to withstand multiple legal challenges, the department 
has attempted to implement rules that would leave many female 
employees, students, and their dependents with no insurance 
option for contraceptive coverage.
    Finally, last August the department's Office of Federal 
Contract Compliance Programs, the OFCCP, quietly issued a 
directive that would expand the right of Federal contractors to 
justify employment-based discrimination based on their 
religiously held beliefs. Directive 2018-03 grossly undermines 
Executive Order 11246, which was issued by President Lyndon 
Johnson, to ensure that Federal contractors are not 
discriminating on the basis of race, color, religion, national 
origin, gender, or other factors, and in fact the Johnson 
directive required businesses to have affirmative action 
initiatives to ensure that equal opportunity existed. The 
department's indefensible directive turns the Executive Order 
on its head to provide Federal contractors with a religious-
based defense to allow them to discriminate in employment with 
Federal taxpayers' money.
    Mr. Secretary, for too long we have acted as though the 
growing economy means that what is good for the economy is 
inherently good for all workers. But evidence and experience 
demonstrate that benefits of economic growth are not being 
shared by all workers and their families. Even as the stock 
market hits record highs, one in nine workers is paid a wage 
that leaves them in poverty, even when working full-time and 
year-round. More than four in 10 American households still 
cannot cover a $400 emergency medical bill. Four in five 
workers are still living paycheck to paycheck.
    These numbers are not cause for celebration. They are cause 
for action to address the inequality that continues to plague 
workers, families, and communities across the country. We must 
recognize that what is good for workers is good for the 
economy, not the other way around. In other words, a really 
strong economy exists only when everyone is succeeding.
    Mr. Secretary, I look forward to the opportunity to discuss 
the important issues in your department. And I now yield to the 
Ranking Member for the purpose of an opening statement.
    [The statement by Chairman Scott follows:]

    Prepared Statement of Hon. Robert C. ``Bobby'' Scott, Chairman, 
                    Committee on Education and Labor

    Mr. Secretary, I want to begin by thanking you for appearing before 
this Committee today. This hearing is an opportunity to discuss the 
Department of Labor's budget request for Fiscal Year 2020 as well as 
the many important issues under your jurisdiction.
    As its mission statement makes clear, the Department of Labor's 
responsibility is to ``foster, promote, and develop the welfare of the 
wage earners, job seekers, and retirees of the United States.''
    Unfortunately, the proposed Fiscal Year 2020 budget for the 
Department of Labor cuts programs and policies that are designed to 
serve this mission.
    The President's budget proposal, which slashes the Department of 
Labor's funding by 10 percent, or $1.2 billion, reflects the 
Administration's lack of support for hardworking people who are 
struggling to get ahead.
    For example, our economy increasingly demands and rewards high-
skilled employees, but the President's proposed budget cuts fall 
hardest on work force development programs that provide workers a path 
to financial security.
    Specifically, the Job Corps is cut by 41 percent and the Reentry 
Employment Opportunities Program, which provides a second chance to 
formerly incarcerated individuals, receives a 16 percent cut.
    This budget proposal also seeks to expand untested work force 
training programs at the expense of proven, high-quality 
apprenticeships.
    For example, the Registered Apprenticeship program has long offered 
generations of Americans work force training opportunities that provide 
good wages and benefits and a pathway to a rewarding career. However, 
the Department's new industry-recognized apprenticeship programs, or 
IRAPs, are not accountable to quality standards that protect the 
interests of workers and taxpayers. This has the effect of undermining 
work force training programs that are recognized anywhere in the 
country from Norfolk to Seattle and can reshape the future for 
individuals, their families, and their communities.
    The Occupational Safety and Health Administration, or OSHA--which 
is responsible for protecting Americans' right to safe working 
conditions--is also in desperate need of a funding increase. Nearly 3 
million workers experienced a serious workplace injury or illness in 
2017--and more than 5,000 workers were killed on the job.
    At current staffing levels, OSHA only has enough resources to 
inspect workplaces once every 165 years. There are now fewer OSHA 
inspectors today than at any time in its 49-year history. Yet, the 
president's budget allots no additional funding to improve workplace 
safety.
    When compared to the massive tax cut recently given to corporations 
and the wealthiest Americans, the Administration's refusal to invest in 
workers and middle-class families is an insult to hardworking people 
across the country.
    Regrettably, the priorities articulated in the Fiscal Year budget 
request are consistent with the Department's actions over the past two-
and-a-half years.
    The Department of Labor has opposed two of the most significant 
efforts to immediately raise wages and improve the standard of living 
for millions of American workers.
    After nearly 10 years with no increase, the Federal minimum wage 
has lost more than 15 percent of its value. Today, there is no place in 
America where a full-time minimum wage worker making $7.25 an hour can 
afford a modest 2-bedroom apartment.
    But the Administration's only response has been to criticize our 
efforts to gradually raise the minimum wage without offering any 
alternative. A wide body of rigorous research and the experience of 
States and cities across the country demonstrate that gradually raising 
the minimum wage to $15 an hour will be good for workers, good for 
businesses, and good for the economy.
    I hope the Administration will follow the evidence and join our 
effort to give millions of low-wage workers a raise that is long 
overdue.
    The Department has not only opposed raises for low-wage workers, it 
has undermined raises for middle-class workers as well.
    Under your leadership, the Department abandoned the Obama-era 
overtime rule that would have expanded overtime pay protections to an 
estimated 4.2 million salaried workers and strengthened protections for 
an additional 8.9 million salaried workers.
    In its place, the Administration is offering a new overtime 
proposal that leaves behind more than 8 million workers and erases the 
Department's obligation to update the rule to keep pace with inflation, 
which will deny even more workers overtime protections in the years to 
come. Compared to the Obama-era overtime rule, the Trump 
Administration's proposal will cost middle-class workers $1.2 billion 
in wages every year.
    The Department's record on workplace safety, workers' right to 
organize, workers' access to affordable health care has also undermined 
the health and wellbeing of the American work force.
    OSHA has moved to weaken workplace safety standards, including 
protections against exposure to beryllium, a metal that can cause 
cancer and severe lung disease. It has removed standards covering toxic 
chemicals and combustible dust from the regulatory agenda, while 
relegating to the back-burner standards to protect health care workers 
from exposure to infectious diseases such as Ebola, pandemic flu, and 
MRSA.
    After decades of declining rates of black lung disease, the scourge 
has returned at epidemic levels. Experts point to silica exposure as 
the culprit. But while we have developed new technology to monitor 
exposures, the Mine Safety and Health Administration, charged with 
safeguarding miners, is failing to act.
    Meanwhile, the Black Lung Trust Fund that provides most miners' 
black lung benefits is drowning in red ink and the Administration has 
failed to support funds for black lung benefits.
    And the Department has played a central role in the Trump 
Administration's sabotage of the Affordable Care Act by expanding the 
use of junk health care plans.
    These plans not only put participants at risk of losing key 
consumer protections, they increase health care costs for all Americans 
by diverting younger, healthier Americans away from the general 
insurance pool.
    The Department has repeatedly attempted to erase the contraceptive 
coverage benefit that an estimated 62.4 million women currently enjoy 
under the ACA. Despite failing to withstand multiple legal challenges, 
the Department has attempted to implement rules that would leave many 
female employees, students, and their dependents with no insurance 
options for contraceptive coverage.
    Finally, last August, the Department's Office of Federal Contract 
Compliance Programs, the OFCCP, quietly issued a directive that would 
expand the right of Federal contractors to justify employment-based 
discrimination based on their religiously held views. Directive 2018-03 
grossly undermines Executive Order 11246 which was enacted by President 
Lyndon B. Johnson to ensure that Federal contractors enact affirmative 
action programs and not discriminate on the basis of race, color, 
religion, national origin, gender, and other factors. The Department's 
indefensible directive turns the Executive Order on its head to provide 
Federal contractors with religious-based defense to discriminate with 
taxpayer funded dollars.
    Taken together, it is clear that hardworking Americans across this 
country cannot count on the Department of Labor to advocate on their 
behalf.
    Mr. Secretary, for too long, we have acted as though a growing 
economy means what is good for the economy is inherently good for all 
workers. But evidence and experience demonstrate that the benefits of 
economic growth are not being shared by workers and their families.
    Even as the stock market hits record highs, one in 9 workers is 
paid a wage that leaves them in poverty, even when working full time 
and year-round. More than 4 in 10 American households still cannot 
cover a $400 emergency medical bill. Four in 5 workers are living 
paycheck to paycheck.
    Those numbers are not cause for celebration; they are cause for 
action to address the inequality that continues to plague workers, 
families, and communities across the country.
    We must recognize that what's good for workers is good for the 
economy, not the other way around. In other words, a strong economy 
exists only when everyone can succeed. This is achievable when the 
Department fulfills its duty to put workers first.
    Mister Secretary, I look forward to this opportunity to discuss the 
important issues under your Department. Now, I will yield to the 
Ranking Member for the purpose of an opening statement.
                                 ______
                                 
    Ms. Foxx. Thank you, Mr. Chairman, for yielding. Thank you, 
Secretary Acosta, for coming before the Committee today. It is 
a pleasure having you here to talk about the Department of 
Labor's policies and priorities on the heels of such excellent 
news about the booming U.S. economy.
    With record low unemployment and a job-seeker's market, it 
is a good time to be an American worker. The Department of 
Labor is responsible for keeping many commitments to the 
American work force, and it is my hope that today we will hear 
more about the Department's efforts to prepare workers, ensure 
that men and women are protected on the job, and the 
Department's work to fuel our continued economic growth.
    Right now, there are more than 7 million unfilled jobs in 
the United States, many of which remain open because there are 
not enough workers with the necessary skills to fill them. It 
is predicted that by 2022 we will have a shortage of 11 million 
workers who will not have the necessary education to thrive in 
the economy.
    This is an urgent concern, and we need work force 
development solutions that connect disenfranchised workers with 
the skills they need to fill good-paying in-demand jobs. Over 
the last several years, Committee Republicans have worked hard 
on legislation to improve our national work force development 
efforts and expand on-the-job learning opportunities to help 
workers gain the skills they need to succeed in the workplace.
    In 2014 the Workforce Innovation and Opportunity Act became 
law, and last year we sent the Strengthening Career and 
Technical Education for the 21st Century Act to the President's 
desk, where it received his signature. These laws address ways 
to fill job vacancies at the local level and strengthen 
students' access to apprenticeships and other on-the-job 
learning opportunities. It is our hope that you will use your 
authority to supplement these efforts to help the American work 
force flourish.
    In conjunction with Department efforts to prepare workers, 
it is important for Committee members to learn about what 
actions the department is taking to safeguard workers and 
wisely steward taxpayer dollars. Contrary to Democrats' claims, 
it is possible to protect and promote the well-being of workers 
while being fiscally responsible, and the President's Fiscal 
Year 2020 budget proposal for the Department of Labor does just 
that by vigorously enforcing labor laws and proposing important 
cost-saving measures whenever possible.
    The Department's policy of strong enforcement paired with 
enhanced compliance assistance is an especially effective way 
of protecting workers and bringing businesses into full 
compliance. This approach is a complete departure from the 
previous administration's policy of treating employers as 
adversaries instead of partners.
    DOL should also be commended for seeking opportunities to 
strengthen union transparency, ensure compliance with wage and 
hour laws, enhance retirement security, and expand access to 
affordable health care options for job creators and workers. 
These efforts, paired with the Department's deregulatory 
agenda, have already helped drive the surge of economic growth 
we see today. These policies will be key to ensuring the 
economy's continued progress, too.
    Today the U.S. economy has added jobs for more than 100 
consecutive months. And since President Trump assumed office, 
the number of job opportunities available across the country 
has grown from 5.6 million to more than 7 million. Unemployment 
recently hit its lowest point in 49 years, and wages are up and 
experiencing sustainable organic growth thanks to the 
Republican Tax Cuts and Jobs Act and sweeping deregulation over 
the last 2 years, much of which has come from the Department of 
Labor. Median weekly earnings are up more than 30 percent for 
Latino and Asian workers and more than 20 percent for Black and 
White workers since the end of 2007.
    The progress cannot be overstated, and it is vital that the 
Secretary champion policies that keep this momentum going. 
Secretary Acosta, you have been dedicated in your leadership to 
the Department of Labor, and I hope we can remain focused today 
on what matters most, securing greater opportunities and 
prosperity for American workers.
    Thank you again, Mr. Chairman. I yield back.
    [The statement by Mrs. Foxx follows:]

Prepared Statement of Hon. Virginia Foxx, Ranking Member, Committee on 
                          Education and Labor

    Thank you for yielding.
    Thank you, Secretary Acosta, for coming before the Committee today. 
It's a pleasure having you here to talk about the Department of Labor's 
policies and priorities on the heels of such excellent news about the 
booming U.S. economy.
    With record-low unemployment and a job seekers' market, it's a good 
time to be an American worker. The Department of Labor is responsible 
for keeping many commitments to the American work force, and it's my 
hope that today we will hear more about the Department's efforts to 
prepare workers, ensure that men and women are protected on the job, 
and the Department's work to fuel our continued economic growth.
    Right now, there are more than 7 million unfilled jobs in the 
United States, many of which remain open because there aren't enough 
workers with the necessary skills to fill them. It's predicted that by 
2022, we will have a shortage of 11 million workers who will not have 
the necessary education to thrive in the economy. This is an urgent 
concern, and we need work force development solutions that connect 
disenfranchised workers with the skills they need to fill good-paying, 
in-demand jobs.
    Over the last several years, Committee Republicans have worked hard 
on legislation to improve our national work force development efforts 
and expand on-the-job learning opportunities to help workers gain the 
skills they need to succeed in the work force. In 2014, the Workforce 
Innovation and Opportunity Act became law, and last year, we sent the 
Strengthening Career and Technical Education for the 21st Century Act 
to the President's desk where it received his signature. These laws 
address ways to fill job vacancies at the local level and strengthen 
students' access to apprenticeships and other on-the-job learning 
opportunities. It is our hope that you will use your authority to 
supplement these efforts to help the American work force flourish.
    In conjunction with Department efforts to prepare workers, it's 
important for Committee Members to learn about what actions the 
Department is taking to safeguard workers and wisely steward taxpayer 
dollars. Contrary to Democrats' claims, it is possible to protect and 
promote the wellbeing of workers while being fiscally responsible, and 
the President's Fiscal Year budget proposal for the Department of Labor 
does just that by vigorously enforcing labor laws and proposing 
important cost-saving measures wherever possible. The Department's 
policy of strong enforcement paired with enhanced compliance assistance 
is an especially effective way of protecting workers and bringing 
businesses into full compliance. This approach is a complete departure 
from the previous administration's policy of treating employers as 
adversaries instead of partners.
    DOL should also be commended for seeking opportunities to 
strengthen union transparency, ensure compliance with wage and hour 
laws, enhance retirement security, and expand access to affordable 
health care options for job creators and workers. These efforts paired 
with the Department's deregulatory agenda have already helped drive the 
surge of economic growth we see today. These policies will be key to 
ensuring the economy's continued progress, too.
    To date, the US economy has added jobs for more than 100 
consecutive months, and since President Trump assumed office, the 
number of job opportunities available across the country has grown from 
5.6 million to more than 7 million. Unemployment recently hit its 
lowest point in 49 years and wages are up and experiencing sustainable, 
organic growth thanks to the Republican Tax Cuts and Jobs Act and 
sweeping deregulation over the last 2 years, much of which has come 
from the Department of Labor.
    Median weekly earnings are up more than 30 percent for Latino and 
Asian workers and more than 20 percent for Black and White workers 
since the end of 2007. This progress cannot be overstated, and it's 
vital that the Secretary champion policies that keep this momentum 
going.
    Secretary Acosta, you have been dedicated in your leadership of the 
Department of Labor, and I hope we can remain focused today on what 
matters most: securing greater opportunities and prosperity for 
American workers.
    I yield back.
                                 ______
                                 
    Chairman Scott. Thank you, Dr. Foxx.
    I will now introduce our witness. The Honorable Alexander 
Acosta was confirmed as the 27th U.S. Secretary of Labor on 
April 28, 2017. He previously held positions as a member of the 
National Labor Relations Board, Assistant Attorney General for 
the Civil Rights Division of the U.S. Department of Justice, 
U.S. Attorney for the Southern District of Florida, and Dean of 
the Florida International University College of Law.
    Mr. Secretary, let me remind you that we have read your 
opening statement and it will appear in full in the record.
    So under Committee Rule 7(d) and committee practice, you 
are asked to try to limit your oral presentation to about 5 
minutes or so in summary of your written statement.
    After your presentation we will move to member questions.
    I now recognize Secretary Acosta.

 STATEMENT OF HON. ALEXANDER ACOSTA, SECRETARY, UNITED STATES 
                      DEPARTMENT OF LABOR

    Secretary Acosta. Mr. Chairman, thank you, and Ranking 
Member Foxx, thank you as well for your opening statement. I 
think the two opening statements presented very different 
perspectives; suffice to say that I would adopt many of the 
Ranking Member's comments and disagree with some of your 
comments, Mr. Chairman. But I think rather than go through 
those seriatim that I think we are better served if we just 
proceed to questions. And so I yield my time.
    [The statement of Secretary Acosta follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Scott. Thank you. We will begin with the 
gentlelady from California, Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. And Secretary Acosta, 
thank you for joining us today. Before we get started on our 
questions related to your agency's proposed budget, I just 
wanted to actually reinforce the point that Chairman Scott made 
when he read DOL's mission statement.
    What I think is important is that DOL's mission focuses 
solely on workers and their rights and protections. Your 
testimony speaks to how well the economy is doing. But the 
economy doing well does not necessarily always mean that 
workers are doing well. And so I hope you do not lose sight--I 
hope the department does not lose sight--of the fact that the 
mission of the Department of Labor is to protect and support 
workers first, foremost, and above all else.
    Yet despite this, department's proposed budget calls for 
cuts of $1.2 billion, or 10 percent, of its current 
appropriation. And these cuts, combined with numerous policies 
advanced by the department, seem to weaken or undermine areas 
of worker protections and enforcement. Mr. Secretary, I am 
actually struggling to see how these cuts to programs 
supporting workers are in line with the DOL's mission as it is 
currently stated.
    So this brings me to my first set of questions around 
apprenticeships. The National Apprenticeship Act makes clear 
that Congress delegated to the Secretary alone--Secretary 
alone--the authority to formulate and promote labor standards 
to safeguard the welfare of apprentices. Despite this, I 
understand the department is moving forward with a new 
regulation to allow for the creation of industry-recognized 
apprenticeship programs, or IRAPs.
    This policy shift allows the DOL to delegate its authority 
to establish standards to accreditors. Chairman Scott and I 
made an oversight request recently about DOL's rationale for 
granting third parties this authority and how that is justified 
given the requirements of the National Apprenticeship Act.
    Your March 14th response letter was not responsive on this 
point. So can you please confirm that the Department of Labor 
will not take regulatory action that hands over the 
department's statutory role in establishing the labor standards 
to third parties, including setting the quality standards that 
have made registered apprenticeships the gold standard for work 
force training? Would you want to comment quickly?
    Secretary Acosta. Well, so Congresswoman Davis, first, 
thank you for the opening comments. And going to the first part 
of your question, I do think it's important that all 
individuals in the economy benefit. And something that I--a 
statistic that I was made aware of that I think is important to 
share is the increase in wages really has gone across the 
board--
    Mrs. Davis. Mr. Secretary, I just wonder if you could 
respond, though, just to whether the DOL is instead playing 
that role, is going to continue to play its role to keep that 
authority.
    Secretary Acosta. Certainly. But your first question had to 
do with the mission and wages. And so I just wanted to, if I 
could, point out that wages have increased, and if one looks at 
the lowest decile, one sees that the lowest decile wages are up 
about 6.5 percent, which is higher than the median. Now--
    Mrs. Davis. Mr. Secretary--
    Secretary Acosta.--moving to the apprenticeship question.
    Mrs. Davis. Yes, please, because--
    Secretary Acosta. I understand the apprenticeship question 
is the focus of many of your comments. The registered 
apprenticeship program has worked well in construction and 
related building trades industries, and that is going to 
continue. That works well.
    But that has not expanded to other industries. There was a 
Presidential commission; on that commission were 
representatives from labor, representatives from business, 
representatives from various groups--
    Mrs. Davis. Secretary Acosta--
    Secretary Acosta. I'm--
    Mrs. Davis. I understand. Unfortunately, I have limited 
time, and I just wanted to bring out--because I know we both 
looked at other models, Switzerland and Germany. And the 
reality there is that the government does play a central role 
in approving programs and their quality standards, and it 
brings together industry as well. And so that's why I wanted to 
continue here for a minute because this is important, as you 
acknowledge.
    I want to ask you about IRAPs. Will they require wage 
progressions? Will they be required to abide by the Equal 
Employment Opportunity in Apprenticeship regulations? And will 
there be protections for the participants, including workplace 
safety supervision, and a method for filing discrimination or 
other equal opportunity complaints, as all registered 
apprenticeships do? So will IRAPs cover those critical issues?
    Secretary Acosta. So, Congresswoman, those critical issues 
are covered by the law. And so IRAPs of course will cover those 
critical issues because those are required in any employment 
relationship. And IRAPs at their heart, like all 
apprenticeships, are about employment relationships.
    Mrs. Davis. Well, I look forward to working with you on 
these issues--
    Secretary Acosta. Absolutely.
    Mrs. Davis.--because I think these are critical and we need 
to address them. Thank you very much.
    Chairman Scott. Thank you.
    Dr. Foxx?
    Ms. Foxx. Thank you, Mr. Chairman. And thank you, Mr. 
Secretary, for pointing out that all of these people in these 
apprenticeship programs will be covered by the existing laws.
    Committee Republicans have long supported the expansion of 
association health plans, and we're pleased to see the 
Department's final rule expanding access to health coverage, 
especially for small business employees. Organizations such as 
the National Restaurant Association, Land O' Lakes, Mason 
Contractors Association of America, many local and regional 
chambers of commerce, have announced plans to establish or 
expand existing association health plans.
    In these new or revised plans, to your knowledge, do 
workers have access to comprehensive benefit packages? On 
average, do these plans have lower costs than workers may be 
able to otherwise purchase in the individual market?
    Secretary Acosta. Congresswoman, in these new plans, 
workers absolutely have access to comprehensive plans. One way 
to think of these association health plans is, the health care 
market is divided into two parts: the market for small 
businesses, less than 50, and the market for big corporations, 
more than 50.
    And what the association concept does is it says to small 
businesses, you can band together and you can have access to 
the lower prices that are available to the corporations. But it 
is the same insurance that is available to the corporations, 
the same restrictions that are put on the corporations, the 
same safeguards as the corporations.
    So what this is saying is that mom and pop small business 
can play by the same rules as IBM, no more and no less.
    Ms. Foxx. Thank you, Mr. Secretary. Since you last came 
before this committee, a March 2018 Office of the Inspector 
General report found that the Job Corps program could not 
demonstrate the extent to which the programs help participants 
enter meaningful jobs.
    I know you have made efforts to improve the programs by 
suspending operations of centers that do not meet expectations. 
But it is clear there is still work to be done. How do you plan 
to continue reforms to this program to improve its 
effectiveness?
    Secretary Acosta. Congresswoman, thank you. Thank you for 
the question. First let me say safety is critical in Job Corps, 
and we have put in place a zero tolerance standard for safety 
issues. And so, as a result, Job Corps centers across the 
country are getting tougher with respect to discipline. If 
there is a safety issue, individuals are separated. We have 
installed more than 10,000 security cameras. We have installed 
more than 5,000 security doors with key guards.
    Something that we are doing as well, though, is Job Corps 
has not changed in decades. The economy has changed. Workforce 
programs have changed. And so we are looking at ways to 
modernize Job Corps, to establish pilot programs. Something 
that I wanted to share is something that I'm excited about. I 
think it is very important, and it is what we're calling Job 
Corps Scholars.
    We have pilot project authority, and under that pilot 
project authority we are starting Job Corps Scholars. We are 
going to request bids from community colleges around the 
Nation--this is going to be for up to 1,600 students--and the 
community college will establish, in essence, mini Job Corps 
within that community college.
    They will have approximately $15,000 per student, not only 
to cover tuition and to cover room and board, and I should say 
that is higher than the median tuition and room and board for 
community colleges across the Nation. But also they will be 
required to hire counselors and provide other services that are 
available to the Job Corps. We are trying to find alternative 
mechanisms to really provide Job Corps-style education to more 
individuals. And this would be at half the cost.
    One final point. We have changed the criteria by which we 
rank Job Corps centers. It used to be that the focus was on: 
Was a certificate obtained? Was a piece of paper obtained? And 
the criteria over a 2-year period has changed to: Did they get 
a job? Was it a job in the area for which they were educated? 
And is the resulting wage higher? And was that job retained 
after 6 months and after 12 months?
    Ms. Foxx. Thank you, Mr. Secretary. Very quickly, as you 
know, the radical 2016 Obama Administration overtime rule has 
not been invalidated by a final court decision. The Trump 
administration appealed the district court's ruling that 
nullified the rule, and asked the Fifth District to stop the 
litigation pending further regulatory action.
    We were pleased to see the Department's recent notice of 
proposed rulemaking for a modernized overtime rule. Given that 
the 2016 Obama rule still has a lifeline, what assurances can 
you provide that the Department will issue a new final overtime 
rule in a timely manner?
    Secretary Acosta. I see that time is expired. Let me just 
say the notice of proposed rulemaking issued, and the notice 
and comment period is live at this time.
    Ms. Foxx. Thank you, Mr. Chairman. I yield back.
    Chairman Scott. Thank you.
    The gentleman from Connecticut, Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary, for being here today. Again, I just want to followup 
on the mission of the department which has been discussed 
already, which is to ``foster, promote, and develop the welfare 
of wage earners.''
    I read your 17 pages of testimony, and again, it was pretty 
notable to me that there was actually not one reference to the 
value of collective bargaining in terms of helping achieve the 
department's mission, which is unlike some of your 
predecessors. I have been around long enough to hear some of 
these hearings in the past.
    I thought I would give you a chance to redeem yourself. On 
Easter Sunday, 31,000 employees of Stop & Shop Grocery Stores, 
after an 11-day strike, reached an agreement, which again 
protected their health benefits, which according to, again, the 
public disclosure, the employer was seeking to increase health 
plan deductibles from $300 a year to $5,000 a year. It proposed 
more than doubling health insurance premiums, removing spousal 
coverage from health insurance premiums, eliminating time and a 
half pay on Sundays, and slashing pension contributions for 
full-time employees by half.
    The company obviously gambled in thinking they could win 
that job action, and they badly miscalculated. Customers 
actually adhered to the picket lines, and the settlement, which 
was announced on Easter Sunday evening, again, pretty much 
restored all of those benefits which had been hard fought over 
for many years by the United Food and Commercial Workers Union 
for those employees.
    So again, so far the only thing in your testimony was on 
the persuader rule. There has been a host of other initiatives 
by the Trump administration to weaken collective bargaining. 
With all due respect, what the UFCW did for its employees far 
exceeds the value of anything that was in association health 
plans in terms of their health benefits, and any wage increase 
would have been just decimated if that employer position--which 
again is a Danish company--had prevailed.
    So again, can you at least indicate for a moment what the 
department's position is in terms of the value of collective 
bargaining, which again we saw succeed for 31,000 employees up 
in New England?
    Secretary Acosta. Congressman, thank you for the question. 
I was actually up in Connecticut--
    Mr. Courtney. I know.
    Secretary Acosta.--looking at Electric Boat and some 
amazing, really, really--
    Mr. Courtney. Yes. I am going to mention that because 
actually, the metal trades are benefiting from registered 
apprenticeships. You did not mention that. But go ahead on the 
Stop & Shop.
    Secretary Acosta. Yes. So I read a little bit about that. 
So to be clear, higher wages is a good thing, whether it 
happens through collective bargaining, whether it happens 
because of a growing economy, whether it happens through any 
other mechanism. Higher wages are a good thing. To the extent 
that the United Food Workers helped those workers, that is a 
good thing.
    The point that I made earlier with Congresswoman Davis's 
question is, we are seeing wages increase, and we all benefit 
when wages go up, and so if it happens through collective 
bargaining and if it happens through other mechanisms.
    Finally, you mentioned association health plans, and I do 
think it is important. You are correct. They would not benefit 
from association health plans because they are part of a large 
corporation. And the idea of association health plans is to 
give those same benefits to small businesses that do not have 
the advantage of that collective bargaining in that large--
    Mr. Courtney. Right. And again, just for the record, there 
are over 600 association health plans that were in existence 
prior to your rule that went into effect. All your rule did was 
basically create a loophole to avoid essential health benefits, 
which is something that they had to accommodate.
    Again, I just want to move on to another question. Last 
time you were here I asked you about the rising incidence of 
workplace violence in the healthcare sector. Again, we had a 
GAO report which a few of us had ordered a number of years ago 
which showed a 69 percent increase from 2006 to 2017.
    The CEO of Cleveland Clinic, which is one of the largest 
healthcare systems in the U.S., again just a few weeks ago had 
a speech where he described what is happening in emergency 
rooms as a ``national epidemic,'' and that the violence that 
they are seeing, the number of weapons that are being seized at 
the emergency room entrance, has just skyrocketed.
    Again, we have been waiting for the department to move 
forward on an OSHA rule that creates a national standard. Can 
you describe what you have done since the last time you 
testified before this committee in that area?
    Secretary Acosta. Certainly, Congressman. The regulatory 
agenda that is forthcoming will show that the first step in an 
OSHA rule is the creation of a SBREFA panel. And it will show 
that we are in the process of creating that SBREFA panel to 
look at this issue.
    Let me also say, as we talk about workplace violence, drugs 
is an important part that we need to look at. And maybe we will 
have more time to talk about that.
    Chairman Scott. Thank you.
    The gentleman from Tennessee, Dr. Roe.
    Dr. Roe. Thank you, Mr. Chairman. And thank you, Mr. 
Secretary, for being here. And since the Tax Cuts and Jobs Act, 
in my State of Tennessee we have seen personal income rise 
significantly in the last year. There are ``Help Wanted'' signs 
literally everywhere. The unemployment rate in the State of 
Tennessee is 3.2 percent, and our biggest problem is finding an 
adequately trained work force. And that is going to be the 
questions I have.
    Seventy percent of the workers gaining employment during 
this time came from outside the labor force in the first 
quarter of 2019, which means that people getting off--that now 
have an opportunity who did not have a job before. And this is 
a good thing. And I could not agree with you more: Whatever 
creates an increased wages for workers is a good thing. Just 
this past month, in April, 275,000 jobs created by this 
economy.
    Mr. Secretary, I do not remember in my lifetime a better 
time for a young person to graduate from school with skills. I 
do not remember. I ran into a truck driver at a Wendy's the 
other day and made $164,000 last year. He said this is the best 
he has done in his life, ever.
    We have students that are going to our technical school to 
train in welding that are being paid $16 an hour to go to 
school so that when they get out and complete their 
apprenticeships, they are going to make $23-plus an hour. So 
again, I cannot think of a better time to be out of school.
    I want to know a little bit about apprenticeships because I 
think we are missing a phenomenal opportunity. We had the 
electrical contractors in my office yesterday talking about the 
apprenticeships. Could you tell us how the Department of Labor 
is encouraging this? And there are more than 200 company 
associations and labor organizations have pledged to create 7-
1/2 million new opportunities to Americans through 
apprenticeships, re-skilling, and un-skilling. Could you 
comment on that, please?
    Secretary Acosta. Congressman, thank you for the question. 
So certainly apprenticeships are a phenomenal opportunity. 
Going back to the earlier question about collective bargaining, 
unions have put together some amazing apprenticeships in the 
building trades. The building trades as a group spends about a 
billion a year investing in apprenticeships, and you mentioned 
some of the results.
    I was with Senator Blunt in Missouri at a carpenters 
apprenticeship program, and the individuals that were leaving 
from there were starting salaries in the 40's and only up from 
there. I saw an article just recently about individuals that 
are working on oil rigs and pipefitters that are making well 
into the six digits.
    And so what we are looking to do is to expand 
apprenticeships beyond the traditional trades. The registered 
apprenticeship program has worked in some industries, and we 
are just about at 500,000 registered apprenticeships in the 
past 2 years. And so we are going to see it exceed half a 
million if it hasn't already, and we are going to only see it 
grow, but only in some industries.
    So we need to expand it to other industries, and that is 
where the industry-recognized apprenticeship program comes in. 
We need apprenticeships in areas like coding. We need 
apprenticeships in high tech. We need apprenticeships in 
healthcare in areas such as nursing and nurse's aides. We 
should have apprenticeships in advanced manufacturing. This 
should not be limited to the building trades because it 
provides valuable skills, and skills that lead to good, safe, 
high-paying jobs.
    Dr. Roe. We saw each other yesterday, and you mentioned 
something to me that was shocking to me. One of the dangers in 
the workplace today were drug overdose deaths. Could you 
comment on that?
    Secretary Acosta. Absolutely. And this is what I was 
talking about with respect to workplace violence. If we look at 
the fatality data for workplace fatalities over the last 5 
years, the fastest-growing area of workplace fatalities is 
overdoses. And so it has gone from 82 a year to 114 to 165 to 
217 to 272 this past year.
    And so the fastest-growing area has to do with overdoses 
associated with illegal drugs in the workplace. And this is 
something--I had a conversation with some individuals in 
industry that were very concerned about this. And it is 
something that I have also asked OSHA to look at because when 
you have gone from 84 to 272 in the span of 5 years, that is 
indicative of a problem.
    Mr. Roe. I agree, Mr. Secretary. And I think that is 
something that is a societal problem.
    Secretary Acosta. It is.
    Mr. Roe. It is not just the Department of Labor. It is a 
societal problem.
    I yield back, Mr. Chairman.
    Chairman Scott. Thank you.
    The gentlelady from Ohio, Ms. Fudge.
    Ms. Fudge. Thank you very much, Mr. Chairman. Thank you, 
Mr. Secretary.
    Mr. Secretary, for far too long certain--not all--certain 
retirement advisors have put their own financial interests 
above their clients'. Workers across this country are demanding 
a higher standard of care. They deserve peace of mind when 
planning for their retirement.
    The Department of Labor owes it to the workers of America 
to fully implement current rules and regulations put in place 
to ensure that they receive unbiased and fair advice. What is 
your plan to protect these workers?
    Secretary Acosta. Congresswoman, thank you for the 
question. First let me say, you are correct. Like all 
industries, the investment industry has some bad actors, and 
individuals need to be protected. As you are aware, the 
fiduciary rule was struck down by a court. It was held to 
exceed the statutory--
    Ms. Fudge. I just want to know what you are going to do, 
sir.
    Secretary Acosta. I am getting to that, Congresswoman. I am 
trying to--
    Ms. Fudge. I have 5 minutes. So if you could just--
    Secretary Acosta. I understand. So it was struck down by 
the court. And so the department is working with the SEC. The 
SEC was asked by Congress to look at modernizing the 
protections in these--
    Ms. Fudge. Sir, I am asking: What are you going to do? What 
is your Department of Labor going to do?
    Secretary Acosta. Congresswoman, if you will let me finish 
my sentences or paragraph.
    Ms. Fudge. But you just--I need to reclaim my time. I have 
more questions to ask.
    Secretary Acosta. So the Department of Labor is working 
with the SEC. The SEC was asked by Congress to come up with 
appropriate responses to protect these individuals. We are 
communicating with them, and based on our collaborative work, 
we will be issuing new rules in this area.
    Ms. Fudge. When will that be?
    Secretary Acosta. Well, the SEC is in the process of 
producing those rules. The SEC is--
    Ms. Fudge. Just a time would be great.
    Secretary Acosta. Congresswoman, we are working with an 
independent agency that has its own time--
    Ms. Fudge. Okay. So you do not have a time. Let me just 
move to my next question.
    It is rare that I actually agree with our Ranking Member, 
but today I do. The Ranking Member talked about the need to 
prepare workers. She talked about work force development. But 
as I look at the President's budget and what you all have 
proposed, you are cutting discretionary funding by $1.2 billion 
for the Department of Labor, which includes: $700 million to 
Job Corps, $15 million to Reentry Employment Opportunities, and 
$5 to Youth Build. So it does not look like you are preparing 
to do more with work force development. You want now to cut 
work force development. So I am confused because I actually do 
agree with her that we should.
    Tell me what is the role of Job Corps.
    Secretary Acosta. So Congresswoman, Job Corps' role is to 
provide skills and education to younger Americans ages 16 to 
24. It has about 120 centers around the country. It has 
operated much the same way for decades, and I think those are 
important skills. And in fact we are working with Governors 
around the Nation to--
    Ms. Fudge. I just wanted to know what the role of Job Corps 
is, sir.
    So if the role is to prepare young people for the work 
force, why are we cutting the budget?
    Secretary Acosta. So Congresswoman, as you are aware, the 
budget that is submitted is submitted within certain 
constraints. I would note that just yesterday, a different 
committee of the House proposed a different budget--
    Ms. Fudge. I just want to know why you are cutting it.
    Secretary Acosta. Congresswoman, there are budget 
constraints that inform the budget. The budget is a process, as 
you are well aware, because--
    Ms. Fudge. The budget is an indication of what you believe 
is important. So if you are cutting work force development, you 
do not think work force development is important.
    Secretary Acosta. Congresswoman, the amount of time and 
energy and effort that this administration is spending on work 
force development speaks for--
    Ms. Fudge. Could you tell me what that is? Tell me what 
they are spending.
    Secretary Acosta. So certainly. We are, for example, 
expanding apprenticeships. We have got a record number of 
registered apprenticeships and we are expanding them to 
industry-recognized apprenticeships. And that is one area, for 
example.
    Ms. Fudge. How much are they spending? You said that they 
are spending all this money. How much are we spending?
    Secretary Acosta. I believe I said the amount of time and 
effort that this administration is spending because we should 
not judge success merely by dollars, but also by time and by 
effort.
    Ms. Fudge. You cannot judge it by dollars. But if you are 
going to cut 40 percent from Job Corps, 16 percent from other 
employment opportunities, then time and effort is nothing. It 
is talk. It is not action. We need young people to have an 
opportunity, especially children who are homeless, children who 
are in difficult situations. You want to protect kids? Then 
help them. Do not cut their budgets.
    I yield back, Mr. Chairman.
    Chairman Scott. Thank you.
    The gentleman from Pennsylvania, Mr. Thompson.
    Mr. Thompson. Mr. Chairman, thank you. Mr. Secretary, thank 
you for being here. It is always a pleasure to have you here 
before this committee, to be able to work with you, be able to 
reach out to you and now you reach back. It is appreciated.
    And I know my good friend from Ohio, my neighbor to the 
West, her questions about budget--budgets are important, and 
quite frankly, certainly I support Job Corps and those types of 
things. But I also point out where--and they are always 
difficult. They are always just difficult. But I would point 
out my colleagues across the aisle have not produced a budget. 
So a little bit of irony with a question on budgets.
    My question really has to do with a piece of legislation. 
It is something that we signed into law in 2014. It should be 
up for reauthorization here, I would hope, in the near future. 
That is WIOA, the Workforce Innovation and Opportunity Act. We 
updated the nation's--at that point, 2014, the Nation's primary 
assistance for unemployed and underemployed workers in the 
United States. And even though unemployment is under 4 percent, 
it is still obviously incredibly important to help people get 
those skills that you have made reference to.
    WIOA-supported work force development programs provide a 
combination of education and occupational preparation to 
prepare individuals for work and help them improve their 
prospects in the labor market. Specifically, the law requires 
that these work force development programs are coordinated and 
complementary so that job-seekers acquire skills and 
credentials that meet employers' needs.
    I love the fact that we brought the employers to the table 
with WIOA; that was the first of a series of three bills that 
we did that, really engaging people who sign the front of a 
paycheck, not the back, so that at the end of the day, with 
education, there's a great family sustaining job sitting there.
    So Secretary Acosta, as we look forward to reauthorizing 
WIOA, any recommendations can you provide us that will further 
help match employers with skilled workers that they need to 
compete in a global economy?
    Secretary Acosta. Congressman, that is a very important 
question. We have asked for increased flexibility in WIOA for 
multiple budgets now. And let me say that this is--Governors on 
both sides of the aisle on a regular basis have conversations 
with me, saying, ``For our State it would be helpful if we can 
move WIOA dollars from this category to that category. Will you 
allow us?''
    And I believe Governors know best how to develop work force 
programs within their States, and that Virginia is different 
than Connecticut, which is different than California, which is 
different than Ohio, and that Governors should be given that 
discretion. My answer invariably is: If I have the discretion, 
then I am glad--I would gladly give it to you.
    I am thinking of one Governor, who happens to be a Democrat 
from a small State, pointed out that the dollars spent 
complying with making sure that the funds from one category are 
spent only in that category and the other category is spent 
only in the other category almost exceed the total WIOA dollars 
given to this particular Governor. And this Governor keeps 
asking, ``Can we not get flexibility so I can put them in 
larger funds?''
    And so I understand that Congress has particular 
preferences on how the money is spent. But I think it would be 
helpful to have a conversation as to what specific 
flexibilities can be provided.
    Mr. Thompson. Thank you, Mr. Secretary. This committee did 
that with the Every Student Succeeds Act on the education side, 
Elementary and Secondary Education Act. We eliminated a bunch 
of siloes so that we trusted the school districts and the 
States to determine where the needs were. So great thoughts 
going forward as we approach reauthorizing WIOA.
    My congressional district is pretty rural. It is about 24 
percent of the land mass of Pennsylvania, about 11,000 square 
miles, 14 counties. As I travel back to my district, I 
consistently hear from employers who are concerned about the 
future of the work force and are facing problems filling jobs 
due to a skills gap that we have seen for some time.
    Private payroll surged by 275,000 in April. It was just 
amazing. Our limiting factor on the economy today truly is 
finding that qualified and trained work force. For continued 
economic growth, I think that is really what it comes down to. 
GDP growth has been great. Unemployment is great. But that is 
our largest threat, is work force.
    And so going forward, what do you feel are the most 
important aspects of our fight to prepare the work force for 
careers involving the economy of tomorrow?
    Secretary Acosta. Congressman, I think it is--and I see the 
time is ticking down--I think it is very important that we 
provide young Americans with all their options and let them 
choose for themselves. And I think the system provides a lot of 
benefits to community colleges, for example--Pell and other 
grants if you get a degree.
    But if you want to go into welding, you may make more 
money. You may have a better job, a more secure job. But those 
same levels of assistance are not available. We do not have an 
unbiased system.
    Mr. Thompson. Thank you. Thank you, Chairman.
    Chairman Scott. Thank you. The gentleman from Northern 
Mariana Islands, Mr. Sablan.
    Mr. Sablan. Thank you very much, Mr. Chairman. Mr. 
Secretary, welcome. I am going to be--my questions are going to 
be particularly about territories, the Northern Mariana 
Islands.
    But on March 22nd, you issued an overtime rule proposal. Of 
course, the proposed rule formally rescinded the Obama-era 
overtime rule. But what struck me is that for the first time 
ever, your proposal creates a special rate for the Northern 
Marianas, for Puerto Rico, the Virgin Islands, and Guam, at 
$455 a week, and even for American Samoa, at $380 a week.
    Why is it different for the insular areas?
    Secretary Acosta. Congressman, thank you for the question. 
Let me just say that is something that I think you deserve an 
answer on. And let me get back to you on that. Perhaps we can 
come in and brief you and your staff on that question.
    Mr. Sablan. I appreciate that, Mr. Secretary. I take it 
that we are going to do that?
    Secretary Acosta. We will do that. We will do that. How 
about this: Let's put a time so that we both know that it 
happens. How about no sooner than next Friday, than a week from 
this Friday?
    Mr. Sablan. We will find--I will open something up. Thank 
you.
    Mr. Secretary, also, again, last year I introduced the 
Northern Marianas Workforce Act, which became Public Law 110-
218. So I want to know if that law is working as intended. The 
purpose of--one purpose of the law is to make sure that the 
education fee that employers of foreign workers pay is used 
effectively to train and place U.S. workers in jobs. And it 
should be about $2.5 million in Fiscal Year 2020.
    The Workforce Act requires the Governor to submit an annual 
plan for training funds. What factors will be used in assessing 
and approving a plan, one? Has the department provided guidance 
to the commonwealth Governor's office as to their requirement 
necessary for approval of a plan?
    Secretary Acosta. Congressman, we have talked with the 
commonwealth Governor on a number of issues. In all candor, a 
lot of them have to do with work force issues and visa issues 
and whatnot. I know that those plans are pretty typical, that 
the criteria are set out. And I will confirm to you that our 
Employment and Training Administration has been in 
communications with the Governor regarding that plan and what 
status, whether it has been submitted, and if so, where that is 
within the ETA.
    Mr. Sablan. Okay. Because there is a June 30th timeline 
there, sir. Thank you.
    On H-2B, Mr. Secretary, I continue to be concerned about 
the department's position that it is unable to prevent 
employers from laying off similarly employed U.S. workers and 
replacing them with non-immigrant guest workers under the H-2B 
program.
    Mr. Chairman, I ask unanimous consent to enter into the 
record our letter to Secretary Acosta of September 13, 2018, 
and the department's December 14, 2018 response.
    So Mr. Secretary--
    Chairman Scott. Without objection.
    [The letters described follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Sablan. Thank you.
    Mr. Secretary, putting aside the department's position that 
it cannot enforce corresponding worker provisions due to 
congressional appropriation riders, it is clear to me that the 
department should at least be enforcing nondisplacement 
provisions, and that would correct actions such as when 
employers at a Marianas constructionsite laid off its U.S. work 
force in favor of H-2B workers.
    Why has the department failed to conduct an investigation 
of this matter?
    Secretary Acosta. Congressman, I cannot speak to the 
specific investigation. But I will--let me just say generally, 
we have directed the Wage and Hour Division, whenever it 
discovers an issue, to refer it to the Inspector General 
because we are investigating these matters. We are 
investigating them vigorously using every authority that we 
have. And if we can refer it for criminal investigation, we are 
doing so. And those referrals have gone up.
    One of the issues around nondisplacement has to do with the 
law set a cutoff, and a cutoff salary. And so the law is 
different for those individuals making less than $60,000 versus 
those making more than $60,000.
    I would love to work with the Congressman to address this 
because to the extent we have authorities, we want to use those 
authorities to enforce nondisplacement of U.S. workers 
vigorously.
    Mr. Sablan. Right. My time is up, Mr. Secretary. But I will 
submit some additional issues for you. And in our next meeting, 
no later than next Friday, we could discuss the other issues as 
well.
    Secretary Acosta. Absolutely.
    Mr. Sablan. Thank you, Mr. Secretary.
    Mr. Chairman, my time is up. I yield back.
    Chairman Scott. Thank you.
    The gentleman from Michigan, Mr. Walberg.
    Mr. Walberg. Thank you, Mr. Chairman. And Mr. Secretary, it 
is good to see you always. And thanks for bringing back some of 
the finest work force staff that you hired well. It is good to 
see them also.
    I would want to hitchhike on some of my colleagues' support 
for your efforts to work alongside of the excellent registered 
apprenticeship programs and bring industry apprenticeship 
programs into play as well. Especially my concern has been 
expressed by some in the industry that there is a variance in 
how we use those appendices on the work site. So all I am 
asking is that we look at making it equal, both in industry as 
well as the registered apprenticeship programs. But they both 
can be extremely valuable to what we need.
    On an issue of great concern to me, sitting in Central 
States area, as you know multiemployer pension plans are in 
crisis, looking at PBGC data in 2016, of being underfunded by 
$638 billion. There is some tremendous humanitarian problems 
that can develop with that.
    What steps has DOL taken to examine funding practices in 
these plans? And second, can you describe DOL practices with 
regard to auditing monthly employer pension plans?
    Secretary Acosta. Congressman, thank you for the question. 
The issue around multi-employer pension plans is acute and 
serious. The PBGC is projecting that when Central States 
reaches crisis--if it is not already at crisis; it is no longer 
able to make payments--the PBGC is going to face some very, 
very difficult--and likely, if Congress does not act before 
then, a lot of folks are going to be hurt. And that is at this 
point about 6 years out.
    Now, I will note, on a positive note, just last night--we 
have been waiting to have our confirmed head of the PBGC, the 
Pension Benefits Guaranty Corporation, confirmed for months and 
months now. And just last night he was confirmed. And so it is 
my hope that we can work with Congress.
    I know that there was a bipartisan working group. I believe 
it was called a special committee, or whatever the appropriate 
name was, of the House and the Senate that was put together to 
address this. And at the end of the day, there was no--
    Mr. Walberg. It failed.
    Secretary Acosta. No. It failed. There was no path forward.
    This needs to be solved. And the longer Congress waits to 
address this, the more expensive it is going to get. And at the 
end of the day, it needs to be solved, understanding there is 
going to have to be shared pain because there are a number of 
individuals involved, a number of sides to this, and so there 
is going to have to be some room for compromise and consensus 
as we find a solution. But a solution does need to be found by 
Congress.
    Mr. Walberg. It has to be, and we appreciate any 
assistance, any help, any ideas auditing all of that because it 
truly does need to be done, or otherwise, we have a significant 
problem that taxpayers will pay for anyway.
    Secretary Acosta. Congressman, let me add--because you 
mentioned auditing--as a solution is found, my opinion is it 
should not just be financial. But there should be reforms that 
are put into place that provide flexibilities and authorities 
so this does not happen again.
    Mr. Walberg. It cannot be a band-aid that we pull off and 
find the same--
    Secretary Acosta. That is correct.
    Mr. Walberg.--infection underneath. Okay.
    Associated health plans provide a number of consumer 
protections for workers and their families. We have discussed a 
bit already today. HPs must comply with the same HIPAA and ACA 
nondiscrimination rules so that other large employers must 
follow in addition to COBRA coverage requirements, and in 
certain circumstances, applicable State laws.
    Can you discuss how these laws shape AHP benefit offerings, 
and whether these consumer protections are consistent with 
similar plans offered by large employers?
    Secretary Acosta. Congressman, whenever I hear that 
association health plans do not offer quality plans, my 
question is: Does that mean that every corporation in the 
United States does not offer a quality plan? Because 
association health plans are subject to the same protections 
and the same requirements as those of any corporation that has 
more than 50 individuals. And that is an important point to 
make.
    Mr. Walberg. An important point that often we miss. So I 
appreciate you making that clear.
    I would also state that while a budget is not always 
appreciated the way it comes out, as was mentioned by my 
colleague as well as the Speaker of the House, a budget is an 
indication of what you value. Well, it is about time that the 
other side offers us a budget as well to find out what they 
value. And I yield back.
    Chairman Scott. Thank you.
    The gentlelady from Florida, Ms. Wilson.
    Ms. Wilson. Secretary Acosta, we wear red today and every 
Wednesday to protest sexual abuse against kidnapped girls in 
Nigeria by the terrorist group Boko Haram, who is affiliated 
with ISIS.
    Secretary Acosta, you claim to respect the rule of law. But 
as the Miami Herald has reported in detailed accounts, while a 
U.S. Attorney in my home State of Florida, you made 
questionable decisions during the prosecution of sex trafficker 
Jerry Epstein, and in the process violated the Crime Victims' 
Rights Act.
    This makes it difficult for me to seriously believe that as 
Labor Secretary, you are putting our workers and the vulnerable 
first. In fact, your budget, which favors the powerful and 
wealthy over the little guy, makes it clear where your values 
and priorities lie.
    You propose large cuts to the Department of Labor bureau 
charged with preventing exploiting workers. Courts have struck 
down rules in your deregulatory agenda. And you consistently 
promote regulations that limit employer liability when they 
mistreat their workers.
    This hearing will delve into all of that. But I want to 
start by asking you how you justify violating the Crime 
Victims' Act in the Epstein case.
    Secretary Acosta. Congresswoman, going to your question 
about the Crime Victims' Act, the department has taken the 
position for the last 12 years that in fact the Crime Victims' 
Act was not violated in that case. The office followed the 
protocol set out by the Attorney General, a protocol that has 
been--that has been confirmed by the Office of Legal Counsel.
    And so it is the Department's position in litigation that 
in fact, the Crime Victims' Protection Act was not violated. I 
understand that the judge disagreed with the Department's 
position. But we acted consistent with DOJ protocol, rules, and 
regulations. And that is the position of the Department, based 
on my understanding of the litigation, across multiple 
administrations, across multiple Attorneys General.
    Ms. Wilson. My question to you is about the unsavory way in 
which this case led the Southern District of Florida to find 
that you specifically violated the law. Judge Marra cited how 
you actively hid from the victims who had been sexually abused 
details about the plea agreement. You did not want them to 
know.
    He also cited how in blatant violation of the Crime 
Victims' Rights Act, you met with defense attorney Jay 
Lefkowitz and assured him that you would not reveal details of 
the plea agreement to the victims, some of whom were as young 
as 13. And although the prosecution was required to notify the 
victims of the odious deal you made before it was finalized, 
you sent a letter to another one of Epstein's attorneys, Ken 
Starr, citing that you were directing your prosecutors to not 
issue victim notification letters until the terrible deal was 
done.
    When faced with criticism about this case, you have hidden 
behind prosecutorial discretion. You were just part of the 
team, you have argued, but your actions suggest that you 
experienced some confusion about exactly which team you were 
on--either that you just did not care about Mr. Epstein's 
victims, little, young girls, which included scores of them, 
underage girls whom he had molested.
    How else do you explain the fact that as a prosecutor 
charged with protecting the vulnerable, not defending the 
indefensible, you bent over backwards to protect the abuser? 
How do you do that?
    Secretary Acosta. Congresswoman, first let me say that this 
matter was appealed all the way up to the Deputy Attorney 
General's office, and not because we were not doing enough but 
because the contention was that we were too aggressive.
    The background to this case is the State Attorney--the 
police--
    Ms. Wilson. I will just end by saying--
    Secretary Acosta. Congressman, if I could--
    Ms. Wilson.--that if you could so heartlessly cast aside 
your duty to protect the vulnerable in favor of a wealthy sex 
offender, I am extremely concerned that we can expect a similar 
pattern of indifference in your role as labor secretary. And I 
want to remind you, Mr. Secretary, that your job is to protect 
workers and not working businesses. And I yield back.
    Chairman Scott. Secretary, did you want to respond?
    Secretary Acosta. I will just move on. Thank you.
    Chairman Scott. The gentleman from Kentucky--oh, excuse me, 
the gentleman from Georgia, Mr. Allen.
    Mr. Allen. Thank you, Mr. Chairman. And thank you, Mr. 
Secretary, for being here and enduring some of these comments. 
Well, we are here to talk about jobs, and obviously the country 
is--you have got quite a challenge ahead of you, and the 
Department of Labor has quite a challenge ahead, because as my 
colleagues have said, everywhere we go, everybody needs skilled 
people.
    In fact, I believe the economy could grow more rapidly if 
we had a way to snap our fingers and make that happen. But I 
was at the White House when the President signed up, I think, 
that day about 4 million apprenticeships. Various--all the 
labor groups were there. It was quite a scene. And then I saw 
Ivanka sometime later, and she said, I believe, it was to 6 
million.
    Now, how many total apprenticeships have we committed 
there?
    Secretary Acosta. That's right. Congressman, at last count 
the number of re-skilling opportunities that businesses have 
committed to, which includes apprenticeships, has exceeded 6 
million, and it is growing.
    Mr. Allen. Yes. Good. Well, that's good. Obviously, the 
government can only do so much, and so it's nice to see the 
business community and the labor groups step up and let's fix 
this problem.
    One thing that I wanted to ask you about. A constituent of 
mine has received a contract to build the new Job Corps center 
in Atlanta. And can you provide me with an overview of any 
problems that the DOL contract administration group is having 
administering these contracts in the construction of projects 
throughout the country?
    Secretary Acosta. Congressman, I know that there are a 
number of construction programs that are going forward. There 
are often challenges to bids. There are often a number of 
issues that arise at a local level. I know that you have 
inquired as to one, and I think it--I'm happy to have your 
office briefed or to brief you.
    Mr. Allen. Yes. If you could do that, I would really 
appreciate that.
    As far as the Workforce Innovation and Opportunity Act, 
Congress empowered businesses to lead the way in work force 
development, and we took a step toward increased innovation and 
efficiency. What steps can we take to encourage further 
competition and expand on the options that are currently 
available to businesses?
    Secretary Acosta. So Congressman, I think again one of the 
issues there is increased flexibility. Allow localities to 
decide what works for that locality.
    Mr. Allen. Right.
    Secretary Acosta. For example, in-school youth versus out-
of-school youth--sometimes the best way to keep youth in school 
is to provide work force education around the school or while 
in school. And so we have asked for those flexibilities, and I 
would be happy to further the conversation.
    Mr. Allen. Good. As far as looking at the current need 
across the country, obviously the Department of Labor is trying 
to come up with some way to ramp up. We talked about 
apprenticeships, other things. What else are we trying to do to 
get this problem solved?
    Secretary Acosta. Well, one area let me highlight. I 
mentioned the Job Corps Scholars program earlier, which is a 
pilot program for 1,600 young Americans around community 
colleges. Another area I want to highlight is we have 
discretion with respect to H-1B fee dollars. And so we put out 
a request for proposal, and hopefully we will be awarding $150 
million soon for educational institutions.
    And we did something that we have not done previously: We 
said, you need to find a business partner, and they need to 
match, and they need to match, I believe it was, 1 dollar for 
every 3 Federal dollars. And that is not just about the 
dollars, but it is about the value of having a business partner 
in work force education that will have input into the 
curriculum so that we know that it is the right kind of 
curriculum that will have skin in the game. So when it comes 
time to hire these young Americans, they are there that they 
are hiring them.
    And so we focused those on the areas where H-1Bs are being 
used the most, on high-tech, on healthcare, on advanced 
manufacturing. And we said, these are available for 
apprenticeship programs. And so we're very excited that we are 
going to be announcing those, and it is going to be across the 
country.
    And hopefully there will be a second round and a third 
round because those H-1B fees should and in fact are required 
to go to provide skills in the areas where H-1Bs are being 
given.
    Mr. Allen. Okay. I'm out of time, but please, any time that 
we can be of assistance as far as the U.S. Congress in helping 
us achieve what we need to achieve as far as getting people 
skilled up and back to work in this country. I am all in, and I 
will be glad to help you, sir.
    Secretary Acosta. Thank you.
    Chairman Scott. Thank you.
    The gentleman from California, Mr. Takano.
    Mr. Takano. Good morning, Mr. Secretary.
    Mr. Secretary, when you entered office, you decided to 
appeal the Obama overtime rule that was struck down by a Texas 
court in 2017. What was your reason for appealing?
    Secretary Acosta. Well, I think it is important, when these 
rules are called into question, the U.S. Government should 
defend them more appropriately. We can disagree with the policy 
underlying the rule and we can still appeal the rule.
    Mr. Takano. So you disagreed with the salary threshold that 
the previous administration set.
    Secretary Acosta. Congressman, I think at my confirmation 
hearing, I noted that there was certainly a need to adjust for 
inflation, that life had gotten a lot more expensive since 
2004. But my disagreement does not preclude my defending a rule 
that has been put into place.
    Mr. Takano. Okay. So what was your reason for appealing it? 
As I recall, you wanted to preserve--you believed that the 
Secretary of Labor should have the authority to set the rule. 
Is that right?
    Secretary Acosta. That is correct. One of the issues is 
whether or not the Secretary--
    Mr. Takano. Well, yes. And why do you believe the Secretary 
of Labor should have that authority? Is it because you believe 
that the Secretary of Labor should be protecting the American 
worker?
    Secretary Acosta. Well, Congressman, I believe--let's start 
off with Congress, I believe, has given the Secretary of Labor 
that authority.
    Mr. Takano. Yes. Of course.
    Secretary Acosta. And so--
    Mr. Takano. Well, yes. But basically, you believe the 
Secretary of Labor should have that authority, and Congress did 
give that authority, and you disagreed with any ruling that 
would have said the Secretary of Labor does not have that 
authority. Is that right?
    Secretary Acosta. Congressman, again, I--
    Mr. Takano. Well, I don't want to get stuck on this point.
    Secretary Acosta. Yes.
    Mr. Takano. I just want to know. What was the threshold 
that the Obama Administration had set?
    Secretary Acosta. The threshold was approximately $23,600, 
give or take.
    Mr. Takano. That the Obama Administration had set?
    Secretary Acosta. Yes.
    Mr. Takano. For the threshold?
    Secretary Acosta. I am sorry. The 2004 threshold was 
$23,600.
    Mr. Takano. Right. The Obama Administration had set the 
threshold higher, closer to $50,000.
    Secretary Acosta. That's right. Closer to $50,000.
    Mr. Takano. Okay. And in 1974, what percentage of the work 
force was eligible for overtime pay? Do you--
    Secretary Acosta. In 1974, I would--
    Mr. Takano. Or 1975. Around there.
    Secretary Acosta. 1975. I would have to look that up. But 
the Congressman may know the answer.
    Mr. Takano. So EPI, the Economic Policy Institute, said it 
was more than 60 percent. Do you know what percentage of the 
salaried work force is eligible for overtime pay today?
    Secretary Acosta. So Congressman, if the question is--well, 
the Congressman, I think, has the data.
    Mr. Takano. Okay. About 7 percent. Right? Under the current 
salary threshold.
    Under your proposal, you propose to set the salary 
threshold around $35,000. What percentage of the work force 
would be eligible under that salary threshold?
    Secretary Acosta. The same percentage as--and maybe this 
goes to how we propose the current rule from NPRM--the same 
percentage as would have been eligible when the salary 
threshold was set in 2004. In essence, in 2004, if I could, 
Congressman--
    Mr. Takano. Well, look. We have gone from, in 34 years, a 
salary threshold that made over 60 percent of the American work 
force eligible for overtime pay. Presently it is at 9 percent. 
Your salary threshold, as you propose, would make it 15 
percent. And you disagreed or you did not think, obviously, 
that defending a 33 percent threshold, eligibility threshold, 
was something that was a priority for you with President Obama. 
So we are quibbling over 33 percent versus 15 percent, but I 
would say that is a significant difference.
    Secretary Acosta. Congressman, if I could, if I could 
answer with at least a few sentences. The 2004 rule set the 
threshold at the 20th percentile of the lowest wage region, as 
I--
    Mr. Takano. I get that. But nationally, we are talking 
about that--
    Secretary Acosta. But Congressman--
    Mr. Takano.--but you have to--we have to see that the 
American worker, the protections under the Fair Labor Standards 
Act under the overtime rule--do you believe in the 40-hour work 
week, that people should not have to work more than 40 hours a 
week without being paid overtime?
    Secretary Acosta. Congressman, as I was trying to get a 
word in edgewise, the 2004 set it at the 20th percentile. The 
revised rule is--
    Mr. Takano. I get it. You're going to take me through all 
these regional examples.
    Secretary Acosta.--using the same methodology with the same 
percentage. And so we can talk about different percentiles, but 
it is the same methodology with the same percentile. There is 
no change since--
    Mr. Takano. Mr. Secretary--
    Secretary Acosta.--2004.
    Mr. Takano.--the fact remains that we once had 60 percent 
of Americans protected and eligible for overtime, and we only 
have 9 percent. And you are only proposing to increase it to 15 
percent of the salaried work force. I do not think that is a 
Secretary of Labor that is protecting the American worker. I 
yield back.
    Chairman Scott. Thank you.
    The gentleman from Kentucky, Mr. Comer. I did not see Ms. 
Stefanik come in. The gentlelady from New York.
    Ms. Stefanik. Thank you, Chairman Scott. Thank you.
    Secretary Acosta, I have heard from constituents in my 
district about challenges that are facing active duty 
servicemembers who are participating in the career skills 
program at Fort Drum. There is concern that these soldiers may 
not be able to be considered interns under the Fair Labor 
Standards Act.
    And this confusion is preventing them from gaining valuable 
on-the-job experience while they complete their transition to 
civilian life. And it is of paramount importance, I believe, 
that we provide members of the military with effective programs 
that teach the skills needed to secure a safe, steady, and 
family sustaining career post-service.
    Previously I sent a letter to you and the department at the 
end of February, and I wanted to know if you have any updates 
on clarifying classification of interns under FLSA, 
specifically for our military servicemembers. And if not, I am 
eager to hear what your ideas are, how we can work together to 
address this.
    Secretary Acosta. Congresswoman, thank you for the 
question. First let me say the confusion was not just limited 
to there. There was quite a bit of confusion nationwide as to 
what is and is not allowed for internships. And so we have put 
up a website to try to clarify that.
    This sounds like an important and a fact-based issue. 
Something that we have restarted is the practice of issuing 
opinion letters that had been in force for decades, where 
individuals that are not sure of what the law is can say, these 
are our facts; how do they apply?
    It is used by the IRS. It is used by any number of 
agencies. And perhaps we can work with your office so that you 
have the information to suggest that someone issue a request 
for an opinion letter. That will provide clarity as to what is 
and is not allowed. Alternatively, if it is a clearer issue, we 
can certainly work with your office.
    Providing opportunities for individuals associated with the 
military is incredibly important. We have worked on military 
spouse employment issues. They face incredible difficulty with 
respect to licensing as they have to move from State to State. 
They have, I think, a very unfair choice: Keep the family 
together or keep a career. And that should be a choice that 
spouses should not have to face.
    We are working to reform the transition assistance program 
that individuals receive as they are leaving the military. 
Right now it varies base by base, and we trying to bring 
national standards to bear so that it is much more uniform and 
it is accessible in the same way not just to individuals on the 
large bases but the small bases. So we are very interested.
    Ms. Stefanik. Okay. Well, I want to followup specifically. 
I want to be able to give Fort Drum and the soldiers and the 
program managers specific guidance as to what they need to do 
because the soldiers want this experience. We want to make sure 
that we protect this program at Fort Drum. So I look forward to 
following up directly with your department.
    Secretary Acosta. Let's set, by next Friday again, a 
commitment so that we can keep things moving.
    Ms. Stefanik. Great. So we can move quickly.
    And I also wanted to add on the professional certification 
and licensing challenge, that is something that we have written 
three bills that have actually passed in the National Defense 
Authorization Act because I sit on HASC. One is a $500 
reimbursement for a military spouse if they are transferring 
from one state to another and have to recertify.
    We should make that more seamless. But in the interim, it 
is important to cover as much of that cost as possible. 
Additionally, I was able to include my bill that allows greater 
flexibility for the spouse to move either 6 months prior or 6 
months after their spouse in the military to give them the 
flexibility to find a job or finish their--if they're taking 
college courses, for example.
    The more we can do to provide flexibility, not just for the 
service members but their spouses, I think the better off we 
will be as an economy and as a Nation. So with that, I yield 
back.
    Mrs. Davis. [Presiding.] Thank you.
    Ms. Wild?
    Ms. Wild. Good morning, Mr. Secretary. Thank you for being 
here.
    I would like to direct my first question to the multi-
employer pension crisis. And I guess my very first question is 
whether you believe that--and whether the administration 
believes that--A, there is a crisis, and B, that it needs to be 
addressed.
    Secretary Acosta. It absolutely needs to be addressed, and 
sooner is better than later. Congress needs to come together 
and really find a solution to this, yes.
    Ms. Wild. All right. And you are aware, of course, of H.R. 
397, the Rehabilitation for the Multi-Employer Pension Act?
    Secretary Acosta. Congresswoman, I know that there are any 
number of bills. I am not aware of the specifics of that 
particular bill, but perhaps you could inform me.
    Ms. Wild. Well, let me ask you this: Are there any bills 
currently pending that the administration is in support of to 
address this crisis?
    Secretary Acosta. Congresswoman, Congress tried to address 
this by creating a bipartisan commission, Republicans and 
Democrats, House and Senate, to find solutions. That commission 
ultimately could not come to an answer. An answer needs to be 
something that is supported by both sides. It needs to pass. 
And it is something that recognizes the need to compromise. And 
so it is certainly a bipartisan effort, and it needs to be 
bipartisan to come up with a solution to this as something that 
would be welcome.
    Ms. Wild. Okay. So I think you used ``bipartisan'' several 
times in that response. And I don't think anybody in this room 
would disagree that it has got to be a bipartisan effort in 
order to get anywhere.
    So my question to you is: Speaking for the administration, 
what kind of reforms would you support or would the 
administration support that might get us to a place where we 
can agree on some solutions for these retirees?
    Secretary Acosta. So putting aside the funding issue, which 
is one of the areas for bipartisan, something that I think we 
need to look at is the authority for the PBGC to have 
flexibility in pricing to be able to say, one pension is very 
well-funded and very low risk, but another pension is not as 
well-funded and much higher risk.
    And so perhaps the premiums that get paid need to be 
different. This is something that is very common in the private 
sector, and the average American gets, if someone is a greater 
credit risk, they have to pay a higher mortgage. And as a 
matter of fact, I think this is part of our budget request.
    There are any number of ways that the PBGC, going forward, 
can really look at individual risks, the risks of individual 
pensions that it is guaranteeing so that we are not in this 
position again.
    Ms. Wild. But ultimately that is going to disadvantage the 
retirees who are part of the pensions who are at greater risk. 
Right?
    Secretary Acosta. So I don't--in all candor, I don't see 
how a flexibility for premiums is going to, based on the 
strength of the pension, is going to disadvantage the retirees. 
That is a pension paying based on its risk to the system. And 
if anything, it incentivizes those that are funding the pension 
to fund the pension so that it does not get into the financial 
issues that have led to this crisis.
    We are looking at a $50 billion deficit today and a 
projected bankruptcy, in essence, somewhere around 2025 plus or 
minus a year or two.
    Ms. Wild. It is actually more than $50 billion. It is 
almost $54 billion when you compare the PBGC's assets to their 
liabilities. And the proposal of the administration to increase 
premiums would raise $18 billion over 10 years for the PBGC.
    But it still leaves almost $36 billion in liabilities. And 
while it provides a little bit of a safety net for the PBGC, it 
only provides a fraction of a retiree's pension benefit if the 
retiree's underlying multi-employer pension plan fails. And 
that is why I say it penalizes the retiree.
    Several weeks ago we had a hearing here where we heard from 
a retiree who had worked many jobs in an industrial bakery. His 
pension plan is projected to be insolvent in the next few years 
through no fault of his own, even though he paid into it for 
more than 20 years. And he is at risk of losing everything for 
which he worked and sacrificed.
    How do we solve that problem?
    Secretary Acosta. Congresswoman, when I was talking about 
that flexible pricing, I was talking about differential 
pricing, which is also part of the proposal.
    Ms. Wild. Thank you. I yield back, Mr. Chairman.
    Chairman Scott.
    [Presiding] Thank you. Now the gentleman from Kentucky, Mr. 
Comer.
    Mr. Comer. Thank you, Mr. Chairman. And Mr. Secretary, 
welcome to the Committee. I appreciate the good work that you 
and President Trump are doing.
    I represent a rural district in Kentucky. It spans all 
throughout West Kentucky, Southern Kentucky, and a portion of 
Central Kentucky. And I am blessed that we have two very 
impressive Job Corps centers in my congressional district. One 
is the Earle Clements Job Center in Morganfield, Kentucky. The 
other is the Muhlenberg Job Corps Center.
    I have visited both of those numerous times. I'm very 
impressed with the programs that they offer. They are providing 
exactly what industry is begging for. The biggest complaint 
that I receive when I travel the district from employers and 
job creators is, there is a shortage of workers, and there's a 
shortage of skilled workers.
    The two Job Corps centers in my congressional district are 
meeting the demands of what industry wants in Kentucky, and I 
am a big fan of both of those Job Corps centers. One of my 
constituents from Union County recently testified before the 
House Labor Health and Human Services Subcommittee about how 
great a job the Job Corps center did for his foster children.
    In Kentucky, we have a program that pays for free tuition 
for foster children, free tuition to any of the regional 
universities, which includes the University of Kentucky, and 
Murray State University in my congressional district, free 
tuition for any of the community colleges, vocational schools. 
But they chose to go to the Job Corps center because they felt 
like they would receive the certification that they need to 
make the most money in the work force.
    And my question to you, Mr. Secretary, is: Has there been 
any effort made to integrate the administration's industry-
recognized apprenticeship model, itself an alternative pathway 
to work, into the Job Corps?
    Secretary Acosta. Congressman, several of the Job Corps 
teach many of the skills that are already covered by 
apprenticeships on the registered side in the building trades. 
And certainly as the industry-recognized apprenticeship program 
continues, that is something we are going to be looking at.
    Let me also say that we have had very good discussions with 
Governor Bevin about the Job Corps centers in your State, and 
we are working with him because those Job Corps can certainly 
always be improved. And we do think it is important.
    If I could just have 15 seconds because I do think it is an 
important distinction. The variable pricing based on risk of 
underlying pensions that I was talking about is used in the 
single-employer plan that is not facing the same financial 
crisis so this is not that novel. It is already used in the 
single--employer process.
    Mr. Comer. Great. Next question. As you know, the Office of 
Workers' Compensation Programs is responsible for administering 
the Energy Employees' Occupational Illness Compensation Program 
Act, which provides compensation for Federal employees and 
contractors employed in nuclear weapons production.
    A recent report by the GAO requested by members of this 
committee found that the department could better assist these 
claimants with clearer communication during the application and 
eligibility determination process. In the report, Director 
Julia Hearthway underscored the Department's renewed focus on 
adequate education for claims staff, improving written 
communications and engagement with claimants and enhancing the 
transparency of the claims decisionmaking process.
    Can you discuss the process the Department has made in 
these areas, and what other areas and what other efforts the 
Department plans to undertake to improve the claims process for 
beneficiaries?
    Secretary Acosta. That is right, sir. Director Hearthway 
has implemented a number of reforms, not just in this but in 
other areas, to almost walk the claimants through this process. 
It can be very confusing. Each program is different.
    And so she has directed her staff to almost--we have to 
receive the submissions and judge them. But that does not mean 
that we cannot work. These claimants have been through a lot. 
That does not mean we cannot work with the claimants to make it 
clear to them, this is exactly what we need. This is exactly 
what we need to do.
    And so there have been 33 nonsubstantive updates to the 
requirement process. We have tried to avoid litigation. We have 
tried to just make it so that we can tell individuals up front 
what they need to do. There have been 35 programmatic 
determinations regarding the claims process.
    And the advantage of programmatic determinations is they 
are program-wide so we do not have to revisit that 
individual's. And the biggest change by volume is due to 
conforming the regulations regarding the process to the FECA 
program that was implemented in 2011. A lot of times these 
regulations are out of date.
    And so individuals do not really know what they need to do. 
So if there are specific questions, I can certainly address 
them individually. But she has done a great job.
    Mr. Comer. Thank you, Mr. Secretary. I yield back.
    Chairman Scott. Thank you.
    The gentleman from New Jersey, Mr. Norcross.
    Mr. Norcross. Thank you, Mr. Chairman. And Secretary, great 
to have you here as an update on what is going on at the 
Department of Labor.
    Before I get into my primary question, I just want to talk 
about the multi-employer pension system and the cost not only 
to those who receive the pension, but to our country, the 
damage that will be done if we fail to act, much higher than 
the amount of money that would be thrown into the system to 
prop up PBGC.
    A very important issue to make sure that we keep our eye on 
is that trying to charge the healthy plans astronomical 
increases in premiums is blaming those who have done the right 
thing are paying the price. We talked about the premium system 
that is used in the single employer. That is fair because it is 
that employer who caused the positive or the negative. There is 
a direct connection.
    The multiemployer, it is other companies that are making 
decisions that will force those premiums to go up and the 
structural changes. You are still dealing with the last man 
standing and the bankruptcy. That has to be changed. We cannot 
penalize the healthy plans.
    Secretary Acosta. Congressman, if I could because I think 
there is a misunderstanding as to what I am talking about and 
maybe I need to be more clear. What I am talking about is in 
the single-employer system, there is variable pricing. So the 
healthy plans actually pay less, not more.
    And so what I'm suggesting is that putting aside whatever 
the ultimate premium is going forward, something that is 
important is a recognition that if a plan is under-funded, it 
carries a bigger risk--
    Mr. Norcross. Absolutely.
    Secretary Acosta.--and therefore should be paying a higher 
premium, as opposed to a plan that is not under-funded and, if 
anything, that provides an incentive to not underfund these 
plans.
    Mr. Norcross. We could spend hours on this one. But the 
idea of making the healthy plans pay for the unhealthy, now 
there's a risk that we would need to address. But that will 
just cause more plans to fail.
    I want to touch base on something that I know we have 
spoken about before, and it is important to you. And that is 
the Mental Health and the Addiction Parity Act. The law was 
almost 10 years ago. Patrick Kennedy ushered it through, and it 
was signed into it.
    You have testified before why it is important for the 
Department of Labor to have the ability to issue civil monetary 
penalties against the plans when those insurers are not doing 
the right thing. Why is that important for the Department of 
Labor to have that stick to address it?
    Secretary Acosta. Well, Congressman, typically enforcement 
carries with it a stick.
    Mr. Norcross. Absolutely.
    Secretary Acosta. And so let me break this down, if I 
could, into two parts. One of them is how we enforce, and right 
now we enforce against each individual--each individual plan. 
And so we can have a situation where we have a hundred 
violations that are identical, and we would have to go a 
hundred times as opposed to just say, it is the same violation 
by the same carrier.
    And so just as a matter of enforcement economy, not only is 
it like a stick--
    Mr. Norcross. But you cannot go after all the employers 
right now because you do not have the enforcement mechanism. If 
we gave that to you, obviously you could.
    Secretary Acosta. That is correct. We can go after 
individual by individual. But as a matter of enforcement 
economy--
    Mr. Norcross. Right. You cannot do that.
    Secretary Acosta.--that is not the better approach.
    Mr. Norcross. So you are agreeing that you still want that 
enforcement ability, the tool, to go after them?
    Secretary Acosta. I understand it is a complicated issue 
and there are multiple levers. But from an enforcement 
perspective, that would be a much better enforcement approach.
    Mr. Norcross. Great. So we will be working with that. I 
think the bill is going to drop next week.
    Let me just shift over to the apprenticeships. And there 
has been a lot talked about a registered program versus 
unregistered. I came through one myself that was registered, 
and they do a great job in the building trades.
    I am a little perplexed on why a registered program for 
nursing, healthcare, is a problem, particularly when putting 
together a program is not tough, and the standards are so 
critical because whether it is a nursing or a tech, at a 
healthcare system, it is not different than it is on the West 
Coast. And they actually learn from each other.
    Why is it that you are--or what are you seeing that is 
preventing companies from creating apprenticeship programs that 
are registered?
    Secretary Acosta. Well, Congressman, it actually is, for 
companies, quite complicated because often the standards vary 
by State. And so a company that wanted to have a nationwide 
apprenticeship program may say, ``We are not going to go to 50 
different States, or 40, or 30, and do their submissions. We 
are just going to do our own job training.''
    Mr. Norcross. Well, but if you are going to send applicants 
into those programs you have to set up a system that can be the 
same, and we do it across the board. It is not tough. I have 
put a program together. It is not--if you are in a position to 
teach those young apprentices, that means you have curriculum 
and you can go through it.
    Your website actually points out that one of the biggest 
registered programs is in healthcare, and it is in 
manufacturing. It works. It is not really that tough. And the 
idea of working together--registered, the standards are the 
same--is an asset, not a negative.
    So where is it--what evidence do you have--that it is a 
problem? Maybe I can hear from you later on.
    Secretary Acosta. We will talk.
    Mr. Norcross. Thanks.
    Chairman Scott. Thank you.
    The gentleman from Pennsylvania, Mr. Smucker.
    Mr. Smucker. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary, for being with us. I am really proud of the work 
that you have done and that the administration has done to 
provide more opportunity for workers all across this country, 
and proud to have been here in the Congress when we focused on 
economic policies that generated the kind of economic activity 
that we are seeing.
    So thank you so much. You are making a difference in the 
lives of more workers than at any time in recent history, and 
we appreciate what you are doing, and we appreciate the 
opportunity to work with you on that.
    Of course, 7 million jobs available. I meet regularly with 
a group of some of the large staffing agencies. One 
particularly meeting, they went around the room. It was half a 
dozen companies. 75,000 jobs available just among that small 
group.
    They said, today companies are making decisions about where 
to place the next factory, where to position their headquarters 
on work force issues primarily, and that is still too often 
overseas. I think it is the biggest threat to our growing 
economy, is simply not being able to fill these positions.
    Businesses are investing more and more. But on the 
government side, we are woefully under-investing compared to 
the amount of dollars that we are investing in higher education 
on 4-year degrees and so on. I have a particular bill that 
would address this that I would like to just mention to you.
    It is the USA Workforce Tax Credit Act. It allows a tax 
credit for businesses who invest in their work force, invest in 
their communities, participate with community college, 
participate with companies that are providing apprenticeship 
programs, and so on. It is taking dollars and reinvesting right 
back into their work force rather than sending to the Federal 
Government.
    It would be, I think, a tremendous way to provide an 
additional tool for companies. And again, we are seeing 
particularly larger companies are investing more and more in 
their work forces. But they need additional help. So I would 
love to be able to share that legislation with you, and would 
certainly love your feedback on that proposal.
    Secretary Acosta. So, Congressman, let me just say two 
points. First, I agree we are under-investing in skills versus 
degrees, as an example. An individual can go to a community 
college and get a certificate in coding, and can get that for 
credit, and not receive much of the aid that would be available 
if the individual enrolls in a degree where you have got the 
same courses, the same skills, but one meets the criteria for 
aid. One does not meet the criteria for aid.
    And so if individuals want to work and learn and work and 
learn, which I would say is the way our country is moving and 
the world is moving, where you do not just--the old way of 
doing it was, go to school, and work. The new way is earn/
learn, earn/learn, lifetime earning/lifetime learning.
    The second point, and I think this is why what you raise is 
so important, is the integration of business into education. I 
was in Connecticut recently, and one of the reasons I went up 
there is I had heard that there was a welding program a while 
ago. And that welding program was teaching welding--
    Mr. Smucker. I am going to stop you, and I would love to 
hear that, and it is no disrespect whatsoever.
    Secretary Acosta. Go on, please.
    Mr. Smucker. But I do have at least one other issue I will 
like to raise, the issue of IRAPs. I applaud your work on this. 
I came from the construction industry. I understand the need 
to--what you are describing, on-the-job training. Earning while 
you are learning is very, very important.
    And the concern was raised earlier that the government 
should approve all apprenticeship programs through the 
registered program, which I think is one way to do it. But is 
this not similar to higher education, where we decided that 
system didn't work as efficiently as it should, so we created 
accreditors. And yes, that system may not be perfect, either, 
but generally it is working pretty well.
    Do you not see some similarities in those programs?
    Secretary Acosta. It is very, very similar. The answer is 
yes.
    Mr. Smucker. My old company was in Lancaster, Pennsylvania. 
Had several hundred employees. We worked very, very hard to 
build an apprenticeship program for our workers. Were unable to 
get approved in Pennsylvania. There are barriers in the 
construction industry to a large segment of the construction 
work force that is non-union.
    How do we address that?
    Secretary Acosta. So there are barriers to approving 
registered apprenticeships. It is more complex than folks 
understand. A number of businesses do not want to go through 
that. And the genesis of the industry-recognized apprenticeship 
is to provide an alternative path with accreditation just like 
higher education.
    Mr. Smucker. Thank you. I appreciate your work on it.
    Chairman Scott. Thank you.
    The gentlelady from Washington, Ms. Jayapal.
    Ms. Jayapal. Thank you, Mr. Chairman. Secretary Acosta, 
thank you for being with us today.
    One of the most basic functions of the Department of Labor 
is to keep workers safe from danger on the job. I think, in 
this country, no child or parent or grandparent or partner 
should have to say goodbye to their loved one in the morning 
and wonder if they are going to come home safe.
    I assume you would agree with that?
    Secretary Acosta. Absolutely.
    Ms. Jayapal. Thank you. Sadly, our country is still very 
far from meeting that basic standard. Over 800 people were 
killed and 29,000 were injured from violent assault at their 
place of work in 2017. And two-thirds of those who were injured 
were women.
    If you look at the statistics, nurses are being beaten to 
death. Hospital employees are dodging gunfire. And a study by 
the American College of Emergency Physicians in 2018 found that 
nearly half of emergency physician respondents reported being 
physically assaulted.
    OSHA could help put an end to this by setting specific 
safety standards to protect workers that are vulnerable to 
violence at their jobs. Without those enforceable standards, 
employers cannot be held to account for protecting their 
workers. And yet you are moving at a snail's pace on these 
standard-setting measures.
    A small business review that was originally slated to begin 
in January 2019 has yet to occur. I know Representative 
Courtney raised this issue to you before. But with respect, I 
did not find your answer sufficiently acceptable. And so I 
wanted to give you another chance to say: What is your timeline 
for these standards? Why has this been moving at such a slow 
pace?
    Secretary Acosta. Well, Congresswoman, two comments. First, 
if you were to compare this to OSHA rulemaking as a general 
matter, this is not moving at snail's pace. OSHA rules 
historically have taken even longer than this, and we are happy 
to provide the length of time it took to put together, for 
example, the silica rule or the beryllium rule or others.
    But secondly, the SBREFA panel that was slated to begin in 
January is being put together currently. I understand that this 
is now, I guess, as of this morning, May as opposed to January. 
But we are moving forward with the SBREFA panel.
    Ms. Jayapal. I just think this is an urgent--I appreciate 
that, and I just think this needs your urgent attention. And I 
say that in the context of your administration cutting OSHA 
standards budget by 10 percent in 2018. And you have dedicated 
the remaining funds to rolling back standards. So I think it 
does not show a commitment, which I believe and I hope that you 
have, to really ensuring these safety standards.
    You have the power as Labor Secretary to do this on your 
own through the Administrative Procedure Act. Can you guarantee 
me that there will be immediate action on this front?
    Secretary Acosta. Congresswoman, as you are aware, OSHA 
traditionally uses the SBREFA process for these rules. It is an 
important process. It has been set up by Congress.
    All that said, we are continuing to enforce, and we have 
the general duties provision, and we have used the general 
duties provision to focus, in some cases that were particularly 
egregious, on workplace safety. And I am happy to provide the 
Congresswoman with the--
    Ms. Jayapal. So how fast can you move on this? I guess that 
is really the question. And then I want to move on to another 
quick question.
    Secretary Acosta. So, Congresswoman, I will provide your 
office with a timeline for a SBREFA panel. But it is moving 
forward.
    Ms. Jayapal. Let me move to child labor law. You recently 
issued a regulation allowing 16- and 17-year-olds who work in 
the healthcare sector to operate power-driven hoists to lift 
and transfer patients without supervision. It seems incredibly 
dangerous to their safety.
    What was your justification for rolling back this 
regulation, given the scientific evidence that these teenagers 
cannot safely do this themselves?
    Secretary Acosta. Congresswoman, first, it has not been 
issued. It is a notice of proposed rulemaking seeking comment. 
And a review of the scientific evidence, I think, shows that, 
in essence, hoists are less dangerous or--
    Ms. Jayapal. What scientific evidence are you referring to?
    Secretary Acosta. Congresswoman, there are two ways of 
moving patients. One is the physical method, just putting your 
back into it. And--
    Ms. Jayapal. Is there scientific evidence? You mentioned 
scientific evidence. Is there scientific evidence that you are 
referring to?
    Secretary Acosta. Congresswoman, a review of the evidence, 
I think, may show that lifting someone by putting your back 
into it is actually--could be less risky than using a 
mechanical device.
    Ms. Jayapal. Secretary Acosta, I was just asking whether 
there is scientific evidence for this proposal that you are 
putting forward.
    Secretary Acosta. And Congresswoman, I am saying that a 
review of the evidence, main facts, show something that I think 
is also common knowledge, which is, lifting someone sometimes 
can be as, if not more, dangerous than using an assistive 
device.
    Ms. Jayapal. Here is my concern. The only evidence that I 
have seen referred to here that you used is, in the official 
rulemaking document justifying the proposal, you relied on a 
2012 survey by the Massachusetts Department of Public Health, 
specifically a question that was answered by only 22 of 42 
respondents on a Survey Monkey online questionnaire.
    Mr. Chairman, I ask unanimous consent to enter into the 
record a copy of the fact sheet on this.
    [The fact sheet referred to follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Secretary Acosta. I recognize that time is expired, but may 
I respond?
    Ms. Jayapal. Please.
    Secretary Acosta. Congresswoman, if I could, with due 
respect, that is a newspaper article that made that assertion. 
And if you were to actually read the underlying rule, you would 
note that is in one footnote of a very large document. And that 
is not relied upon for the truth of the matter, i.e., the 
underlying evidence. That is simply relied upon, as it says 
there have been a number of studies. Footnote. And there are a 
number of studies that are cited.
    And so I push back because sometimes the way media covers 
something becomes truth because it is repeated without folks 
looking at the underlying record.
    Ms. Jayapal. I appreciate that, and I will look at all of 
those documents that are referred to. I will just say that I 
think this is a very, very critical issue for us to address. 
Thank you, Mr. Acosta. I yield back.
    Chairman Scott. Thank you.
    The gentleman from Texas, Mr. Wright.
    Mr. Wright. Thank you, Mr. Chairman. Mr. Secretary, thank 
you for being here today.
    We have already had a lot of discussion about work force 
development and the lack of skilled labor and the challenges 
that poses. I certainly got an earful last week in my district 
about it.
    What I wanted to ask you, though, is I know there was some 
talk early on about, as a streamlining effort, combining Labor 
and Education. And what I wanted to ask, though, is to what 
extent the Department of Education and the Department of Labor 
are collaborating. I know there is a lot of overlap when it 
comes to work force development. And what do you see in the 
future as opportunities for more collaboration?
    Secretary Acosta. Congressman, thank you for the question. 
Someone that is receiving work force education through a 
Department of Labor program, and someone that is receiving work 
force education at a community college, I believe are receiving 
similar if not the same kinds of education.
    And something that Secretary DeVos feels and that I feel 
and that we work very closely together on is the importance of 
having seamless integration between our various education 
programs. I see Dr. Foxx up there, and she's fond of saying, 
``It is not training. It is education.''
    And so this goes to the point that one of your colleagues 
made. We support one system through billions of dollars. We 
support another system much, much less. And I think we need to 
stop unleveling the playing field and telling individuals there 
are multiple pathways to success, and it can include higher 
education, but it could also include a welding class. And if 
you want to become a small business person later, you can go 
back and you can get a degree later.
    Mr. Wright. Well, I couldn't agree with you more, and Dr. 
Foxx. I believe her maxim is, ``We train dogs. We educate 
people.'' And certainly I think that the two departments could 
come up with a plan or a proposal for the President that would 
help streamline some of this if you are not going to combine 
the departments, at least that one effort.
    The other question I had to do with a company in my 
district. It has to do with the 2016 Silica Act. And let me 
preface by saying that all of us up here want American workers 
to work in a safe environment and that kind of thing. We all 
know the dangers of silica to the lungs. But this is not a 
terribly large manufacturer. They have spent, so far, $2.5 
million, and expect to spend up to $4 million, to try and come 
into compliance with that act. They have never had a silica-
related illness in 30 years.
    And so my question has to do with that OSHA rule and if the 
department is doing anything or plans to do anything to help 
manufacturers like this one come into compliance and mitigate 
the economic impact of coming into compliance.
    Secretary Acosta. Congressman, we are certainly working 
with manufacturers of the industry to help them come into 
compliance. And if you provide us the name of that 
manufacturer, we will be sure to work with them to the extent 
that they would like to. Sometimes if OSHA calls and says, 
``Can we work with you?'', the manufacturer does not always 
welcome it.
    But if they do welcome it, we would be more than happy. We 
have got a heavy compliance assistance program. I believe that 
our compliance assistance program saves manufacturers money by 
going in and telling them what they need to do, and really 
benefits everybody.
    Mr. Wright. I just question whether or not a one-size-fits-
all approach is appropriate with some of these standards we 
have come up with.
    Secretary Acosta. I understand.
    Mr. Wright. And with that, I am going to yield the 
remainder of my time back to Ms. Foxx.
    Ms. Foxx. Thank you very much.
    Mr. Secretary, the last reauthorization of WIOA went a long 
way toward empowering the private sector to take leadership in 
work force development. We have made substantial progress in 
aligning the system with employer needs.
    As someone who is actively engaged with this system, where 
do you feel our reforms have been successful? And where do we 
need to be doing additional work? What have you heard from 
State leaders about the impact of the additional flexibility?
    Secretary Acosta. Congresswoman, empowering localities to 
direct their work force programs, I think, is critical. The 
localities know best what they are doing. Everyone is saying we 
need additional flexibility, especially around in-school versus 
out-of-school youth.
    Ms. Foxx. Thank you, Mr. Chairman. Thank the gentleman from 
Texas for yielding.
    Chairman Scott. Thank you.
    The gentlelady from Oregon, Ms. Bonamici.
    Ms. Bonamici. Thank you, Mr. Chairman. Mr. Secretary, thank 
you for being here.
    I am going to start by saying I am disappointed that the 
President's budget request and recent regulatory actions from 
the department have failed to adequately support and protect 
workers. In December of 2017, the department proposed a rule to 
allow employers to keep and control how to redistribute 
workers' tips.
    A report from the Economic Policy Institute estimated that 
if the proposed rule were finalized, workers would lose about 
$5.8 billion a year in tips, nearly 80 percent of which would 
have been taken from women working in tipped jobs.
    Last year Bloomberg Law reported that as part of the notice 
of proposed rulemaking, your department prepared and then 
withheld an economic analysis quantifying the loss of tipped 
income for tipped workers. Shortly after that report I joined 
Chairman Scott and two of my colleagues. We sent you a letter 
requesting a copy of each draft, interim, proposed, or 
completed economic analysis in connection with or related to 
the proposed rule. And we have yet to receive a substantive 
response.
    Then in March of 2018, Bloomberg Law reported that the 
department convinced OMB Director Mulvaney to release a 
proposed rule without sharing that quantitative analysis that 
your department prepared, even though it was available. As you 
are aware, the department's Office of Inspector General is now 
investigating the agency's process in crafting the proposed 
rule.
    Have you provided that economic analysis that the 
Department of Labor conducted on the proposed rule to the OIG?
    Secretary Acosta. Congresswoman, we have provided, and we 
have been working with the OIG so that they have, appropriate 
material for their investigation. As you are aware, the OIG has 
authority to look at documents within the department. And we 
are working with the OIG on that--
    Ms. Bonamici. Have you provided the economic analysis that 
Department of Labor conducted on the proposed rule to the OIG?
    Secretary Acosta. Congresswoman, we are working with the 
OIG so that the OIG has whatever documents it deems necessary.
    Ms. Bonamici. So in other words, you are not answering my 
question.
    Secretary Acosta. Congresswoman, what I am saying is that 
we have provided the OIG what it has requested, and it is 
reviewing that. And so I imagine that--it is not for me to 
review what the OIG has requested. If the OIG has requested 
it--
    Ms. Bonamici. I am not asking you to review that. I am just 
asking you if you provided them with the economic analysis, 
which is a yes or no question.
    Secretary Acosta. And Congresswoman, what I am saying is 
the OIG, as any investigator would, I am sure, has asked for a 
series of documents. We have worked with them so that they have 
the documents they need. If that is among those--
    Ms. Bonamici. Okay. I am going to assume that your answer 
is no.
    Will you commit to being more transparent about the adverse 
effects of proposed rules for workers in the future?
    Secretary Acosta. Congresswoman, I believe I have been 
quite transparent. As a matter of fact, I addressed this at a 
hearing previously where I laid out one of the issues with 
this. This was a notice of proposed rulemaking, not a final 
rule. It was a notice of proposed rulemaking where the prior 
notice did not have an economic analysis, and where one of the 
difficulties is the--and I do not have the numbers at my 
fingertips, but if I could, Congresswoman--
    Ms. Bonamici. Mr. Chairman--Mr. Secretary--
    Secretary Acosta.--because this is important. The--
    Ms. Bonamici. I know it is important but I am going to 
reclaim my time because I have another question.
    Recently I chaired a hearing on persistent gender-based 
wage discrimination, and we heard witnesses describe the heavy 
burden of proof for holding employers accountable. And one of 
the challenges in enforcing antidiscrimination laws and proving 
a pay disparity is identifying an employee of the opposite sex 
in an equal position who is paid more.
    So the House recently passed the Paycheck Fairness Act to 
try to close that loophole. The department's Office of Federal 
Contract Compliance Programs, or OFCCP, has an obligation to 
audit Federal contractors for pay discrimination. And in the 
past, Directive 307 allowed the OFCCP to decide which workers 
could be considered in making that determination about whether 
they were doing the same job.
    But unfortunately, last year the department rescinded that 
directive and implemented a new policy that allows employers to 
decide which workers should be compared. Now, that is pretty 
concerning, that the department is allowing the contractors to 
shape the outcome of their own audits. The wage gap persists in 
nearly every line of work, regardless of education, experience, 
occupation, industry, or job.
    So do you agree that detecting pay discrimination and 
closing the wage gap affects the lives of working families?
    Secretary Acosta. Congresswoman, first I would say that 
your characterization of the department's actions are just 
factually incorrect. At no point has the department said that 
employers can determine which employees are looked at, and I 
just do not think that is an accurate characterization of what 
the department--
    Ms. Bonamici. The department did--
    Secretary Acosta. But ultimately, going to your question, 
yes. I do agree that it is important to eliminate wage 
disparities.
    Ms. Bonamici. And do you agree that OFCCP's audits are one 
way to detect pay discrimination?
    Secretary Acosta. Yes, I do.
    Ms. Bonamici. And do you agree that the department 
rescinded Directive 307?
    Secretary Acosta. Congresswoman, I do not have the numbers 
of the directives on the top of my head. But we did attempt to 
provide more transparency to the employer as to what categories 
of employees we would be looking at.
    Ms. Bonamici. Yes. I would appreciate a followup on whether 
Directive 307 was rescinded. And I'm out of time. And I yield 
back. Thank you, Mr. Chairman.
    Chairman Scott. Thank you. The gentleman from Kentucky, Mr. 
Guthrie.
    Mr. Guthrie. Thank you very much. Thank you, Mr. Secretary, 
for being here today. And we've talked before. I have a lot of 
ESOPs in my district. One of the largest in the country is in 
my district. And I believe they--particularly this, the ones 
that I'm familiar with have provided extremely lucrative 
retirement plans for their employees.
    Could you just share an update on the DOL's activities on 
ESOPs, and what Congress can do to ensure ESOPs continue to be 
created and thrive?
    Secretary Acosta. Congressman, as we've discussed 
previously, I strongly support ESOPs. I think ESOPs are of 
benefit to employees. We enforce the law, and that includes 
ensuring that ESOPs are done appropriately, that the stock is 
priced fairly.
    One thing that I will say, and to just update the 
Congressman, I think perhaps in part because of the Department 
of Labor's enforcement actions, the industry is, is conforming 
much more closely to the law. And so, I think the enforcement 
actions peaked sometime around 2013 and have been declining 
since, as industry comes into greater conformity with what 
pension laws require. If there are more specific issues, we're 
certainly trying to give a lot of compliance assistance. But at 
the same time, every industry has bad actors, and we do enforce 
in enforcement.
    Mr. Guthrie. And you absolutely should. Because as I said, 
it is employees' retirement security involved in there. And the 
biggest issues are the small-, mid-sized trying to get--because 
they're closely held companies. That's why they're becoming 
ESOPs, to get the proper valuation, and that's important.
    But the one thing that you hear though--and I do agree that 
there are bad actors, and absolutely need to be used the 
compliance rules. But I guess some questions I've had just of 
the clarification guidelines of the people who say, ``Here are 
the clarification--here are the guidelines.'' This clarifies 
what we need to do pertaining to stock value to ensure that we 
comply with all of them. Just clearer guidelines I guess is 
what we're looking at.
    Secretary Acosta. Fair. And let me suggest if there are 
particular areas where the guidelines need to be more clear, 
we'd appreciate knowing that, so that we can focus in the 
inquiry.
    Mr. Guthrie. Okay. I owe you that. Thank you very much for 
that. And then apprenticeships, that's an area that, that we've 
also talked about, that a lot of us here on both sides of the 
aisle are very interested in.
    Look, in Kentucky, we have some great growing urban areas, 
but we have some very rural parts of our State. And rural 
broadband has been important.
    One of the biggest issues we hear from people wanting to 
deploy broadband, cell towers, all the other things, is the 
access to workers who are able to do this type of work. It's 
very critical skills, and my understanding, very lucrative pay 
for these types of work. Would you talk about what the 
Department of Labor is doing to encourage apprenticeships? 
Particularly the 5G Rating Workforce.
    Secretary Acosta. So, certainly. So these are great jobs. 
They pay well. And you know, the skills are very much in 
demand. And so, in this and other areas, we are trying to 
encourage individuals to make a choice. ``What skills do you 
want?'', and empower them to obtain those skills. And we've got 
a lot of infrastructure and money and funding for the college-
based skills, but less so for other skills. And so 
apprenticeships are a mechanism of doing that.
    Mr. Guthrie. Okay, thanks. And also I introduced a Partners 
Act in this Congress which supports the creation and expansion 
of industry partnerships to help small- and medium-sized 
businesses partner together to develop work-based learning 
programs and apprenticeship programs.
    What is the department doing to promote these size 
businesses to join together to form apprenticeships?
    Secretary Acosta. Well, one of the concepts of industry-
recognized apprenticeships is that small- and medium-sized 
businesses do not have the resources or wherewithal to, to have 
a registered apprenticeship. A registered apprenticeship 
application, we've talked about it a lot today. But sometimes 
they're 90 to 100 pages long. Many small businesses are just 
not going to do that. But if they band together as an industry, 
then that's different, and then we could have these industry-
recognized apprenticeships where small- and medium-sized 
businesses can participate.
    Mr. Guthrie. Well, thank you. And I do appreciate your 
focus on apprenticeships and the skilled work force. And that 
runs throughout the administration, runs throughout Congress.
    And we want to get people the skills they need to earn the 
types of living that provide not just a job but a career, and 
one that can support their families. And I think we, everybody 
here in Washington agrees with that, and hopefully we can come 
to the right policy to make that happen. Thank you very much. 
And I will yield to the Ranking Member.
    Ms. Foxx. I thank the gentleman for yielding. Secretary 
Acosta, Congress intended for the Labor Management Reporting 
and Disclosure Act to be applied broadly to combat union 
corruption. Unfortunately, the Obama Administration rescinded 
several important union reporting requirements, that would have 
provided valuable transparency for rank and file workers.
    One of those pertains to so-called intermediate bodies, 
which are mid-level State or regional organizations in the 
union hierarchy, made up of public employees. These 
intermediate bodies do not currently have to file financial 
disclosure reports under the LMRDA, but they are subordinate to 
larger unions that are covered by the LMRDA. Re-imposing the 
LMRDA reporting requirements on intermediate bodies has been on 
DOL's regulatory agenda for nearly 2 years. It has yet to 
advance.
    Can you discuss why this reform is important and any plans 
for the department to move forward with it?
    Secretary Acosta. Congresswoman, I see that the time has 
expired. Let me say briefly, we are actively looking at that 
now.
    Chairman Scott. Secretary, you can respond. You can 
respond.
    Secretary Acosta. So, we are actively looking at this now. 
This is an important issue.
    Ms. Foxx. Thank you.
    Chairman Scott. Thank you. The gentleman from California, 
Mr. Harder.
    Mr. Harder. Thank you so much, Mr. Chairman. And thank you 
so much for joining us today, Secretary Acosta. I know many of 
my colleagues are touching around some of the real budget cuts 
to the Labor Department and how they're going to hurt each of 
our individual communities.
    I actually want to put that on the side for a minute and 
talk about the Job Corps program. I know we've talked about 
that a little bit. But I want to take a little bit of a 
different sense of it.
    This is a program that I think really works. And even the 
Department of Labor website says that 90 percent of Job Corps 
graduates go on to careers in the private sector, enlist in the 
military, or move on to higher education or advanced training 
programs. Even in your own testimony today, you talked about 
how you want to reform the program and make it work even 
better, doubling down on the parts of the program that are 
successful, which I completely agree with. We have some real 
issues in making sure that folks actually can get the career 
education that they need to be gainfully employed in our 
economy.
    But here's the issue. I represent the California Central 
Valley, and we don't have any Job Corps centers. In fact, most 
of the Job Corps centers that exist are many hours away. We 
have one in Sacramento, which is an hour and a half, 2 hours, 
plus. We have one in San Francisco, two, 3 hours for most of 
the people in my district. Do you know the unemployment rate in 
Sacramento? Do you know it, Mr. Secretary?
    Secretary Acosta. The unemployment rate in California tends 
to be above the national average, and so I imagine it is above 
the national average.
    Mr. Harder. So, in Sacramento, it's actually three and a 
half percent. In San Francisco, it's two and a half percent, 
which is pretty good.
    In my district, any guess what our unemployment rate is? 
It's about 7 percent. In other words, we have real challenges 
making sure that we actually are connecting people into jobs. 
And yet every single job center that exists in California is in 
an urban area that has on average much lower unemployment rates 
than my district. And yet, we're not actually helping the 
people that need the most help.
    Let me tell you why this matters. Last week I was in Tracy. 
I met with a guy named Ben Hatfield. He's 21. He's been out of 
work. He's been having trouble finding a job. He's actively 
trying. But he's couch surfing, relying on help from friends. 
He doesn't own a car. He wants to go to places like the job 
center in Sacramento. It's 2 hours away. He can't make it. What 
is he going to do?
    This is somebody who has demonstrated the desire, and this 
is even before we're getting to the fact that we're cutting 
this program by 40 percent. This is somebody that really wants 
to work. So, you know, Chairman, you yourself have said you 
want to double down on this program. You're in the process of 
re-tooling it. What are you going to do to expand access to Job 
Corps programs outside of the major cities that have these low 
unemployment rates?
    Secretary Acosta. Congressman, one of the--I think we might 
agree at the end on this. One of the issues around Job Corps is 
they're around these large, very expensive structures. And so, 
I have pilot project authority. And one of the pilot projects 
that I shared earlier today is something called Job Corps 
Scholars.
    The idea is, we're putting out a request for a proposal for 
community colleges to set up what we'll call mini Job Corps. 
Cohorts of 40 students, within that community college. They 
would receive funding. The individuals would then go to that 
community college and obtain the skills. They could be 
residential, just like a Job Corps, or not residential, 
depending on what the community college thought made sense, 
just like some Job Corps are and some are not residential. And 
that would include funding for counseling and other services 
that are also available in Job Corps. The concept is, let's--
    Mr. Harder. Sorry to interrupt you, Secretary. But am I 
correct in believing that about a fifth of the current job 
centers for the Jobs Corps are going to be closed with this 
budget?
    Secretary Acosta. So Congressman, we have been having a 
debate over the Job Corps budget well on several decades. And 
in all candor, I met with a Secretary of Labor going back to a 
President that is no longer with us.
    Mr. Harder. Mr. Secretary, that's a great answer to a 
different question. Are we cutting these centers? Are there 
going to be fewer centers in 5 years if this budget passes?
    Secretary Acosta. So Congress is going to determine what 
the budget will be, and based on the budget, we'll determine 
what is and is not cut; what I'm saying is that--
    Mr. Harder. Hard for me to imagine we cut a budget by 40 
percent and we don't actually cut some of the centers.
    Secretary Acosta. But what I'm saying, Congressman, is that 
irrespective of where the budget ends up, we are using pilot 
project authority to try different approaches. And one will go 
to your concern which you articulated, which is how do we 
empower areas that don't have a center.
    Mr. Harder. Mr. Secretary, sorry. I know we're running out 
of time. Let me articulate again, what I think my concern is, 
which is the fact that this is a proven program with high 
success, and yet all the centers that exist are in areas that 
don't actually have the same needs as my district. Right? 
Sacramento, San Francisco, but not in an area with 7 percent 
unemployment like ours.
    And yet you're trying to cut this budget by 40 percent, 
when in fact you say we should be doubling down on it. We 
should be expanding centers to where we need to be, going to 
the Central Valley and other areas that actually need to be 
getting people like Ben a real fair shake.
    Thank you, Mr. Chairman. And I yield back my time.
    Chairman Scott. Thank you. The gentleman from South 
Carolina, Mr. Timmons.
    Mr. Timmons. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary, for taking the time to come and answer our questions 
here today. I'm going to begin talking about the President's 
budget. It seems that the President tried to thread the needle, 
and fully fund the military, which I would view as our core 
function of government. Our government needs to have a strong 
national defense. But also maintain spending levels below the 
limits placed under the BCA of 2011.
    So we have a lot of people in Congress that do not 
appreciate we have $22 trillion worth of debt. We had a 
trillion dollar deficit last year. It seems--I'm also on the 
Budget Committee, where we've talked about the President's 
budget at length. It seems that it's not really as big a 
priority as it seems in my mind. Literally, this is a national 
security threat, and I don't understand why Congress cannot 
spend within its means.
    Could you discuss some of the--your particular budget, it 
made strides toward prioritizing the country's work force 
development, but also consolidating some of the programs and 
eliminating waste and fraud. Could you discuss how you're going 
to do that? How you're going to do more with less?
    Secretary Acosta. So, Congressman, thank you. First, let me 
say that the budget approach, first and foremost, tried to even 
slightly increase the enforcement side of the House. Because as 
we've heard so much this morning, enforcement of labor laws 
matters. It's important that--wage laws, the safety laws.
    And so first and foremost we prioritized enforcement. Then 
with the remaining funds that are left within budget 
constraints, we focused on those work force programs that work 
the best. WIOA, for example, it's a formula funding. It goes 
straight to the States. It has very, very strong metrics.
    Job Corps--and in all candor, we've talked about it a lot. 
There's some centers that have good metrics and there's some 
centers that spent tens of thousands per student and don't have 
the results that show. And so what we're trying to do there is 
try different approaches. The--the program that--the program I 
was commenting on, the Job Corps Scholars would actually let 
individuals go to community college, including residential 
perhaps, for half the price of a Job Corps program. And so 
there are ways of bringing efficiencies to the system and doing 
more with less.
    Mr. Timmons. Thank you. Can you think of any ways that 
Congress could help be of assistance in this endeavor?
    Secretary Acosta. So one of the areas that I'm looking at 
that I think is worth considering is I think it's important 
that we have consistent metrics throughout and across programs. 
Because it's very hard to compare programs and the outcomes of 
programs when metrics are different, right?
    And so we say a program is great, a program is successful, 
when in fact, if we had the same metrics, you would see that 
some programs are more successful than other programs. And so 
for example I've shifted the metrics in the Job Corps program 
to ``did the individual get a job? Was it in the area for which 
they actually received their education? Did they keep the job? 
And did the job represent a wage increase?''
    Those are pretty straightforward, simple metrics. That's 
why individuals go through a job education program. And so I 
think, as something I'm trying to look within the department 
is, can we bring consistent metrics to all these? And I do 
think that to the extent that the metrics are statutory, there 
is a value to having consistent metrics, so you really can 
judge programs side by side and say which ones work and which 
ones don't.
    Mr. Timmons. Thank you. I'm going to touch base on 
something Dr. Foxx mentioned earlier, that overtime proposed 
rule. So 2004, there's $23,600. 2016, President Obama made it 
$47,476. And the proposed rule that is not filed yet is 
$35,307. That's all great. I have a lot of businesses in my 
district that are trying to plan long-term, and I realize that 
there's no deadline on when the rule becomes final. But I just 
want to convey to you that it is something that is very 
important to small businesses, to businesses of all sizes, and 
the more quick--the faster we can get to a final rule, the 
better off the country will be and my district will be. And 
with that, I will yield back the remainder of my time.
    Secretary Acosta. Thank you.
    Chairman Scott. Thank you. Okay. The gentlelady from 
Georgia, Mrs. McBath.
    Mrs. McBath. Thank you, Mr. Chairman. And thank you, 
Secretary Acosta, for being here today. I'd like to take some 
time today to bring attention to a rapidly increasing problem 
in our Nation. It's maternal health.
    As you may know, the maternal matort--mortality rate in the 
United States is among the highest in the developed world, and 
it continues to rise. Georgia, which I represent, Georgia's 
reported rate is also on the rise, and higher than the national 
average. There are racial disparities to address as well, and 
I'm thankful for my colleagues, Representative Adams and 
Representative Underwood, for leading the Black Maternal Health 
Caucus, so that we can focus on solving this growing problem.
    Secretary Acosta, the Newborns and Mothers Health 
Protection Act provides protections for mothers and their 
newborn children, in relation to the length of their hospital 
stays following childbirth. This is vital to ensuring that both 
mother and baby have access to the care that they need. The 
Department of Labor is responsible for ensuring that employer-
provided group health plans comply with this legal requirement, 
one that has been in law for over 20 years.
    Secretary Acosta, can you provide the committee with an 
update on enforcement efforts in this specific area?
    Secretary Acosta. Congresswoman, I can certainly provide 
the committee with detailed enforcement efforts in that area. I 
do not have those with me, but I share your concern and I will 
be more than happy to provide both the committee and you with 
detailed enforcement efforts.
    Mrs. McBath. Okay. Thank you very much, Mr. Secretary. 
Secretary Acosta. And let me go on then.
    The ACA amended the Fair Labor Standards Act to provide 
critical protections for breastfeeding mothers. Under this 
provision, employers can no longer prevent breastfeeding moms 
from taking breaks to pump or force them to pump breast milk in 
the bathroom.
    Yet a study conducted in 2016, well after the passage of 
the ACA, shows that more than half of women are still denied 
private space, break time to pump, or both. Given that more 
than half of the women continued to be denied these protections 
under this provision, how many enforcement actions did the 
Department take related to this provision last year?
    Secretary Acosta. Congresswoman, I can provide you with the 
specific number of enforcement actions. And let me just say, 
I'd appreciate if you can share that study. And if you have 
specific thoughts for what we can do to inform the employer 
community, this is something that I agree with you is an 
important issue to address.
    And in addition to enforcement, something that I have found 
is very effective is a compliance campaign. Some way of calling 
publicity to the matter. And I certainly welcome your input as 
to how we should go about doing that. Because that may be a way 
to, on a broad basis, ensure that if in fact employers are not 
aware of their requirements, the employers need to be made 
aware of those requirements.
    Mrs. McBath. So, in other words, Secretary Acosta, then 
really you have no idea whether or not these provisions have 
been put in force?
    Secretary Acosta. No, Congresswoman. What I said is I can 
give you any number of enforcement statistics. I can tell you, 
for example, that the Wage and Hour Division, this past year, 
had its best enforcement year ever. It collected more than $300 
million in back wages.
    I can tell you that OSHA as a whole exceeded 32,000 
inspections for the second year in a row, which is more 
inspections than it has in previous years. I can tell you that 
on the pension side, we collected and returned to plans $1.7 
billion. Now, if you ask me to itemize that by each specific 
enforcement category, I don't have that information right here 
and right now, but I'm happy to try to provide that information 
to you, to the extent we track it by enforcement category.
    Mrs. McBath. So, just, let me just say this, though, that 
if the mator---mortality rates here in the United States is 
among the highest in the developed world, then definitely we 
are not doing enough. Let me ask another question.
    If more than half of the women are still being denied the 
care that they're entitled to under the law, then I imagine 
that, you know, the enforcement efforts are still not up to the 
levels that they should be. Would you support increased funding 
to increase inspections and compliance with this protection?
    Secretary Acosta. Congresswoman, first let me just say, my 
staff just informed me that as an example, and we're happy to 
provide this, we just brought an enforcement action in Phoenix 
against an employer that in fact was violating the 
breastfeeding statute. And so the point I made earlier--and I'm 
happy to provide you with details of that enforcement action--
is we are enforcing. And I can provide you with details. Now, 
with respect to funding, as you well know, the funding and the 
budget issue is an administration-wide question, and we defer, 
obviously, to OMB on that matter.
    Mrs. McBath. Thank you for being here. I yield back the 
balance of my time.
    Chairman Scott. Thank you. The gentleman from North 
Carolina, Mr. Walker.
    Mr. Walker. Thank you, Mr. Chairman. Thank you, Mr. Acosta 
for being here. We're glad to have you. I've got six or seven 
questions, so I'm going to move pretty quickly through this, so 
we could get through them. Apprenticeships are an extremely 
important tool for work force training, as we would both agree. 
I want to thank the Secretary for the department's recent 
guidance on the industry-recognized apprentice program, or 
IRAP. This will provide flexibility to businesses and ensure 
workers receive the most applicable and relevant work force 
training.
    And here's my question. Would you agree that the creation 
of the IRAP program would expand, or will expand apprenticeship 
opportunities for the next generation of our work force?
    Secretary Acosta. I would agree.
    Mr. Walker. Okay. How would those expanded opportunities 
translate to our economy?
    Secretary Acosta. Our economy needs workers. For the first 
time since we've been keeping this data, we have more open jobs 
than we have individuals looking for jobs. And one of the 
issues we have is a skills gap. And so providing the skills to 
individuals to fill those jobs will increase wages and increase 
our economy.
    Mr. Walker. Every Member of Congress, if they were to agree 
on one thing, it would be that all the industries and 
businesses that we visit are asking one thing. ``We need 
helpers. We need more workers here.'' The IRAP program would 
put industry leaders in charge who are best equipped to 
determine the skills and techniques necessary to meet the needs 
of varying industries.
    How would you respond to the claims made by my Democratic 
colleagues that the IRAP program would offer lower-quality 
training programs, and essentially impose additional burdens on 
these workers?
    Secretary Acosta. So Congressman, I think it's important to 
recognize, we are not eliminating or doing away with registered 
apprenticeships. We're creating an alternative for those 
industries that have found that registered apprenticeship 
programs don't work for them.
    And what we are doing is, we're not putting the industry in 
charge. We are, in essence, saying that the industry should 
create a third party, often an association, that creates, that 
almost becomes an accrediting body. I don't want to use 
``accrediting'' because that's higher education. But a body 
that creates standards, that enforces those standards, that 
basically says, ``This is what a quality apprenticeship program 
looks like in our industry'', and recognizes, you know, an 
apprenticeship program in nursing is very different than one in 
advanced manufacturing. And it's not about time, it's about 
skills.
    Mr. Walker. That's very well-articulated. I recently 
visited Machine Specialties. This is a locally owned 
manufacturing company in my district. They're in central North 
Carolina. They offer apprenticeship programs to provide workers 
with individualized training.
    Can you expand on the unique benefits of industry-based 
apprenticeship programs such as Machine Specialties and why it 
is necessary for us in Congress to consider both registered and 
industry-based programs when developing the legislative 
proposals?
    Secretary Acosta. Well, Congressman, there are any number 
of businesses out there that are saying, ``We're offering 
apprenticeship programs.'' And in fact they're not registered 
apprenticeship programs. They're just apprenticeship programs. 
So what we're trying to do is, for those businesses that say, 
``We have an apprenticeship,'' or for those businesses that are 
offering work force education, we're trying to bring about 
industry-wide standards, so that industries can say, ``this is 
our standard within the industry and we now have industry-
recognized apprenticeships.''.
    Businesses across the board are recognizing, for them to 
hire educated, skilled work, they need to be part of the 
equation, and we want to give them a way to be part of that 
equation in a way that creates skills that are transferrable 
from business to business, because that transferability will 
empower the individual.
    Mr. Walker. No question about it. Similar to the financial 
resources needed to attain a 4-year college, such as Pell 
Grants, students participating in apprenticeship programs need 
financial assistance. We agree.
    What would you say are some of the burdens faced by low-
income workers seeking to join an apprenticeship program? Let 
me add to that, if you could put the two together. How would 
expanding Pell Grants to include short-term training programs 
empower and strengthen future generations of the work force?
    Secretary Acosta. Congressman, I've talked previously about 
the importance of expending, extending programs like Pell to 
include all skills acquisition, both those that meet the formal 
requirements of Pell--but there are any number of students who 
are taking the same classes, the same courses, maybe even at 
the same institution, but because it's a certificate that 
doesn't meet the hours requirement, they don't have access to 
that student support. And I think that un-levels the playing 
field. We need to tell all Americans, all pathways to success 
are good and should be empowered and you choose.
    Mr. Walker. Secretary, I appreciate the Department of 
Labor's work on the new proposed rule clarifying joint 
employment. Can you explain where the four-part joint employer 
test was derived from, and how it will provide uniformity when 
debated in our court system?
    Secretary Acosta. Certainly. So the courts of appeals 
differed sharply on exactly what the joint employer test should 
look like. And so in essence what our rule did was it said 
let's look at the plurality, that which is shared by the most 
courts of appeals, and let's make that into a formal rule, so 
that businesses know what the rules of the road are, so 
businesses can plan accordingly.
    Mr. Walker. Thank you. Mr. Chairman, I yield back.
    Chairman Scott. Thank you.
    The gentlelady from Washington, Dr. Schrier.
    Ms. Schrier. Thank you, Mr. Chairman. Thank you, Secretary 
Acosta, for being here today. I'm speaking today as a 
pediatrician, healthcare professional, about protecting our 
frontline healthcare workers from what seem to be more and more 
threats to our health and safety.
    And I know that a health and safety standard that would 
protect frontline healthcare workers is sort of on hold. It's 
been on hold for about 5 years. And I've got to tell you that 
from my standpoint, we don't really know who the frontline 
person is going to be. We think about our emergency room staff. 
We think about nurses and doctors there.
    But it could be the person at the front desk, when somebody 
walks in the front door and coughs in their face. And as we are 
seeing, we've seen SARS. We have C-diff. We have MRSA, Ebola, 
that is still present in Africa and that could come to our 
front doors.
    I wanted to ask you about what's being done to protect 
healthcare workers, and even this year's flu is particularly 
lengthy. And we can reflect on the Spanish Flu in 1918 that 
killed 3 to 5 percent of the global population. And so there's 
a certain degree of, of a need to protect doctors, because if 
doctors die then we can't protect everybody else. But there's 
also protecting doctors because if, if we feel that our own 
lives are in jeopardy, we may not show up to work. And you 
know, it is our duty to protect our patients and do no harm. 
But I can tell you that our families do worry sometimes when we 
go to work.
    And so I wanted to ask you about a timeline for getting 
those standards to protect frontline healthcare workers.
    Secretary Acosta. So, Congresswoman, thank you. Thank you 
for acknowledging that this has been in the works for a while. 
As I mentioned earlier, we're in the process of putting 
together a SBREFA panel. And so we are moving forward with 
this. It is one of the SBREFA panels that we're putting 
together. A SBREFA panel, it's a panel that OSHA puts together 
to receive input from various stakeholders as it develops a 
rule. And I'm happy to provide you a timeline, but this is not 
``we're kicking the can down the road.'' This is, ``we are 
moving forward.'' And if I could just--
    Ms. Schrier. Excuse me. Was that one about violence 
prevention or is that about infection prevention?
    Secretary Acosta. I'm sorry. So that is about violence. And 
so my apologies. Often when we talk about healthcare workers, 
one of the issues is the violence. And so I inadvertently 
thought you were merging the two. And so my apologies.
    With respect to infection, I will have to--and I am happy 
to work with your office and in followup if there are specific 
questions or let you know where we are on that. I am less 
familiar with that.
    Let me, if I could, though, raise a related area, which is 
I shared the numbers of workplace fatalities associated with 
the use of drugs, typically drug overdoses, that has gone from 
82 to 272 in the span of just under 5 years. And so if there 
are specifics around that, I would also appreciate any input in 
that area.
    Ms. Schrier. Sure. I would be happy to work with you and 
happy to work on a timeline. You just never know what diseases 
are around the corner.
    I had another question for you about the 2017 tax plan. We 
typically refer to it as something slightly different than 
that, which I believe you are a pretty strong proponent of. 
When it was signed into law, you issued a statement that said 
that this tax reform was, quote, ``great news for any American 
who has a job, is looking for a job, or creates jobs.'' And you 
even said that everyone is winning with these tax cuts.
    And I recall days after the tax cuts this big windfall for 
corporations, that 86 percent of the benefit went to the top 1 
percent into corporations, that $1,000 bonuses were being 
handed out. It seemed like a windfall. We all kind of were 
holding our breath to see if this would actually translate into 
something meaningful for workers, like increased wages, more 
jobs. And, in fact, the numbers came out a little differently.
    So GM has shed roughly 3,000 hourly and salaried jobs in 
Ohio since the tax cuts became law. And, in addition, AT&T has 
eliminated over 11,000 jobs since the tax cuts became law. And 
so they got this moment of great PR with a $1,000 bonus, but 
then the real effect on American workers is that they are 
losing their jobs. And so as the person who is there to protect 
American jobs, I wonder if you could comment about what you are 
going to do to keep these jobs at home.
    Secretary Acosta. Congressman--Congresswoman. I apologize. 
It is, you know, a few hours.
    So, first, let me just say OSHA does have rules regarding 
blood-borne pathogens and is looking at our hazard rule 
regarding influenza. And so we are happy to followup.
    With respect to the second question, we have an amazing 
economy right now. And that doesn't just happen. And so I 
understand that it is always possible to pull out one anecdote 
and one story, but I do think we need to acknowledge that we 
have an amazing economy, whether that is tax cuts, whether that 
is deregulation, whether that is folks feeling confident about 
America. Something is working, and it is working well because 
unemployment is lower than it has been in a long, long time; 
wages are going up more than they have gone in a long, long 
time.
    Ms. Schrier. The data there, again, you can look at how in 
a lot of ways. I can tell you in the State of Washington, 
Amazon is doing great, Microsoft is doing great, Starbucks is 
doing great. But if you get out, outside of Seattle, we have 
pockets where unemployment is 50 percent. And so it is really 
important to think about the whole picture. The number, the 
overall number, tells only part of the story in that if people 
are underemployed or their wages are not increasing, we need to 
stand up for workers.
    Secretary Acosta. Congresswoman, thank you.
    Chairman Scott. Thank you.
    I understand the gentleman from Virginia is going next. 
And, by the way, I appreciate your conveying my condolences for 
not being able to make our meeting yesterday. Thank you.
    Mr. Cline. Mr. Chairman, thank you. I covered as best I 
could, but I am no replacement for you.
    Chairman Scott. Well, I appreciate it. Thank you.
    Mr. Cline. Secretary Acosta, thank you for being here and 
for the work you have done thus far in your time as Secretary.
    The Department of Labor currently administers and enforces 
more than 180 Federal laws affecting approximately 10 million 
employers and 143 million workers. But under your leadership, 
you have been rolling back an unprecedented amount of 
burdensome regulations and saving taxpayers over $400,000,000, 
more than any other Federal agency. So thank you.
    In addition to increasing opportunities for employers to 
make the working world more hospitable to all, unemployment has 
struck its lowest point in 49 years. Your work impacts working 
Americans that are the backbone of this country.
    As a Virginian, I am proud that my State is a right-to-work 
State, which is one of the many factors as to why Virginia 
frequently ranks among the top States in which to do business. 
Unfortunately, this is being threatened, not only by uninformed 
State legislators who advocate socialist ideologies and are 
beholden to unions and the contributions that they provide but 
also several Presidential candidates, including some from right 
down the hall in the U.S. Senate, who seek to drag the 
economies, drag vibrant economies, like the economy of my 
commonwealth, down to the level of underperforming States, like 
Vermont, Massachusetts, New York, New Jersey, and California.
    I believe that every American deserves the right to create 
their own success from their own volition, free of the 
requirement that they join a labor organization simply to get 
or to keep a job. And Virginia is strongly defensive of its 
right-to-work law and does not wish to repeal it.
    Can you please outline the administration's position on 
maintaining State right-to-work laws and address how repealing 
or banning these laws at the Federal level would impact a State 
or a country's economic performance and competitiveness?
    Secretary Acosta. Congressman, thank you for the question. 
As you are aware, there have been a number of states recently 
that have considered these statutes, these laws. And, 
ultimately, this is a State-by-State issue. And some states, 
like the commonwealth, choose to go in one direction. Other 
states--and I think you mentioned some of them--choose to go in 
another. And so this really is a State issue.
    And I think one of the strengths of our nation is to allow 
states to decide many issues for themselves, whether it is how 
to proceed on work force education or whether it is how to 
proceed on right-to-work.
    Mr. Cline. And what are you doing to ensure that the 
freedom for workers is kept intact for all Americans, 
regardless of occupation?
    Secretary Acosta. Well, Congressman, so if your question 
is, what are we doing to enforce State law, that is not one of 
the Federal laws that we enforce. Certainly if your question is 
regarding OLMS, OLMS is very active. I believe it brought over 
200 investigations last year. And it had an incredibly high 
number of convictions regarding fraud or other types of 
inappropriate action and criminal action that took place 
regarding unions. The specific figures I believe are 223 
investigations, and I forget how many convictions.
    Mr. Cline. Do you share the views of the President that 
many unions rip off their membership with ridiculously high 
dues? And are you working through the Department to try and 
address these excessively high union dues that in closed union 
shop states are burdening workers and their families?
    Secretary Acosta. So, Congressman, if the question is what 
are we doing on Janus--and it sounds like that might be where 
the question is going--you know, obviously, the Department and 
the administration took the position that it did in Janus. The 
Supreme Court issued the case. And then I believe that the 
decision was a correct and appropriate decision. It is, in 
essence, what we had argued. And certainly that is now the law 
of the land and the law that unions will have to follow.
    Mr. Cline. And are you working to enforce that law?
    Secretary Acosta. To the extent it comes within our 
authority, yes, we are.
    Mr. Cline. Thank you.
    Mr. Chairman, I yield back.
    Chairman Scott. Thank you.
    The gentlelady from Illinois, Ms. Underwood.
    Ms. Underwood. Thank you, Mr. Chairman.
    Secretary Acosta, for women, reproductive healthcare is 
healthcare. But your department has issued rules that deny the 
science of women's healthcare and allow employers to deny 
workers health insurance that covers contraceptives. Despite 
the fact that the courts have repeatedly blocked these rules, 
you and this administration are continuing your efforts to deny 
women contraceptive coverage.
    I am curious. Do you know how much on average contraception 
costs for women if it is not covered by their insurance?
    Secretary Acosta. Congresswoman, I certainly am aware it is 
expensive and the price likely will vary.
    Ms. Underwood. Okay. So if you want to just make a best 
guess, what would that be?
    Secretary Acosta. Congresswoman, I don't think it is 
appropriate to speculate. It is expensive. And I can tell you 
that whether it is contraception or drugs, often it is beyond 
the ability of many individuals to pay.
    Ms. Underwood. That is right. It is very expensive. Without 
insurance coverage, birth control pills can cost $600 a year. 
Plus, the appointment to get a prescription can cost another 
$250.
    Do you know that women use contraceptives not just to 
prevent pregnancy but also to treat medical conditions?
    Secretary Acosta. Congresswoman, I am not a physician. I 
imagine if it is being used for medical conditions, that would 
be pursuant to a physician-supervised--
    Ms. Underwood. So I will take that as a yes. Do you know 
what those medical conditions are?
    Secretary Acosta. Congresswoman, I am not a physician. So I 
really couldn't opine as to what those medical conditions would 
be.
    Ms. Underwood. Okay. So let me tell you. Women use birth 
control to treat polycystic ovary syndrome, endometriosis, and 
anemia. These conditions are painful. They are linked to 
ovarian cysts, heavy bleeding, and infertility. And that is not 
all.
    I am a nurse. And I am the cofounder of the Black Maternal 
Health Caucus. And I can tell you that for far too many women 
in this country, pregnancy can be dangerous or even deadly. One 
of the judges who blocked your rules wrote that they would 
cause over 70,000 women to lose contraceptive coverage, 70,000 
women. Women's lives and women's health depend on their ability 
to access contraceptives. Your actions, your actions, sir, are 
denying science and putting American women at risk.
    Moving on, last year, your department approved a rule 
extending the limit for short-term, limited-duration health 
insurance plans from 3 months to 3 years. These plans are 
commonly called junk insurance because, although they are very 
profitable for insurance companies, the coverage that they 
provide to patients is trash.
    Now, Secretary Acosta, I only have a few minutes. So I need 
you to stick with a ``Yes'' or ``No'' only, please. Yes or no, 
are you aware that junk insurance plans are not required to 
cover people with preexisting conditions?
    Secretary Acosta. Congresswoman, I would hesitate to use 
the word ``junk'' insurance.
    Ms. Underwood. Sir, I am not asking you to characterize. I 
am asking you if you know whether they are required to cover 
people with preexisting conditions. Yes or no?
    Secretary Acosta. Congresswoman, to some extent, your 
question characterized, and so I have to push back. If the 
question is whether short-term, limited-duration plans have all 
of the protections of other plans, such as those available 
through association health plans, then the answer is yes. They 
do not--
    Ms. Underwood. That is not the reference.
    Secretary Acosta. Then the answer is they--
    Ms. Underwood. Reclaiming my time, sir.
    Secretary Acosta. Yes, they do not have all of the 
protections.
    Ms. Underwood. Okay. Yes or no, are you aware that they are 
not required to cover prescription drug costs?
    Secretary Acosta. Congresswoman, I do not. I certainly can 
provide the list of the areas of coverage for association 
health plans, whether they be in--
    Ms. Underwood. I am not asking about--sir, I am not asking 
about association health plans. The question is about short-
term, limited-duration insurance plans. Yes or no, are they 
required to cover prescription drug costs?
    Secretary Acosta. I would have to consult to see which are 
the requirements that they have to cover.
    Ms. Underwood. Okay. Are you aware that they are not 
required to offer maternity coverage, yes or no?
    Secretary Acosta. Congresswoman, as a general rule, the 
coverage of short-term, limited-duration plans is less than 
that of other plans.
    Ms. Underwood. Okay. Yes or no, are you aware that junk 
plans can allow insurance companies to retroactively cancel 
coverage after a patient files a claim?
    Secretary Acosta. Again, Congresswoman, I am aware that the 
protection offered is less than that of other plans.
    Ms. Underwood. Okay.
    Secretary Acosta. I could not go to this--
    Ms. Underwood. So, just for the American people to 
understand what we were outlining, these short-term, limited-
duration insurance plans are not required to cover preexisting 
conditions. They are not required to cover prescription drugs. 
They are not required to cover maternity coverage. And no, they 
are not required to cover inpatient hospitalizations.
    Now, sir, you have been an attorney interacting with the 
Federal Government for several decades now. So it is fair to 
say that you are familiar with the Administrative Procedures 
Act. Right?
    Secretary Acosta. I am familiar with the Administrative--
    Ms. Underwood. Okay. Yes or no, are you aware that this Act 
requires you to consider comments from the public when making 
rules?
    Secretary Acosta. I am sorry?
    Ms. Underwood. Are you aware that this Act requires you to 
consider comments from the public when making rules, issuing 
regulations?
    Secretary Acosta. Yes, I am.
    Ms. Underwood. Okay. Yes or no, are you aware that 98 
percent of the comments from healthcare groups oppose the rule 
that you approved?
    Secretary Acosta. Congresswoman, the rules were primarily 
reviewed by HHS. So I cannot speak to the--
    Ms. Underwood. It's a tri-department rule, sir. Yes or no?
    Secretary Acosta. Congresswoman, again, I could not speak 
to the percentage. I will say--and I think it is important--
that we have, through associational health plans and others, 
tried to provide--
    Ms. Underwood. I am not asking about association health 
plans.
    Secretary Acosta.--tried to provide low-cost--
    Ms. Underwood. Sir, reclaiming my time, I am not asking 
about association health plans. This line of questioning is 
about short-term, limited-duration insurance plans. Yes or no?
    Secretary Acosta. I cannot confirm your percentage.
    Ms. Underwood. Okay. Thank you.
    This administration has been relentless in its attempts to 
undermine access to healthcare. In nursing school, we are 
taught how important it is to listen to our patients. And, 
instead of listening, this administration is ignoring patients 
and nurses and doctors. The administration is not protecting 
moms or kids or people with preexisting conditions. It is 
attacking them. And let me tell you, sir, not on my watch.
    Mr. Chairman, I yield back. Thank you.
    Chairman Scott. Thank you.
    The gentleman from Texas. The gentleman from Pennsylvania, 
Mr. Meuser.
    Mr. Meuser. Thank you, Chairman Scott and Dr. Foxx, for 
holding this hearing. And thank you very much, Secretary 
Acosta.
    The Trump administration has done some fantastic work over 
the last 2 years. Unemployment hit the lowest point in 50 
years. The economy has added 4.6 million jobs over the last 2 
years, which also means that millions more are receiving health 
care than were before. And I have recently learned that the 
veterans unemployment of our veterans is only 2.9 percent, also 
the lowest in decades.
    I represent Pennsylvania's 9th Congressional District, a 
very hard-working, somewhat rural district with great potential 
for revitalization and economic growth. I know my district has 
already benefited from the wage growth and job creation that we 
have seen as a result of the Republicans' Tax Cuts and Jobs 
Act. And topics that I want to talk about today--some have been 
covered, but some have not--that will benefit my district 
include the Opportunity Zones that are part of the Tax Act; the 
access to association health plans, primarily the idea of just 
lowering deductibles and premiums, which obviously will add to 
people's disposable income; and work force development.
    So, starting with Opportunity Zones, which is a huge 
priority for me and my district, I am working with HUD, the 
administration, the Treasury, and private sector on making sure 
the communities in my district can benefit from this program. 
Rules continue to be written by Treasury, should be out in 
June. Is this something that we can work on together? Is this 
something on your priority list?
    Secretary Acosta. Absolutely, Congressman.
    Mr. Meuser. Okay. All right. Well, good. I will look 
forward to that, then.
    I am sure you are aware, despite your Department's and the 
Trump administration's desire to expand the association health 
plans, there are barriers that continue in various states to 
its participation. Consumer choice, access, competition, which 
could lower, again, premiums and deductibles, is very, very 
important on the AHPs or even if you would want to expand on 
what is being done to help lower premiums. Maybe you could 
discuss that.
    Secretary Acosta. So association health plans--and, you 
know, again, I think it is important to emphasize these are 
quality plans. It just lets small employers come together and 
play by the same rules as the big corporations. So these are 
quality plans, but one of the things is when you bring in--so I 
am thinking of one association health plan that, in particular, 
brought together more than 400 small businesses.
    And when you bring more than 400 small businesses together, 
you create bargaining power and you create scale. And so they 
saw, you know, they told me that they saw, a reduction of about 
30 percent in premiums moving from that individual small 
business, small group price to they now have a large, diverse 
risk pool. And they are now in the large group market.
    And so a 30 percent reduction is a game-changer. The 
Congressional Budget Office scored this in a way that they said 
that hundreds of thousands of people could receive coverage. So 
this is a very important approach and one that I think we 
should support. Certainly it would be wonderful if it could be 
legislatively confirmed.
    Mr. Meuser. Great. I agree. We have discussed here today 
work force development. Like I am sure in other districts, we 
have got some really terrific vo-tech schools, career 
development institutes. Your department has already done a lot. 
What more can we do?
    Secretary Acosta. So, Congressman, something that I do 
think is worth considering is this imbalance that we have 
between what I will call our formal and our informal 
educational system, between higher education and a system of 
education that so many individuals rely on that provide skills. 
And I think it even starts earlier. It starts in high schools. 
You know, if someone is being told--individuals sometimes are 
told, there is only one pathway to success and if they don't 
follow that pathway, they have failed. Why not say there are 
multiple pathways and everyone can succeed? And if that means 
college and higher education, that is wonderful, but if that 
means another pathway, well, that can lead to a great job. And 
maybe later on, folks can choose to go from pathway B to 
pathway A or A to B. Let's not even say which is above the 
other, but let's empower every individual to make choices for 
themselves and to follow the path that they believe will lead 
to a great job that is safe and that supports their family.
    Mr. Meuser. Excellent. Thank you, Mr. Secretary.
    Chairman, I yield back.
    Chairman Scott. Thank you.
    The gentleman from Michigan, Mr. Levin.
    Mr. Levin. Thank you, Mr. Chairman. Welcome, Mr. Secretary.
    Do you know what holiday 66 countries are formally 
observing today and scores more are observing informally?
    Secretary Acosta. I do.
    Mr. Levin. What is it called?
    Secretary Acosta. I believe it is the first of May or a 
worker holiday or--
    Mr. Levin. Yes. It is called International Workers' Day--
    Secretary Acosta. Yes.
    Mr. Levin.--or May Day. And I think the irony of you--I 
don't know how the timing of this worked out, but the irony of 
you testifying before us today is--
    Secretary Acosta. The Chairman and I worked it out.
    Mr. Levin.--rich indeed given what you have said about the 
importance of worker voice and power and your actions on worker 
voice and power in society, which is what International 
Workers' Day actually represents.
    I want to talk to you about health and safety. Sunday was 
Worker Memorial Day. And from 2009 to 2016, every year, OSHA or 
the Labor Department had an observation of Worker Memorial Day. 
And, as you pointed out earlier, it is not just money that 
shows your priorities. It is your actions and what you do. And 
so I think it is really unfortunate that you and your 
department have chosen not to have any events to observe this 
really solemn and important occasion where we observe, remember 
workers who have died on the job and commit/recommit ourselves 
not to let that happen.
    Most of OSHA's regulatory focus under this administration 
seems to have focused on rolling back protections for workers 
in general, instead of increasing protection for workers, which 
is at odds with your mission. I was particularly upset about 
OSHA's rollback of its regulation that required employers to 
submit anonymous aggregated injury and illness information to 
the agency. And that would then be made public.
    These data would have been extremely helpful for 
researchers looking at the causes of workplace injuries and 
illnesses as well as measures to prevent them. But OSHA 
rescinded it earlier this year. I actually have a CRA on this 
issue, House Joint Resolution 44, disapproving the final rule 
of the OSHA act titled Tracking of Workplace Injuries and 
Illnesses. So my question is, how do you justify this rollback 
of worker protections?
    Secretary Acosta. Congressman, thank you for the question.
    And, first, let me just say, going to the first part of 
your comments, you know, I took a look at the fatality and the 
injury and illness data for the past year and more fatalities 
than anyone would want, but let me just note that the workplace 
is safer, that there were 43 fewer workplace fatalities than--
    Mr. Levin. Yes, I understand, but I have very little time. 
I need you to answer this question.
    Secretary Acosta. I understand, but you are talking about 
the emphasis on safety. I do think it is important to note that 
the workplace is--
    Mr. Levin. Maybe next year, you will observe it with an 
event. In any event, go ahead.
    Secretary Acosta. So the tracking issue, you know, it is 
interesting. We are actually being sued by both the Chambers of 
Commerce and the labor unions or labor on this side because 
what we did is there are three different pieces of information 
that we obtained. And we said we want the aggregate data 
because it is important that we have the aggregate data so that 
we can target our enforcement efforts. So if a particular 
business has--
    Mr. Levin. Let me just--
    Secretary Acosta. But--
    Mr. Levin. I am sorry. I don't have time for you to tell a 
long story. Let me just be specific here. You rescinded this 
regulation. Did any worker group or union ask you to rescind 
the regulation or only employers?
    Secretary Acosta. Congressman--
    Mr. Levin. Are you aware?
    Secretary Acosta. We rescinded the regulation in part. I am 
not aware who may or may not have asked. I can--
    Mr. Levin. Okay. So no worker organization. I will just--
    Secretary Acosta. I can tell you both sides seem a little 
unhappy with our outcome because we are still collecting some 
of the data. We are just not collecting--
    Mr. Levin. It is not a matter of collecting data.
    Secretary Acosta.--the individual-specific data.
    Mr. Levin. It is a matter of what you gather. It is not 
what they have to keep. It is what you pull together.
    You must be aware that the regulation that you rescinded 
would not have required employers to send confidential 
information into OSHA. And, in fact, the data base and computer 
forms that your employees created for employers does not even 
allow employers to send confidential information into the 
agency. So there was no way they could do so. So, given all of 
this, how can you explain how worker confidentiality or, you 
know, those kinds of concerns were even involved when you 
wouldn't have even had confidential information at all?
    Secretary Acosta. Congressman, it was asking for very 
detailed information about worker-specific injury, if they were 
injured, what part of the body was injured, whether they lost a 
part of their body.
    Mr. Levin. Yes. Without that information, researchers 
couldn't do any effective work, could they, to figure out if it 
is--they wouldn't know about repetitive injuries to wrists or 
legs if you just made it so generic. Really, it is a question 
of basic science. And it seems to me that the record clearly 
shows that you are simply trying to give cover to employers 
with bad records.
    MSHA has obtained this information for decades. There have 
been zero problems with confidentiality with MSHA, zero, doing 
the same thing. So I am very sorry that you are reducing your 
protections of workers in this way.
    I yield back, Mr. Chairman.
    Chairman Scott. The gentlemen from Texas.
    Mr. Taylor. Thank you, Mr. Chairman. Mr. Secretary, I 
appreciate you being here.
    I was in the State legislature for 8 years. And I am 
unaccustomed to seeing people asking questions, giving you 2 
seconds to answer, cutting you off, and then telling you didn't 
answer the question. Is there anything you want to add to the 
record? I am happy to yield my time.
    Secretary Acosta. I think I addressed it. Thank you.
    Mr. Taylor. Okay. Well, again, I appreciate you enduring 
this. Again, I guess I am used to a more collegial setting.
    So in my time in the State legislature, I worked on a 
bipartisan basis to make it easier for public education, for 
high schools to have instructors to teach students life skills, 
work skills. So, for instance, we had a problem where welders 
who were master welders had 20 years of experience, extremely 
good at welding, could not teach a class in welding in high 
school. Because they did not have a 4-year college degree, they 
did not have a teaching certificate, they couldn't teach 
welding.
    So we actually worked, again, on a bipartisan basis. The 
bill was authored in the Texas House by a Democrat, and I 
carried it in the Texas Senate, you know, into law to allow 
welders/robot programmers to teach robot programming so that 
upon graduation from high school, they could begin to enter the 
work force immediately, welding or programming robots or what 
have you. Do you see opportunities similar to that within the 
Federal system as you look at job force training efforts?
    Secretary Acosta. Congressman, absolutely. And you also 
touch on an issue that is incredibly important, which is 
licensing. And at what point is a license--for example, a 
requirement that someone have a college degree to teach when 
they are teaching welding, which is their master craft--
    Mr. Taylor. Sure.
    Secretary Acosta.--something that they are expert in, at 
what point is licensing preventing individuals from obtaining 
good jobs?
    Mr. Taylor. And so certainly in the State of Texas, we 
worked on that, again, on a bipartisan basis. I mean, everybody 
agreed we want to have people entering the work force that are 
trained, ready and so they don't have to go to community 
college, you know, work two jobs to pay for that, et cetera. 
Are there opportunities that you see? If there are 
opportunities you see in the Federal work force, I would be 
interested in hearing about those to, again, try to make it 
easier for people to start working.
    And I certainly agree. Certainly, you struck a chord with 
me, the comment that you have made several times about the 
importance of having or recognizing all paths to success, that 
it is not just about a 4-year college degree, that we are in a 
country where only 27 percent of Americans have a four-year 
college degree. You know, there are many good paths to success 
that do not include a college degree.
    Secretary Acosta. One of the issues that I think the 
Federal Government is and should be looking at is their own 
requirements. So, for example, there are individuals that may 
have had something in their past going back 10, 15, 20 years. 
Does that mean they need to be precluded from a job? For 
example, I was at Electric Boat that builds some of our Navy's 
submarines. And it requires a security clearance. Are 
individuals necessarily precluded from those jobs because they 
might have had a conviction when they were 18 or 19? And so 
that is an area where I do think we should be looking and we 
can certainly make some progress.
    Mr. Taylor. Shifting over to health care, so as I go around 
the 3d District, you know, the No. 1 complaint I hear from my 
constituents is that the Affordable Care Act insurance is just 
not affordable with the premiums and deductibles being as high 
as they are. It is reassuring that over the last 2 years, the 
number of Americans that have ERISA-based insurance or 
employer-based insurance has actually gone up two and a half 
million. So we actually saw some very substantial increases in 
healthcare coverage through employer-based insurance. What 
steps are you taking to further enhance or improve those 
programs?
    Secretary Acosta. I am sorry, Congressman. I--
    Mr. Taylor. So as far as ERISA goes, that is very 
important. I mean, look, more Americans have ERISA insurance 
than everything--
    Secretary Acosta. Correct.
    Mr. Taylor.--else combined. That is the most--
    Secretary Acosta. Correct.
    Mr. Taylor.--important health care coverage program--
    Secretary Acosta. Absolutely.
    Mr. Taylor.--we have in this country.
    Secretary Acosta. Absolutely.
    Mr. Taylor. And certainly I am one to stand to defend it 
against people that might want to take that away from people.
    Secretary Acosta. Right.
    Mr. Taylor. And it protects people with pre-existing 
conditions. It provides--
    Secretary Acosta. Yes, it does.
    Mr. Taylor.--affordable insurance. And that is--and we have 
had substantial increases in ERISA insurance. What plans do you 
have to further enhance or improve ERISA?
    Secretary Acosta. So, Congressman, I think one of the--you 
know, we are now exploring whether ERISA can be used to create 
these associations. And I know we have talked about it. But it 
is our view that ERISA does allow associations of employers 
acting on behalf of an employer to act like an employer. And 
that is important because these ERISA plans are quality plans.
    Mr. Taylor. Absolutely.
    Secretary Acosta. And there are a number of small 
businesses that just can't afford them.
    Mr. Taylor. Yes.
    Secretary Acosta. And so by allowing them to band together, 
we are giving them access just like large corporations. You 
know, we talk about whether something is a quality plan or not 
a quality plan.
    And we forget that--that IBM doesn't have to give a lot 
of--a lot of the things that it does or any other large 
corporation, but it does so because it's large enough and has 
the skill that it can offer these plans. And so empowering 
smaller businesses to act like large corporations under ERISA, 
I think, is incredibly important and a game-changer for many 
employees receiving their healthcare through ERISA plans.
    Mr. Taylor. It certainly is.
    I am sorry, Mr. Chairman. Just a few seconds.
    As I go around my district, I talk about the expansion of 
ERISA access by allowing groups of people, whether it is the 
State Bar, the State Farm Bureau, the Texas Association of 
Business, allowing those organizations to create ERISA pools 
that then, in turn, allows people to use pretax dollars to buy 
their healthcare from the single biggest source of healthcare 
that we have in this country today. So I am very excited to 
hear that you are working on that. Thank you, Mr. Chairman.
    Secretary Acosta. Thank you.
    Mr. Taylor. Thank you, Mr. Chairman. Appreciate you 
indulging me.
    Chairman Scott. Thank you.
    The gentlelady from Minnesota, Ms. Omar.
    Ms. Omar. Thank you, Chairwoman--Chairman Scott and Ranking 
Member Dr. Foxx on this International Workers' Day. I was 
excited to hear you State in your testimony that the goal of 
the department is to level the playing field for working 
Americans through fair trade. In your testimony, I was also 
happy to hear that in your budget that you are prioritizing 
American workers by monitoring and enforcing labor provisions 
of free trade agreements and combating the reprehensible use of 
child labor and helping other countries improve their labor 
standards.
    But I also am a little confused and trying to find where 
the credibility is because in the proposed budget, you are 
proposing a 78 percent cut. I find that to be astonishing 
through the Bureau of International Labor Affairs. And so I am 
wondering how can you really think a 78 percent cut through the 
budget is going to help level the playing field.
    Secretary Acosta. So, Congresswoman, thank you for the 
question. As we approach the budget, earlier I talked about the 
importance of enforcement and that the enforcement agencies 
were not cut. And so the cuts took place typically in the grant 
programs or the nonenforcement side. And within that, we 
prioritize domestic over international. And so those reductions 
are in international programs. Now, I understand that we 
proposed those reductions last year. And I understand that 
Congress put the money right back in last year. And I 
understand that the House budget that I think was just marked 
up yesterday restores many of those programs. Let me also say 
as--
    Ms. Omar. But I think, you know, it is fair for me to say 
that when you are stating that to be a priority and proposing a 
78 percent cut, then it truly cannot be a priority, so that is 
the credibility I was speaking to. And we also know that the 
Government Accountability Office is saying that they are 
already facing challenges in enforcement with the limited 
resources that they already have.
    And so I am asking how do you reconcile that these cuts 
that you all are proposing and what that department is saying 
and in doing enforcement? How could we trust that you would be 
able to monitor the new trade agreement with USMCA?
    Secretary Acosta. So, first, let me say I do--I will say we 
are prioritizing domestic over international. But let me also 
say Congress last year restored that money, and we used that 
money and we used it well. And in ILAB, which is the--the 
International Labor Division that you are referencing, does 
some great work.
    I am going to be--I was--when I was in Argentina, I visited 
some of the ILAB grantees that are doing great work. I am going 
to be in Colombia talking. I am meeting some of the ILAB 
grantees, and I am also going to be talking with the Colombian 
government because they have made progress on labor rights in 
Colombia and so--
    Ms. Omar. I suppose, Secretary, with all due respect--
    Secretary Acosta. Yes.
    Ms. Omar.--the question is how could we trust if they are 
saying that there is already limitations with the resources 
that they have that the new agreement that we are getting into 
with the USMCA that we will have the resources to be able to 
reinforce and roll that out.
    Secretary Acosta. So USMCA--so going specifically to USMCA, 
you know, it has, for the first time, labor protections. And 
those labor protections need to be enforced. Previously, the 
labor protections were not in the USMCA. This time, they are. 
And in implementing legislation, something that has been 
discussed is USMCA will have to be adopted through implementing 
legislation, in that implementing legislation, having specific 
funding to ensure that enforcement is sufficient and available 
for that specific provision.
    The labor provisions there are stronger. I was with the 
head of the ILO in a joint presentation recently. And he said 
that those labor provisions were stronger than he has seen in 
any U.S.-based agreement and so--
    Ms. Omar. With the little time that I have, I know that we 
have strong provisions, but the problem and the disappointment 
that we see is that you would have to enforce them. And if you 
are continuing to propose cuts to that enforcement, we are not 
going to be able to do the work with just saying that is 
important and having the mechanisms in place. We have to make 
sure that we make the resources available for there to be 
accountability and enforcement.
    Secretary Acosta. I understand.
    Ms. Omar. We have to follow action with our words, and that 
is where the credibility challenge is, and that is why we find 
this proposal to be very disappointing. I yield back my time. 
Thank you for your time.
    Chairman Scott. Thank you.
    The gentleman from Wisconsin, Mr. Grothman?
    Mr. Grothman. Thank you. First of all, Mr. Secretary, 
thanks for being here. I really appreciate you doing what far 
too many people in this building do. And that is trying to get 
a handle on our Federal deficit and realizing that we are 
spending too much money here.
    And I know it's always a difficult thing to say no. But I 
really appreciate what you are doing, what the whole 
administration is doing and try to get a handle on things. And 
I just wish they would get a little support out of Congress. So 
I just want to lead off by saying that.
    The second thing I am going to say, because I want to talk 
a little bit about 14(c) certificates, which, you know, deal 
with subminimum wage. And I think you are familiar with that 
issue; right?
    Secretary Acosta. Yes.
    Mr. Grothman. I guess one of my concerns is there are 
people out there who are trying to reduce them or get rid of 
them. And I tour places where they use the 14(c) certificates 
all over my district. I see so many happy, productive people 
that we could all learn from. And the idea that someday they 
could lose their jobs just scares me.
    You know, taking away a choice from people who are the most 
vulnerable in our society--but I know in the past, there might 
have been some people in your agencies who--in your agency who 
didn't understand the importance of a 14(c). Have you done any 
looking around or seeing what happens to individuals with 
disabilities when the 14(c) certificates are eliminated?
    Secretary Acosta. So, Congressman, we have brought several 
enforcement actions where, unfortunately, like all programs, 
you know, 14(c) has some bad actors. And we brought some 
enforcement actions. And when we brought those enforcement 
actions, we were very careful to work with the State to provide 
those individuals alternative employment opportunities because 
everyone wants, you know, the ability to work and to earn a 
living and to support themselves. And so, in that context, yes.
    Mr. Grothman. Yes, that we were always able to find--were 
we able to find jobs for people in not a formal setting or in 
an independent work force, or did they have to take subminimum 
wage or what did we find?
    Secretary Acosta. So I am sorry. Your question was am I 
familiar with those jobs. And so in the context of--I do not 
know if the individuals in those 14(c) companies where the 
enforcement actions were brought found other employment in or 
outside of 14(c). I can certainly tell the Congressman that 
14(c), although it is still used and it is the law, and any 
change will have to come from Congress, the number of 14(c) 
certificates is reducing, in part, because the economy is 
improving, in part, because technology is making it easier to 
accommodate individuals. And so we are seeing the number of 
14(c) certificates going down, although any change in the 14(c) 
program would have to come from Congress.
    Mr. Grothman. My fear is, just so you are aware insofar as 
you have any flexibility, I have run into people who have lost 
their jobs. And they are not going to find other jobs. You 
know, some of these people, they automatically--they just have 
this preconceived notion that if you are using a 14(c), you are 
being taken advantage of. And that's not--just not true.
    I would like to ask do you understand the importance of the 
14(c), and have you had any chances to tour any of the--I guess 
they are now--the politically correct term is ``work centers.'' 
Have you had a chance to tour any work centers to see these 
41(c) certificates in action?
    Secretary Acosta. I have not toured any of the 
individuals--any of the sites that hold these 14(c) 
certificates.
    Mr. Grothman. Would you ever like to tour one sometime?
    Secretary Acosta. Yes, no, I am certainly willing to. I 
welcome the opportunity to travel and to tour and will followup 
with your office.
    Mr. Grothman. Okay. Very good. And I'll yield the rest of 
my time to Ranking Member Foxx.
    Secretary Acosta. Thank you.
    Ms. Foxx. Thank you.
    Secretary Acosta, the Office of Labor Management Standards 
plays a critical role in empowering workers by requiring union 
reporting, which allows workers to see how their union dues are 
spent. Unfortunately, we continue to see rampant union 
corruption, such as the ongoing UAW scandal in Michigan where 
union dealers spent workers' dues that were intended for a work 
force development fund on excesses like a Ferrari, a $1,100 
pair of shoes, two $37,000 gold pens.
    Tens of thousands of dollars in dues were also spent on 
what the Detroit News called ``trinkets and trash'' as part of 
a potential kickback scheme between union leaders and business 
executives currying favor with one another. The OLMS Form T-1 
regulation on union trusts is currently under review at the 
Office of Management and Budget, intended to prevent future 
scandals like the one at the UAW.
    Secretary Acosta. Congresswoman, transparency obviously 
prevents these scandals. I should also say, as I mentioned, 
that the OLMS, which looks into union corruption--like every 
industry, there are bad actors, and I believe there were more 
than 200 criminal investigations last year.
    Ms. Foxx. Thank you.
    Thank you, Mr. Chairman.
    Chairman Scott. Thank you.
    The gentleman from Maryland, Mr. Trone?
    Mr. Trone. Thank you very much, Mr. Chairman.
    First, I want to thank you, Secretary, for your comments 
regarding opioids deaths in the workplace, 84 to 272. This is 
certainly bipartisan, and we just love to have your help. The 
current prescribing guidelines for opioids under the Federal 
Employees' Compensation Act allows for patients to receive two 
concurrent opioid prescriptions for up to 60 days each without 
any prior agency approval. So that's two prescriptions, up to 
60 each, which means only after 120 days, 120 days, is a letter 
of medical necessity required.
    CDC--I met with the CDC director last week in Atlanta. 
Definitive study shows 40 days of opioid use, a bit more than 
your agency would allow, a bit less, results on an average of 
40 percent of those patients a year later still taking opioids 
or, in other words, addicted, likely addicted. This problem was 
made clear in your budget. Your budget request cites 27,000 
participants in FECA receiving opioids in 2017.
    The Inspector General analysis found that more than half of 
the FECA's monthly pharmacy claims include opioid 
prescriptions. The same analysis found the DOL policies lag 
years behind those adopted at State-level worker's compensation 
agencies, which have followed the CDC guidelines allowing 7 
days or fewer without a letter of medical necessity. Now, that 
said, none of us wants to block access to needed pay relief.
    And we know curbing opioid use should not be done lightly 
for those that have a debilitating illness. But allowing 
patients to have two different prescriptions or 2 months 
without prior authorization, 120 days, I think, is dangerous 
and can be deadly and contrary to the medical establishment's 
recommendations. So are you aware of the FECA regulation?
    Secretary Acosta. Congressman, thank you. Thank you for the 
question. And the short answer is yes, and we have done 
something about it. And so, if I could, because, you know, I 
had similar observations to yours. And so we put in place a new 
system that involves--and I am going to give you the results in 
a second--effective controls, tailored treatment. We are above 
a certain prescription level, we have a specialized team that 
will actually notice the prescription levels and contact the 
providers.
    Meaningful communications--we are in the process of 
changing the company that monitors prescriptions so we can tell 
multiple prescriptions. I had them do--I had them look at 
results. And, so far, we have had a 31 percent decline in 
overall opioid use. I am happy to share this with your office. 
We recently put this out in a website, a 52 percent decline in 
new opioid prescriptions lasting more than 30 days. We started 
off by focusing on the higher dosage, the morphine-equivalent 
dosage of 500 or more, which is quite high. We had a 62 percent 
decline in--
    Mr. Trone. I would like to reclaim my time. I think that's 
fantastic and I really appreciate that, but at the end of the 
day, 84 deaths, straight-up hockey stick to 272. So I am just 
asking--keep up the good work. Do more. Think about that 120 
days. Take it down to seven. Follow the CDC. That is all I have 
got on that question.
    My next question for you is could you--you clearly said 
earlier it is so important for people to earn more. It is great 
for the workers. It is great for employee--employers. It is 
great for the economy. We agree. That being said, I am a 
cosponsor of wage--Raise the Wage Act. I think it is a really 
good bill. But that being said, what do you think the federal 
minimum wage should be after 10 years at $7.25 not indexed to 
inflation? Just give me a number, not a long diatribe.
    Secretary Acosta. So, Congressman, you know, the issue 
around federal minimum wage is as follows. And I know you want 
a number, but it's not quite that simple. If it were, it would 
already be adopted. You know, there are 29--basically, three-
fifths of the States have adopted a minimum wage that is higher 
than the federal minimum wage.
    Mr. Trone. A hundred and thirty-eight different instances 
have happened since 1979 where States and municipalities have 
raised their minimum wage and there has been zero job loss. 
That's in the service industries where everybody is apples-to-
apples. I mean, I own a company that's 7,000 employees. We do 
3-to $4 billion in sales. I understand business and--but we 
have higher wages. Everybody else has higher wages. There is no 
discernible job loss. But those folks at the bottom of the 
ladder, they win. Can we get a number to be able to raise it to 
somewhere?
    Secretary Acosta. Congressman, I believe there was a study 
by Washington State when Seattle raised its minimum wage that--
that actually did show job loss. So I am not sure you can 
really say zero job loss. And I think there are a number of 
studies that go in the other direction. We can argue over which 
study is right. But to say zero job loss is, I think, an 
oversimplification, in all candor.
    Mr. Trone. Let's see if we can get a raise, and your 
leadership would really be helpful. Thank you.
    Secretary Acosta. Thank you.
    Mr. Watkins. Thank you. I want to start off today by 
thanking the Secretary for being here and for your selfless, 
patriotic contribution to our country. My constituents clearly 
see that the economy is doing well, the best that it has been 
for years, largely because of the pro-growth policies, to 
include lower taxes and deregulation.
    Investment productivity and workers' wages are all on the 
rise across America. And it is true that the American worker is 
far better off today than a decade ago. In fact, the Bureau of 
Labor Statistics say that in my home State of Kansas, 
unemployment is at a decade low of 3.4 percent. As a result, 
employers across the Nation are now struggling to fill over 7 
million job openings. In recent weeks, your Labor Department 
released statistics showcasing how this hiring competition has 
raised the average hourly pay 3.4 percent from last year, the 
largest gain in a decade.
    And just last week, we all learned the first quarter GDP 
growth for 2019 is an incredible 3.4 percent increase, beating 
all expectations and projections. Combine that quarterly growth 
statistic with the prevailing logic that the first quarter GDP 
is typically the weakest of the year, and Americans certainly 
have good reason to be optimistic in the months to come. All 
this economic news is welcome for small businesses and 
resurgent main streets of so many small and rural communities 
that I represent in Kansas.
    Kansas has over 600,000 employees, people who are employed 
by small businesses, and that's 99.1 percent of all Kansas 
businesses are small. Sadly, we have seen the economic 
proposals offered by the other side of the aisle, and these 
clearly miss the mark. Liberal policy proposals like free 
college, government-mandated healthcare, 70 percent marginal 
tax rates, and, recently, a dramatic and instant 107 percent 
federal minimum wage increases are not the right policies for 
Kansas, and they are not the right policies for our country.
    We must confront the real economic harm these proposals 
would have on working families, students, veterans, and 
chronically underemployed individuals finally seeking to 
reenter the job market. It is clear that the American economy 
is back in business, and our local economies are well on their 
way to thriving as well. Now, sir, my question is what--I agree 
that our--I agree--so, Mr. Secretary, I agree that our 
Department of Labor, our economy, is strengthening and with 
each passing day--and a remarkable number of jobs have been 
created during the Trump administration .
    I hear every day from Kansans about the need to fill jobs 
and concern about skilled--skills gaps keeping many positions 
unfilled. What do you see as the most important part of the 
challenge to prepare America's work force for 21st century 
jobs?
    Secretary Acosta. Congressman, thank you for the question. 
And let me just say briefly, you know, the most important part 
is to really empower individuals for skills that are in demand. 
We call it demand-driven education, education that acknowledges 
the modern workplace requires certain skills, and let's empower 
them to get those, whether it be welding, whether it be 
nursing, whether it be medicine. Let's just make sure that--
that our education system and our businesses are communicating 
so that we are providing education for what is currently being 
required. That is critical.
    Mr. Watkins. Thank you, Mr. Secretary.
    And I yield back. Sorry. I yield back the remainder of my 
time.
    Chairman Scott. Thank you. We have five members left in 10 
minutes. If people could be very--as quick as possible with 
their questions, we may be able to get through without a 
recess. The gentleman from New York, Mr. Morelle?
    Mr. Morelle. Thank you, Mr. Chairman, for making this 
hearing possible.
    And thank you, Mr. Secretary, for taking the time to be 
here. I just want to make, first, just an observation. Some of 
my colleagues have raised the absence of a budget or responsive 
concerns about the draconian cuts made to work force 
development, including a 40 percent cut to the Jobs Corps in 
the President's budget. I serve on the House Budget Committee 
and would note just two things for--just for people's 
information.
    First, we have adopted on the floor a resolution setting 
top lines for discretionary appropriations. And, following 
that, the Labor HHS Appropriations Subcommittee, I believe, 
yesterday reported a bill that reverses the cuts, adds an 
additional $100 million to the President's request for 
apprenticeships and bolsters key work force protection agencies 
such as the Wage and Hour Division and OSHA to restore 
enforcement personnel that have been depleted during the 
previous 8 years. So we have not stood still. Others have said 
that a budget is a setting of priorities. And I agree. We have 
put our money where our values lie with the American worker. I 
also just want to--a couple really quick questions.
    Mr. Secretary, I grew up in a union household, and I know 
how important that is for advancing the interests of families 
and communities. And I wanted to just touch on and go back to 
the comments you made regarding the associated--or the--
    Secretary Acosta. Association health plans.
    Mr. Morelle.--association health plans. And I was 
disappointed. Obviously, the decision to implement the rule, 
that weakened, in my view, the protections for workers and 
undermines the Affordable Care Act. Last month, after a lawsuit 
led by the attorney general, Federal court found the 
department's final rule to expand association health plans was 
unlawful, determining that it was designed as a, quote, end-
around around the ACA and does violence to ERISA.
    It seems to me there is three ways to get at this if you 
are going to reduce costs. One is by cherry-picking better 
workers in terms of what their healthcare costs would be, often 
younger workers; secondly, by cutting benefits that would be 
associated with those, part of the essential benefit package; 
or establishing underwriting rules either that underwrite for 
age or other conditions like pre-existing conditions. So I am 
disappointed with the department's position. Tell me which of 
those three things benefits folks in the association? Is it the 
cherry picking? Is it the cutting benefits? Is it underwriting 
rules? What is it that allows them to reduce costs and improve 
care?
    Secretary Acosta. Congressman, there is something else to 
add to that, which is called bargaining power. A small business 
can't bargain. When you have 4-or 500 small businesses coming 
together under one association or Chamber of Commerce, that 
association can put out a request for proposal, and it can ask 
for very competitive bids. And so, again, association health 
plans play by the same rules as large corporations. And they 
have the advantage of scale that goes to those large 
corporations--
    Mr. Morelle. Typically.
    Secretary Acosta.--in terms of risk pool and bargaining 
power.
    Mr. Morelle. Well, let me--and I apologize for 
interrupting. But I actually think what the advantage of large 
groups are is that they are able to pool large groups of 
workers together. I don't know that it is bargaining power. I 
think it is a question of whether or not they can share that 
risk.
    But, typically, what you have and under the Affordable Care 
Act and in my State of New York, you have community rating, 
which allows people to not be underwritten, have protections 
against age underwriting and other underwriting conditions. And 
that's what the Federal law is. So I would only see this if 
there was an ability to increase utilization of primary care 
and to do the kinds of things necessary, to have screenings and 
wellness programs.
    I don't see that as a mandate for these plans. What I see 
instead is the stripping away of benefits, which is, I think, 
why the court has--has imposed their order. So I am troubled by 
that, and I am troubled by the fact that I think what it's 
going to do is leave people without coverage. I do want to ask 
also, in my remaining minute, if you have--if you are a part of 
an associated health plan and you are a worker--let's say you 
come down with cancer and you are in the middle of treatment, 
radiation/chemotherapy, et cetera. If the business that you are 
part of--if it no longer is in the plan because it goes 
bankrupt or it somehow is out of business, what happens to that 
worker? Are they continued to be covered? Is there joint and 
several liability by the remaining or surviving members of the 
trust or the plan, rather?
    Secretary Acosta. Congressman, first let me go to your 
point about the association health plans, the anti-
discriminatory issues that you raise with respect to cherry-
picking, there are anti-cherry-picking rules in that so to 
address exactly your concern. And so, in the rule, your concern 
was addressed. With respect to joint and several, I would have 
to confer, but my impression is it is not joint and several.
    Mr. Morelle. Well, thank you. I will yield back the balance 
of my time and would like to come back to you offline, perhaps 
have additional conversations about these coverages.
    Thank you, Mr. Chairman.
    Chairman Scott. Thank you. The gentlelady from Nevada, Ms. 
Lee--
    And I think several members have indicated a desire to come 
back so I apologize.
    Mr. Secretary, I think we are going to have to take a break 
to vote after Ms. Lee. And if--we will do the best we can to 
get back as soon as we can.
    Mrs. Lee. Thank you, Mr. Chairman, and thank you, 
Secretary, for your testimony today. I wanted to now turn to a 
topic that's especially important in my home State, Nevada, the 
future of work. And, clearly, I welcome innovation and the 
entrepreneurial spirit that makes our Nation a leader in so 
many different areas. We are all aware of the impending effects 
of that deployment of newer technology on our workers.
    And recently, the GAO released a report highlighting the 
effects of advanced technologies on jobs and went on to direct 
the Department of Labor to develop better methods of leveraging 
data to track these work force impacts. This is a particularly 
important issue in Nevada, especially the city of Las Vegas. We 
are one of the cities most at-risk of losing jobs as a result 
of automation. Can you please just talk about what the 
Department of Labor is currently doing to better evaluate these 
impacts?
    Secretary Acosta. Congresswoman, thank you. We are 
certainly, you know, tracking this issue. And the Bureau of 
Labor Statistics, I believe is also looking at this. Technology 
is always changing and one of the challenges is, you know, the 
jobs, I believe, will be there. But they will be different 
types of jobs.
    And this goes to the question of skilling, which is why 
earlier I said it is so important that we change from a--we 
educate and then work economy to a--we educate and work 
simultaneous economy as we go forward, so that individuals are 
always receiving more skills. As the jobs change, let the 
skills and education also change.
    Mrs. Lee. I agree with you. But can you talk about what 
data, what you are doing to track this? Like what are you 
doing, specifically, to track what is happening with the work 
force?
    Secretary Acosta. So what data we are--I am sorry, your 
question is, what kind of data?
    Mrs. Lee. Basically, you know, we know that this is 
happening. What are you doing to measure it?
    Secretary Acosta. And so we do know that this is happening. 
One of the difficulties around measuring it is when a job 
changes or when a job, you know, is it because of technology or 
is it not because of technology? So, for example, is it because 
manufacturing is going overseas or is it because the type of 
manufacturing is changing? And so we know about it, we are--
    Mrs. Lee. But we do know that there are instances where 
businesses are employing automation to replace workers in jobs 
that were traditionally done by humans.
    Secretary Acosta. So, yes--
    Mrs. Lee. You know, I am just asking, I hope we can find a 
way of better tracking that. It is really just important to 
what we do in Nevada in terms of how we are looking at what 
type of people are going to be displaced. So just if we can 
work on that, I would greatly appreciate that.
    Secretary Acosta. Fair enough, Congresswoman.
    Mrs. Lee. The second question I have is about your 2020 
budget that requests a $14.7 million cut from $93 million for 
Reentry Employment Opportunities programs. You know, these 
funds are used to support community faith-based organizations 
that run programs helping young adult offenders, you know, at-
high-risk members of our society reintegrate.
    And in Las Vegas, we have a great organization called Hope 
for Prisoners.
    Secretary Acosta. I know it well. I have visited it, as a 
matter of fact.
    Mrs. Lee. It is great, yes. And, you know, I mean, a 2016 
study found the recidivism rate of 6 percent, which was 
incredibly low for an 18-month period. And given that we live 
in the Nation with the highest incarceration rate in the world, 
you know, working together to fund programs like this, I think, 
is incredibly economical, let's say.
    Secretary Acosta. So, Congresswoman, let me say I believe 
in these programs. Hope for Prisoners is an interesting one, in 
that it is incredibly successful at most things. Except it does 
not ask for Federal dollars from the department. And so, I say 
that to say that our funding is not always aligned with the 
most successful of programs because that is one that I think 
does it right. And one of its strengths is working with local 
businesses and also getting into the prison system and starting 
to work with individuals while they are in prison so there is a 
continuity.
    Mrs. Lee. So let's say we have programs that are successful 
like that, that do that. I am just wanting to know, do you--you 
obviously believe in those programs. So why the cut of, you 
know, clearly 16 percent?
    Secretary Acosta. Congresswoman, the budget proposal, I am 
sure, is going to be thoroughly vetted and it is something that 
we can talk about.
    Mrs. Lee. Great. I agree. I think that these are incredibly 
important programs in our community. And, you know, when you 
look for return on investment, given--granted, I am all for 
accountability and making sure that we are getting what we pay 
for. So with programs like that, I hope that we can look at 
ways to continue that investment. Because not only is it the 
right thing to do, it is also the economical thing to do. Thank 
you.
    I yield.
    Chairman Scott. Mr. Secretary, I apologize. We have to 
recess for a few minutes. It will be about 15 minutes before we 
can get back.
    Secretary Acosta. Thank you.
    [Recess from 1:51 to 2:33 p.m.]
    Chairman Scott. The committee will come to order. The 
gentleman from Alabama, Mr. Byrne.
    Mr. Byrne. Thank you, Mr. Chairman. Mr. Secretary, thank 
you for your unparalleled patience and thank you for what you 
do for the working men and women in America. Thank you for 
that.
    The Department of Labor has one of the largest workers' 
comp programs in the Nation. And the IG reported earlier that 
there have been some issues with regard to the overuse of 
opioids, which we see in other parts of society. Have you been 
able to do anything about that? If so, what?
    Secretary Acosta. Congressman, thank you for that question. 
We are facing a crisis with opioids today. You know, if we look 
at the number of adult workers, and we have good data on men 
and we are getting the data on women, 25 to 54, nearly one-
third of individuals who are not in the work force took an 
opioid yesterday. Not last week or last month but yesterday. 
And that really is a measure of how serious this crisis is.
    And so we reformed our workers' compensation program. We 
put in effective controls, tailored treatment, where we look at 
individuals and how they are treated, and work with their 
physicians, and new fraud detection. And here are the results, 
a 31 percent decrease in overall opioid use, a 24 percent 
decrease in new prescriptions, a 52 percent decrease in 
prescriptions over 30 days. On the prescriptions with the 
highest doses, the highest likelihood of addiction, morphine 
equivalent dose of 500 or more, a 62 percent decrease. And in 
terms of referrals for criminal prosecution, we went from three 
in 2016 to 64 for fraud.
    And I say this, not only is it important for us but it 
places, you know, this says to the public other similar 
programs can implement these measures and get the same results. 
So thank you for the question.
    Mr. Byrne. Well, thank you. And I know that you have been 
working very hard on this joint employer rule and I know you 
are in process with that and getting feedback from people. Do 
you think that the proposed rule will provide clarity for small 
businesses and workers so that they can understand what they 
are actually dealing with?
    Secretary Acosta. Congressman, that is right. So the 
different Federal circuits, the different courts of appeal had 
each developed their own rule. And so what we tried to do with 
this rule is survey the circuits and say, what is the plurality 
rule? What is the rule that is shared by the majority of the 
circuits? And in essence, we are proposing the plurality rule. 
It is common sense, it is straightforward. And it gives 
businesses and individuals throughout the Nation clarity as to 
what exactly the rule is so they can follow it.
    Mr. Byrne. Well, I appreciate that. Because we have heard 
an awful lot from small businesses around the country about how 
that--the prior rule would have adversely affected them. So I 
appreciate your taking a look at that.
    Let me bring one other issue to your attention that came up 
in February on the Workforce Protection Subcommittee that I sit 
on. We held a hearing on workplace violence impacting 
healthcare and social service workers. And I did not vote for 
the bill, did not sponsor that bill, but I share the concerns 
of my colleagues on the other side of the aisle that we need to 
move forward, OSHA needs to move forward with rulemaking in 
this area.
    I just want to let you know that there is sort of a joint 
feeling we need to move forward with that. Do you have anything 
you can report to us on that?
    Secretary Acosta. So I appreciate--first, thank you for 
letting me know. And OSHA is, in fact, moving forward. The 
first step is to convey what is known as a SBREFA panel, a 
panel that brings together various stakeholders and solicits 
input. And we are in the process of putting that SBREFA panel 
forward.
    Mr. Byrne. Thank you very much for that. I think the one 
thing that we all shared on that panel after the hearing was 
that this is a real problem and needs to be resolved. I know we 
have had some problems getting some people through the Senate 
that would help you with that. But it is my hope that you all 
will move forward on that expeditiously, because those workers 
do need the protection we can give them.
    Secretary Acosta. Right.
    Mr. Byrne. Once again, thank you for your service. And I 
yield back.
    Chairman Scott. Do you yield to the Ranking Member? You 
yield back?
    Mr. Byrne. I yield back.
    Chairman Scott. The gentlelady from Connecticut, Mrs. 
Hayes.
    Mrs. Hayes. Good afternoon. And thank you, Secretary 
Acosta, for being here today.
    Earlier in this hearing, Congresswoman Fudge asked you 
about overall cuts to the Job Corps program, something like 
$700 million in cuts. And you talk about revolutionary Job 
Corps pilot programs. But I do not understand how we are going 
to have revolutionary programs if we are having such large cuts 
that would really attack the basic needs of the program. And I 
am particularly shocked to see a call for an immediate closure 
of about 25 different Job Corps centers operated by the U.S. 
Department of Agriculture, with no explanation of a closure 
plan or requests for funding to support the wind-down process. 
Do you know where exactly those 25 programs would close?
    Secretary Acosta. So, Congresswoman, first with respect to 
the closures of the Job Corps operated by the Department of 
Agriculture, ultimately the question is, are those Job Corps 
programs focused on the skills that are currently most required 
by the economy and is the Department of Agriculture in a 
position and do they wish to continue those Job Corps programs.
    Let me go to the budget question and why pilot programs. 
The Job Corps budget has been a matter of contention going back 
several presidencies. And I have talked to former secretaries 
of labor for presidents who are no longer with us that pointed 
this out. And so I think it is important to look at reforms and 
at optimizing the program and at pilot projects, irrespective 
of where that budget ends up. And that is why we are looking at 
pilot projects, to try different methodologies in Job Corps 
centers. And we are focusing on States where the Governors want 
to try out different approaches and we are empowering the 
Governors to do that.
    Mrs. Hayes. Okay, so, but if this budget were to go into 
effect, I guess my challenge is, because I was a teacher before 
I came to Congress, what happens to all of the students who are 
displaced by the closures of these centers? So I guess my 
question, let me just give you the question first, does the 
Department of Labor have a plan for those students? Because, 
once again, pilot programs are not going to catch all of those 
students whose only option would be to go into a skills 
training program.
    Secretary Acosta. Congresswoman, I understand your question 
and, certainly, if any--when any Job Corps center is closed, 
there is a teach-out process, where we would ensure that the 
students that are currently there have the ability to complete 
their programs and their education. We would not just close it 
and tell those students, oh, good luck. That would not be our 
approach.
    Mrs. Hayes. But what about the next group of students? With 
these decreases in funding, we are closing the door to 
opportunity for future students.
    Secretary Acosta. So I share your concern, Congresswoman. I 
will give you an example. One of the pilot programs that we are 
trying out is called Job Corps Scholars. Currently, we are 
spending well over $30,000 per student, which is quite a bit. 
And so we are putting out a request for proposal for community 
colleges that want to do cohorts of 40 students at a time, to 
set up mini-Job Corps within their community colleges. And we 
are funding it for about half the cost, about 15,000 per year 
per individual, to cover tuition, to cover counseling, to cover 
room and board if the community college so chooses.
    And so the point that I am raising--and this would be a 
small pilot. It would be only 1,600 students, to see if it 
works. But the point that I am sort of raising is, there are 
many ways of approaching work force education and I do think it 
is important to try different methods to see what works best. 
Job Corps has not changed in decades. And Job Corps reform is 
appropriate.
    Mrs. Hayes. And I appreciate that answer, thank you. But 
when we talk about the many methods, we see cuts to the 
Department of Education, cuts to the Department of Labor. You 
know, these young people will hit the system again if they do 
not have the systems and the structures in place to help them 
become self-sufficient. So as your cut--1,600 is less than the 
number of kids that were in my high school. So I don't think 
that number is significant to talk about the work force that we 
are trying to educate, that we are trying to train for the jobs 
of the future.
    I was very impressed this morning to hear my colleagues on 
the other side of the aisle talk about jobs like welding and 
skills training jobs. Those are all unionized jobs that really 
are the drivers of this work force. So I am glad we are on the 
same page about that.
    But if we are not educating young people to go into those 
jobs, and 1,600 in a pilot program for the United States of 
America just doesn't seem sufficient. So I would just encourage 
you to think about that.
    Secretary Acosta. Thank you, Congresswoman. And, you know, 
so a Job Corps center is only about 150 on average. And so a 
1,600 pilot is about the size of 10, 10 Job Corps. But it is 
only a pilot, I know it is small. But we are just trying 
different approaches.
    Mrs. Hayes. Mr. Chair, I yield back.
    Chairman Scott. Thank you. The Ranking Member has an 
additional question.
    Ms. Foxx. Thank you, Mr. Chairman. I appreciate it.
    Mr. Secretary, full compliance is our goal for the laws the 
department enforces. For our wage and hour laws, we want 
workers to be paid the amount that they are owed when they are 
owed it. The Payroll Audit Independent Determination Program or 
the PAID Program has been up and running for over a year. Under 
the PAID Program, business owners are encouraged to conduct 
audits and, if they discover violations, to self-report those 
violations. Business owners may then work in good faith with 
the department to correct their mistakes and quickly pay 100 
percent of the back wages owed to the affected workers.
    What feedback have you received from workers and business 
owners who have participated in the PAID Program? In your 
opinion, has the program been a success so far?
    Secretary Acosta. So, Congresswoman, thank you for the 
question. As you rightly noted, wage enforcement is incredibly 
important. You know, in this past year, our Wage and Hour 
Division actually collected more money and returned it to 
American workers than any year in the history of wage and hour. 
And I say that and I preface the answer by pointing out, our 
enforcement is strong, as evidenced by the fact that we had our 
best enforcement year ever.
    Now, there are a number of programs throughout government 
that allow individuals that identify a mistake to self-report 
and the PAID Program is one of those. It is not open to an 
individual if you have already been sued, if someone brought a 
claim against you. It is genuinely for those individuals that 
said, I identified a problem, I want to pay the money that is 
due to my employees. And in those cases, they can go forward.
    Now, one of the issues we face is that attorneys general in 
some States have said if they do that, they will then face 
prosecution at the local level. And so we are working our way 
through that. But so far, we have had companies that have come 
forward and the money has gone back to employees and that is a 
good thing.
    Ms. Foxx. Thank you, Mr. Chair.
    Chairman Scott. Thank you. I now recognize myself for 5 
minutes for questions.
    Mr. Secretary, you indicated the differential between what 
we invest in technically qualified education plans and what we 
do in job development funds, the most frequently suggested 
response to this would be using Pell Grants for short-term 
programs. The challenge there is to make sure they are quality 
programs.
    Do you have a specific plan to guarantee quality for these 
programs? Or do we need to work on that?
    Secretary Acosta. Mr. Chairman, I recognize the importance 
of that. That is something that I think we should bring in 
Secretary DeVos and others into the conversation. But I think 
we should work on it because extending these Pell programs 
would be important. And if we can find a solution, I think 
everyone will win.
    Chairman Scott. Okay, now, registered apprenticeship 
programs are eligible for Federal financial support; is that 
right?
    Secretary Acosta. They do receive Federal dollars, yes.
    Chairman Scott. Do the IRAPs get Federal support?
    Secretary Acosta. Federal dollars are not used to support 
IRAP programs. Chairman, let me be specific. This committee and 
the Budget Committee appropriates apprenticeship dollars that 
go to support apprenticeships. I believe it is about $160 
million per year. Those, by legislation, are specifically 
directed to the registered program.
    Chairman Scott. The multi-employer pension crisis, has the 
department done any research on the cost of doing nothing? We 
know, for example, there would be less income tax paid, more 
access, more utilization of food stamps and Medicaid. Has the 
Department done an analysis of what the cost of doing nothing 
would be?
    Secretary Acosta. Congressman, the PBGC has certainly done 
extensive analysis in the cost of not addressing this issue 
with respect to it is going to get more and more expensive. The 
dynamic impact beyond just the expense of the PBGC is 
something, if we have that data, I am not aware of it.
    Chairman Scott. Could you provide for the record an update 
on the status of the beryllium regulations?
    Secretary Acosta. So, Congressman, with respect to the 
beryllium, the PEL, which is the level, the exposure limit, has 
gone into effect for both general industry and construction and 
shipyards. There is also something called the STEL, which is 
the short-term exposure limit. That has also gone into effect. 
And so the exposure limits are now live and in effect 
throughout the Nation.
    Separate from that are the ancillary provisions that are 
associated with beryllium. And those have to do with some of 
the equipment that is used, some of the medical monitoring. And 
so there is a notice of proposed rulemaking that was issued. We 
have received comments. We are in the process of going through 
those comments.
    Let me just inform the Chairman, those comments were 
fulsome and actually quite helpful. Sometimes, rules collect 
comments and the comments do not bring new information. In this 
case they did, and so we are taking a little bit of time to 
fully consider those comments before developing a final rule.
    Chairman Scott. It is a very important issue, particularly 
as it pertains to shipyards. So we will be following that.
    On the association plans, as you have pointed out, those 
that can get into an association plan will always pay less 
because if the bids come in higher, nobody is going to buy it, 
they will stay in the marketplace. But if they come in lower, 
if they have got an association of young, healthy males, they 
can pay less. The problem is, if some pay less, others are 
going to pay more.
    And I would like to introduce for the record a CBO report 
showing significant increases in premiums for everybody if the 
association plans and the junk plans are allowed.
    [The information referred to follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Scott. I did have a question on association plans, 
just to get some clarity in respect of the department's stance 
on association plans in light of the March 28 District Court 
decision in State of New York v. United States Department of 
Labor. Can you confirm for the committee that AHPs that were 
invalidated by the ruling are no longer able to enroll new 
customers?
    Secretary Acosta. Mr. Chairman, AHPs that were invalidated 
by the ruling cannot enroll new customers. But to provide a 
complete answer, they have to continue servicing. And one of 
the questions is, can AHPs continue in effect. And the answer 
we are giving is, yes. We are not enforcing against those AHPs 
to the extent they service existing customers. If someone has a 
healthcare plan, they should continue to receive benefits under 
that plan.
    Chairman Scott. Thank you. On the minimum wage, the White 
House economic advisor stated, and I quote, ``My view is a 
federal minimum wage is a terrible idea, terrible, and will 
damage particularly small businesses.'' Is that the position of 
the Department of Labor?
    Secretary Acosta. Mr. Chairman, about three-fifths of the 
States have passed a minimum wage that exceeds the Federal 
level. It is our view that a federal minimum wage would be 
those three-fifths of the States imposing a cost structure on 
the remaining two-fifths of States that have chosen not to 
increase the minimum wage above the Federal level.
    The Washington Post, in fact the editorial board, had an 
editorial that said much the same thing, that they were 
concerned about the high-cost States imposing cost structures 
on the low-cost States.
    Chairman Scott. The quote was that a federal minimum wage 
is a terrible idea. Is that the position of the Department of 
Labor?
    Secretary Acosta. Mr. Chairman, we do not support a change 
in the federal minimum wage at this time.
    Chairman Scott. You cited a Seattle study. Are you aware 
that the authors have backed off of their original conclusions?
    Secretary Acosta. Yes. They ran a second study. And one of 
the interesting parts of that study is, I believe, if I recall 
correctly, that while workers in the mid-wage areas experienced 
an increase, at the lower wage scale, there was a decrease in 
jobs. So even, you know, so even where there is not a net 
change in jobs, there is an impact, particularly at the lower 
end of the wage scale.
    Chairman Scott. But most studies have said that there is 
negligible if any impact on jobs.
    Secretary Acosta. Mr. Chairman, I understand we can spend a 
lot of time on studies.
    Chairman Scott. Let me ask, I have two other questions I am 
going to try to get in. The Office of Federal Contract 
Compliance Programs provides that those who contract with the 
Federal Government not only are prohibited from discriminating 
on employment but also have to have affirmative action plans. 
Can you explain how a faith-based contractor can affirmatively 
discriminate based on religion in hiring?
    Secretary Acosta. Mr. Chairman, the executive order has an 
explicit exemption for religious organizations to allow them to 
exercise a religious preference in their hiring. That is part 
of the executive order itself.
    Chairman Scott. And so if they have strong feelings that 
they are only going to hire people in an all-white church, 
essentially excluding African Americans, would that pass 
muster?
    Secretary Acosta. Mr. Chairman, it would be fact based. But 
in your set of facts, when religion seems to be an excuse for 
another kind of discrimination as you just mentioned in your 
fact pattern, that would be looked at very, very closely. And 
most likely, the answer would be--most likely if not 
definitely, the answer would be no, that is not what is meant 
by religious exemption.
    Chairman Scott. Finally, you had described earlier today, 
not in the committee, a program involving bonding for 
employees. Can you tell me how that is good for workers and/or 
business?
    Secretary Acosta. Mr. Chairman, certainly. Individuals, so 
we are facing a shortage of--you know, we have talked about how 
businesses want to hire. And there are individuals that have 
criminal convictions and they are leaving prison. And the 
best--in our opinion, the best way to help them is by helping 
them find a job. The best way to help society and keep society 
safe is by helping individuals, you know, find a path to a job. 
Because if there is no job, then the probability of recidivism 
is much, much higher. And from an economic perspective, we are 
much better off with individuals working as opposed to 
individuals going to prison, where society is paying the cost 
of prison. And so for all those reasons, we want to encourage a 
broad-based reentry program that helps individuals leaving 
prison find jobs.
    Something that we are doing with respect to that is a 
bonding program, where we are telling businesses, if you hire 
someone that has a criminal history that is reentering society, 
we will pay for a bond. And we will pay for a bond, I believe 
it is up to $25,000. At the end of the day, one of the great 
things--and, right now, it is a small program. But there are so 
few claims that it is not that expensive. Which, in fact, shows 
that these individuals are not as much of a danger as they are 
perceived.
    And so through this bonding program, we hope to, in 
essence, correct the market by showing that they are not as 
much of a danger, as evidenced by the fact that we are willing 
at the Federal level to sponsor a bond for them.
    Chairman Scott. And you mentioned a problem with security 
clearances. Can you help us figure out how to help those with 
criminal records get security clearances and whether it is 
legislative, administrative, and/or both, what we can do to 
facilitate that issue?
    Secretary Acosta. The Federal Government should lead the 
effort, you know, for reentry. And I am happy to work with the 
committee.
    Chairman Scott. Thank you. Does the Ranking Member have a 
closing statement?
    Ms. Foxx. Yes, sir, I do. Thank you.
    Mr. Secretary, at the beginning of this hearing, you 
observed there are clearly differences of opinion between the 
two sides here on the dais. Differences of opinion, however, do 
not equate to different sets of facts.
    I have listened as the Democrats here today have twisted, 
stretched, distorted and mourned the facts that are so clearly 
in favor of American workers. Mr. Secretary, some of us here 
have research backgrounds. We know how variables can shift one 
way or another and that can contribute to different outcomes. 
But the trends in favor of the American worker are simply 
indisputable. That is bad news for folks who clearly long for 
the day when working families are solely dependent on the 
Federal Government.
    The way I see it, how you view the facts says a lot about 
where your priorities really are and who you are here to serve. 
Let's go through a few examples.
    Since the beginning of 2017, the economy has created 5.1 
million jobs with 3.2 million created since the Republican Tax 
Cuts and Jobs Act. If you want to see moms and dads with more 
job options and college graduates with a hope for an entry-
level job that will keep them out of their parents' basement, 
that is a good thing. If you think Americans should spend the 
next 10, 20, 30 years working toward retirement in jobs they 
hate with no other options, I can see why you would be 
disappointed.
    In 2018, average hourly earnings experienced the largest 
increase since 2009, with the strongest wage gains being 
experienced by the lowest decile of earners. I believe you 
spoke to that. If you want to see Americans rewarded by their 
employers for jobs well done, for their contributions to 
growing businesses, this is great news. If you want the 
government and the government alone to be able to claim credit 
for individual prosperity, this is not good news for you.
    Unemployment is holding steady near historic lows. If you 
believe Americans living independently, providing for 
themselves and making ends meet is good, this news is 
outstanding. If you glean your self-worth as a Member of 
Congress by longer unemployment lines, I can see why this would 
be bad news for you.
    Even as employment increased, workplace deaths, injuries, 
and illnesses fell in 2017. If you want Americans to go to work 
every day in safe and healthy workplaces, this is a positive 
development. If you would rather point to bad actors and tragic 
accidents as reasons for sweeping Federal legislation, I can 
see why these trends are disheartening.
    Since DOL published the final rule expanding access to 
association health plans, more than 30 major organizations in 
14 States have established or announced their intent to 
establish an AHP to offer their employees affordable, high-
quality health coverage. If you want Americans to have more 
options, lower cost and better health coverage, this is great 
news. If your political future lives and dies on how fiercely 
you protect Obamacare, these facts are certainly not helpful.
    And I need to point out again, Mr. Secretary, something 
that got lost several times today in the discussions. And that 
is that AHPs cannot violate the ERISA law. And therefore, 
things thrown out as facts today about what AHPs can do are 
simply not facts.
    I would also like to point out that what is being called 
junk healthcare plans are merely short-term plans that were 
allowed up until the last days of the Obama Administration. And 
then a rule came out not allowing them. And, if you want to 
call them junk plans, then you are calling the 1.5 million 
Americans who have chosen to get them people who do not have 
very good judgment.
    Since President Trump established the National Council for 
the American Worker, more than 200 companies, associations, and 
labor organizations have pledged to create 7,452,470 new work 
force development opportunities for Americans of all ages and 
backgrounds. If you value success for every American, from 
every neighborhood and every walk of life, you have a positive 
view of these facts. Again, if you want the government and the 
government alone to pick winners and losers, these are facts 
you will not like.
    Last year, as you pointed out a few minutes ago, the 
Department's Wage and Hour Division recovered more than $304 
million in back wages for more than 265,000 workers across the 
United States, more than any other year in the agency's 
history. Mr. Secretary, you and those around you are doing 
excellent work. More importantly, the American people are doing 
excellent work. We are here for them. I am confident you are 
here for them also.
    I yield back.
    Chairman Scott. Thank you. And I thank you for your 
comments.
    And I just want to make a couple points for the record, one 
on apprenticeships. I wanted to clarify that during the 
hearing, we have heard about the expansion of apprenticeships 
to non-construction trades and professions and the industry-
designated apprenticeships. Data from the Department of Labor's 
website lists manufacturing and healthcare in the top 10 
industries for registered apprenticeships in Fiscal Year 2018 
and that expansion of new registered apprenticeships is at a 
10-year high. At a recent hearing, we heard from IT and 
insurance executives who are also successfully expanding 
registered apprenticeships across the country. So we do not 
necessarily need to go into lower-quality programs.
    We also heard that the lowest decile was the area with the 
most improvement in wages. And, as the Secretary mentioned, 
most of the States have increased their minimum wage recently 
and that is a major factor in increasing the wage for the 
lowest decile.
    In terms of association plans and the junk plans, the 
short-term plans, the problem that occurred was they went from 
3-month plans, where they were really short term, kind of 
transitional plans, to up to 3 years. So that you could have a 
plan and keep it for 3 years, which really takes you out of the 
market. Those who joined those short-term plans with less 
protection, without the essential benefits, with underwriting 
so they can deny people with preexisting conditions, creates a 
pool of people who are younger and healthier. And, okay, they 
will pay less. But unfortunately, as I indicated in a document 
we are introducing for the record, if some pull out and pay 
less, simple arithmetic says other people will pay more. 
According to the CBO, that could be close to $1,000 more for a 
family policy.
    So, Mr. Secretary, I want to thank you for being with us 
today. It has been a long day. You have been forthright with 
your answers and I certainly appreciate that. And we have a lot 
of work to do. I think there are a lot of issues where we are 
going to go forward together, particularly on the bonding and 
the security clearances, working to see if we can get together 
on the short-term Pell for jobs, and with a lot of other issues 
where we'll be going forward together. So thank you for being 
here.
    Secretary Acosta. Thank you, Mr. Chairman.
    Chairman Scott. And if there is no further business, the 
committee is now adjourned.
    [Questions submitted for the record and their responses 
follow:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    [Whereupon, at 3:07 p.m., the Committee was adjourned.]

                                 [all]
</pre></body></html>
